<html>
<title> - TRANSPORTATION WORKER IDENTIFICATION CREDENTIAL (TWIC) IMPLEMENTATION</title>
<body><pre>[Senate Hearing 110-1071]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 110-1071
 
 TRANSPORTATION WORKER IDENTIFICATION CREDENTIAL (TWIC) IMPLEMENTATION

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 12, 2007

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation





                  U.S. GOVERNMENT PRINTING OFFICE
39-014                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="096e7966496a7c7a7d616c6579276a666427">[email&#160;protected]</a>  

       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                   DANIEL K. INOUYE, Hawaii, Chairman
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska, Vice Chairman
    Virginia                         JOHN McCAIN, Arizona
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
BYRON L. DORGAN, North Dakota        KAY BAILEY HUTCHISON, Texas
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 GORDON H. SMITH, Oregon
MARIA CANTWELL, Washington           JOHN ENSIGN, Nevada
FRANK R. LAUTENBERG, New Jersey      JOHN E. SUNUNU, New Hampshire
MARK PRYOR, Arkansas                 JIM DeMINT, South Carolina
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
CLAIRE McCASKILL, Missouri           JOHN THUNE, South Dakota
AMY KLOBUCHAR, Minnesota
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
Lila Harper Helms, Democratic Deputy Staff Director and Policy Director
   Christine D. Kurth, Republican Staff Director, and General Counsel
   Kenneth R. Nahigian, Republican Deputy Staff Director, and Chief 
                                Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 12, 2007...................................     1
Statement of Senator Carper......................................    30
Statement of Senator DeMint......................................    55
Statement of Senator Inouye......................................     1
    Prepared statement...........................................     2
Statement of Senator Lautenberg..................................     3
Statement of Senator Smith.......................................     5
Statement of Senator Stevens.....................................     3

                               Witnesses

Hawley, Hon. Edmund S. ``Kip'', Assistant Secretary, 
  Transportation Security Administration, DHS....................     5
    Prepared statement...........................................     7
Himber, Lisa B., Vice President, Maritime Exchange for the 
  Delaware River and Bay.........................................    34
    Prepared statement...........................................    36
Pomaikai, Sr., Capt. Paul Kaipo, Assistant Port Captain, Sause 
  Bros.; on behalf of the American Waterways Operators...........    42
    Prepared statement...........................................    44
Rabkin, Norman J., Managing Director, Homeland Security and 
  Justice Issues, GAO............................................    16
    Prepared statement...........................................    18
Rodriguez, Michael J., Executive Assistant to the President, 
  International Organization of Masters, Mates and Pilots, AFL-
  CIO............................................................    47
    Prepared statement...........................................    48
Salerno, Brian, Rear Admiral and Director of Inspections and 
  Compliance, USCG, DHS..........................................    13
    Prepared statement...........................................    14

                                Appendix

Maritime Trades Department, AFL-CIO, prepared statement..........    64
Passenger Vessel Association, prepared statement.................    62
Response to written questions submitted by Hon. Maria Cantwell 
  to:
    Hon. Edmund S. ``Kip'' Hawley................................    74
    Capt. Paul Kaipo Pomaikai, Sr................................    89
    Norman J. Rabkin.............................................    85
    RADM Brian Salerno...........................................    82
Response to written questions submitted by Hon. Daniel K. Inouye 
  to:
    Hon. Edmund S. ``Kip'' Hawley................................    67
    Lisa B. Himber...............................................    87
    Capt. Paul Kaipo Pomaikai, Sr................................    88
    Norman J. Rabkin.............................................    84
    Michael J. Rodriguez.........................................    89
    RADM Brian Salerno...........................................    81
Response to written questions submitted by Hon. Frank R. 
  Lautenberg to:
    Hon. Edmund S. ``Kip'' Hawley................................    71
    Lisa B. Himber...............................................    87
    Michael J. Rodriguez.........................................    91
    RADM Brian Salerno...........................................    83
Response to written question submitted by Hon. Bill Nelson to 
  Hon. Edmund S. ``Kip'' Hawley..................................    79
Response to written questions submitted by Hon. Ted Stevens to:
    Hon. Edmund S. ``Kip'' Hawley................................    71
    Norman J. Rabkin.............................................    85
Response to written questions submitted by Hon. David Vitter to 
  Hon. Edmund S. ``Kip'' Hawley..................................    80
Wells, Ken, President, Offshore Marine Service Association, 
  prepared statement.............................................    59


 TRANSPORTATION WORKER IDENTIFICATION CREDENTIAL (TWIC) IMPLEMENTATION

                              ----------                              


                        THURSDAY, APRIL 12, 2007

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:00 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Daniel K. 
Inouye, Chairman of the Committee, presiding.

          OPENING STATEMENT OF HON. DANIEL K. INOUYE, 
                    U.S. SENATOR FROM HAWAII

    The Chairman. The Transportation Worker Identification 
Credential program, the TWIC, has been under development since 
2001, and despite $99.4 million in appropriations from 
Congress, unfortunately the program still is languishing at the 
Department of Homeland Security.
    In our last hearing on this subject about a year ago, we 
heard testimony about severe cost over-runs, contract 
mismanagement, excessive personnel turnover, poor 
communications and ineffective planning. At this hearing, we 
will examine whether the Transportation Security Administration 
and the United States Coast Guard have taken actions to address 
those criticisms.
    Additionally, I hope to hear how the agencies plan to 
deploy the biometric card enrollment and issuance process, just 
as importantly, how the agencies plan to execute the pilot 
program for card-reader technology.
    While I do not want to dwell on the mistakes of the past, 
this Committee needs assurance that the Administration has 
taken seriously the mismanagement of the TWIC program. Given 
that comprehensive management plan for TWIC required in the 
Intelligence Reform Act of 2004 is over two years past due, I 
can only conclude that the Administration is not taking its 
responsibility seriously enough. If the agencies continue to 
neglect the basic tenets of contract management and 
programmatic planning, failure is certain to follow.
    Completion of this program is a crucial step towards 
improving the security of our ports. And so, failure is 
unacceptable.
    When Congress considered the SAFE Port Act, we established 
implementation deadlines in consultation with the Department of 
Homeland Security. We did not want to impose a set of deadlines 
that the agencies would not be able to achieve. Working 
collaboratively, we required TWIC enrollment at the Nation's 
top ten high-risk ports by July 1, 2007. As of today, we do not 
have even the most basic deployment schedule. However, I am 
informed that enrollment scheduled to begin in Wilmington, 
Delaware, in late March has been postponed until late May, at 
best.
    We are all concerned that the low estimates of the 
population affected by the program are not realistic. This 
estimate is significant, in that it will determine the number 
of enrollment stations the contractor sets up and the number of 
trusted agents the contractor hires to process employees. An 
underestimate of the affected population would thus cause a 
domino effect, resulting in long wait times at the enrollment 
stations, poor customer service, and ultimately a slowing of 
the flow of commerce as labor circulates through a clogged 
enrollment and card issuance process.
    As we move forward with testing and implementing card-
reader technology in the rough maritime environment, the TSA 
and the Coast Guard must appropriately balance their multiple 
missions of safety, security and efficiency for both facilities 
and vessels. The card reader system cannot slow the flow of 
commerce through our terminals. The security practices the 
Department puts into place cannot compromise crew safety.
    I can appreciate the challenges associated with addressing 
these divergent issues. It is a difficult balancing act. 
However, after six years and $99.4 million, we still do not 
have access controls in our ports. I'm certain all agree that 
we need to get this program on track, and on schedule, for the 
safety and security of our Nation.
    [The prepared statement of Senator Inouye follows:]

 Prepared Statement of Hon. Daniel K. Inouye, U.S. Senator from Hawaii

    The Transportation Worker Identification Credential (TWIC) program 
has been under development since 2001 and despite $99.4 million in 
appropriations from Congress, it is still languishing at the Department 
of Homeland Security.
    In our last hearing on this subject almost 1 year ago, we heard 
testimony about severe cost-overruns, contract mismanagement, excessive 
personnel turnover, poor communications and ineffective planning. At 
this hearing, we will examine whether the Transportation Security 
Administration (TSA) and the United States Coast Guard have taken 
actions to address those criticisms.
    Additionally, I hope to hear how the agencies plan to deploy the 
biometric card enrollment and issuance process, and just as 
importantly, how the agencies plan to execute the pilot program for 
card reader technology.
    While I do not want to dwell on the mistakes of the past, this 
Committee needs assurance that the Administration has taken seriously 
its mismanagement of the TWIC program. Given that the comprehensive 
management plan for TWIC required in the Intelligence Reform Act of 
2004 is over 2 years past due to Congress, I can only conclude that the 
Administration is not taking its responsibility seriously enough. If 
the agencies continue to neglect the basic tenets of contract 
management and programmatic planning, failure is certain to result. 
Completion of this program is a crucial step toward improving the 
security of our ports. Failure is unacceptable.
    When Congress considered the SAFE Port Act, we established 
implementation deadlines in consultation with the Department of 
Homeland Security. We did not want to impose a set of deadlines that 
the agencies would not be able to achieve. Working collaboratively, we 
required TWIC enrollment at the Nation's top ten high risk ports by 
July 1, 2007. As of today, we do not have even the most basic 
deployment schedule. I am informed that enrollment scheduled to begin 
in Wilmington, Delaware, in late March has been postponed until late 
May, at best.
    I am also concerned that the low estimates of the population 
affected by the program are not realistic. This estimate is 
significant, in that it will determine the number of enrollment 
stations the contractor sets up and the number of trusted agents the 
contractor hires to process employees. An underestimate of the affected 
population would thus cause a domino effect, resulting in long wait 
times at the enrollment stations, poor customer service, and ultimately 
a slowing of the flow of commerce as labor circulates through a clogged 
enrollment and card issuance process.
    As we move forward with testing and implementing card reader 
technology in the rough maritime environment, the TSA and the Coast 
Guard must appropriately balance their multiple missions of safety, 
security and efficiency for both facilities and vessels. The card 
reader systems cannot slow the flow of commerce through our terminals. 
The security practices the Department puts into place cannot compromise 
crew safety.
    I can appreciate the challenges associated with addressing these 
divergent issues. It is a difficult balancing act. However, after 6 
years and $99.4 million, we still do not have access controls in our 
ports. We need to get this program on track, and on schedule, for the 
safety and security of our Nation.

    Senator Stevens?

                STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    Senator Stevens. Thank you, Mr. Chairman. I will have to 
leave here almost immediately, but I did want to stop by and 
state that I am encouraged that some progress has been made on 
this Transportation Worker Identification Credential, TWIC, 
since our hearing took place a little over a year ago. In 
January, I understand the final rules were issued for the 
biometric smart card to be used in the TWIC program. The Coast 
Guard is developing a process for expedited temporary clearance 
for newly-hired port and vessel workers. And, stakeholders 
indicate that communication within the Transportation Security 
Administration, TSA, has improved significantly. There is, 
however, room for improvement.
    Over four years have passed since the first legislative 
mandate requiring the development of this program, TWIC. Most 
recently, the SAFE Port Act established a timeline for 
deployment of the program to begin at 10 ports no later than 
July of this year. It is now my understanding that this 
statutory deadline, which was developed in coordination with 
the Department of Homeland Security and TSA, will likely not be 
met.
    Our Nation's ability to secure our ports largely rest in 
part on our ability to timely verify and identify our port 
workers and to prevent unauthorized access to these secure 
maritime areas.
    Absent this ability, port operations will remain at risk. 
The program is a complex undertaking. TSA and the Coast Guard 
and others are trying to ensure that we do have secure port 
operations. The Congressional tolerance, I'm sure you're aware, 
is waning because of the missed deadlines.
    I do have to leave, as I said. I look forward to reviewing 
the testimony from our witnesses, particularly their 
suggestions on how to get the program back on track and keep it 
on track.
    Thank you very much, Mr. Chairman.
    The Chairman. Thank you very much.
    Senator Lautenberg?

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. Thanks, Mr. Chairman.
    Thank you. Not to be repetitious, but as I listened to the 
Chairman's statement, we are talking about similar things, in 
our views, and we can't leave this situation as it is. It 
presents too many risks for our society. And, so when we talk 
about the failures of the past, it's simply to make sure that 
we understand what hasn't taken place that should have taken 
place. And, to get an examination of what's required. That's 
the most important thing.
    The Delaware River port system in South Jersey is the 
busiest crude oil tanker port in the United States and it's the 
third busiest in the world. The Port of New York and New Jersey 
is the largest port on the East Coast and it's the second 
busiest container port in the country. And, Northern New 
Jersey's port sits alongside an area that has been defined as 
the two most dangerous miles in America for terrorism, 
according to the FBI.
    Now, New Jersey's ports are vital to our region, not only 
vital to our region, but our national economies as well. And, 
the security of the vessels that dock there, longshoreman who 
work there and surrounding communities are even more critical 
to me. It's an area that is home to--whether during their 
business or residential hours--to approximately 12 million 
people. So, we've got to be very arduous in terms of getting 
this program underway, it's essential.
    The White House has had a chance to demonstrate their 
commitment to port security by getting the TWIC program up and 
running. But, instead of making this program a success, the 
Administration has let it become another example of 
mismanagement, poor planning, and neglect of our Nation's 
security.
    Almost 6 years after 9/11, only 1,700--one thousand seven 
hundred--are known to be in the hands of cardholders, that's 
after 6 years, almost 6 years. And the Bush Administration has 
spent, as the Chairman said in his comments, nearly $100 
million administering this program. That, my friends, is nearly 
$60,000 a card they've spent.
    With so many workers lacking their TWIC cards, the Bush 
Administration tried to conduct more basic security measures by 
running the names of port workers against the Nation's Terror 
Watch List. But, while the Administration did background checks 
on dock workers with access to secure areas of the port, they 
failed to check truck drivers--so numerous--with access to the 
same secure areas of the port.
    With the help of Chairman Inouye and Vice Chairman Stevens, 
I secured language in last year's SAFE Port Act, to require 
them to include truck drivers, to get this right, by January 
2007. But, thus far, the law has been ignored by the 
Administration. And now, to try and get TWIC back on track, the 
Administration wants to charge employees for their IDs, at a 
cost of $135 apiece.
    Worse still, we have no assurance that our ports will have 
the technology to scan these biometric cards, because the 
President didn't request any funding for it. This kind of 
mismanagement is not fair to our workers, it's not fair to our 
ports, it's not fair to our communities, and it's not the level 
of security that we need in our country.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Senator Smith?

              STATEMENT OF HON. GORDON H. SMITH, 
                    U.S. SENATOR FROM OREGON

    Senator Smith. Thank you, Mr. Chairman, for all your good 
work, and for holding this hearing.
    I thank our witnesses, also, for being here today. It has 
been a long road getting to this point.
    When we first mandated the issuance of the biometric 
transportation security card, known as TWIC, as part of the 
2002 Maritime Transportation Security Act, I was--at that 
time--the Ranking Member on the Surface Transportation and 
Merchant Marine Subcommittee. After a hiatus of 4 years, I'm 
once again the Ranking Member. And, unfortunately, we're still 
dealing with the TWIC program implementation.
    No question, there have been mistakes along the way and 
it's understandable given all of the difficulties and 
complexities of starting up a Department like Homeland 
Security. The fact remains, that we're entrusted as stewards of 
the public's fiscal resources, and more importantly, in 
providing for the safety and security of the American people.
    The SAFE Port Act mandated the Transportation Security 
Administration rollout the TWIC program at 10 U.S. ports later 
this year. The Port of Portland, in my home State of Oregon is 
not one of those ports selected for the initial phase, the 
roll-out, but I'm told the Port's Maritime Security Manager is 
meeting with the TWIC contractor this morning to talk about the 
implementation schedule for Portland. So I, along with folks 
back home in Oregon, am watching this phase of the roll-out 
very closely with the expectation that it will soon be 
Portland's turn.
    I believe that TWIC is an important program, and it's 
important to get it right, so for that reason, I know we're 
holding this hearing, and again, I thank you for that, Mr. 
Chairman.
    The Chairman. Thank you very much. This morning we have two 
panels, the first panel consists of the Assistant Secretary of 
Transportation Security Administration, Mr. Ed ``Kip'' Hawley, 
from the United States Coast Guard; Rear Admiral Brian Salerno; 
and the Managing Director of the Homeland Security and Justice 
Issues, Government Accountability Office, Mr. Norman J. Rabkin.
    And, I call upon Secretary Hawley.

          STATEMENT OF HON. EDMUND S. ``KIP'' HAWLEY,

 ASSISTANT SECRETARY, TRANSPORTATION SECURITY ADMINISTRATION, 
                              DHS

    Mr. Hawley. Good morning, Mr. Chairman, thank you and 
members of the Committee, Ranking Member Smith. Thank you for 
this opportunity to discuss the TWIC program. I'm pleased to be 
here this morning with Admiral Brian Salerno, our partner from 
the Coast Guard, and Norm Rabkin from the Government 
Accountability Office.
    I'd like to spend a little bit of time talking in detail 
about the program overall, its technology, business process and 
timetable. But to start off, I think I should answer one 
fundamental question, which is why is this taking so long?
    In a city where most of us wear one or more security ID 
cards, what is so hard about producing a TWIC? There are four 
major differences from this kind of a card.
    First, TWIC uses the latest, most advanced Federal 
Government biometric standard, and for the first time, applies 
it to the commercial sector. Second, TWIC issues cards that 
work anywhere in the Nation's private port environment, by 
anyone working there, across companies, and industries. Third, 
TWIC has not only unparalleled flexibility, it has massive 
scale. Somewhere in the realm of 1 million cardholders in 3,200 
ports. In comparison with our prototype project, we will 
process in one day, more credentials than we did in one year, 
under the prototype.
    Finally, TWIC security checks will be integrated into all 
of TSA's vetting programs, which means that we can connect the 
dots throughout the entire transportation sector. TWIC is an 
advanced, sophisticated, credentialing system. In other words, 
the hard part is not the card, it is the network behind the 
card.
    Breaking new ground in technology has obvious advantages, 
but it always brings schedule risks, and TWIC is no different. 
Three developments in the last year have made this project even 
more complex. First, we made the decision to bring TWIC into 
alignment with a new Federal Government biometric standard 
called FIPS 201. Second, we identified and closed potential 
data privacy gaps, as of this past February. And third, working 
with the Coast Guard, we incorporated more than 1,900 comments 
received during our rulemaking process, into the detailed 
blueprint for TWIC. That rule became final several weeks ago.
    On top of the challenges I mentioned of introducing new 
technology on a massive scale, while at the same time, making 
the three major program adjustments, we have one more 
additional complexity, and it is a big one. We will connect 
TWIC into what we call the screening gateway.
    As you know, TSA vets many different people in different 
industries--aviation, truck drivers, now maritime--and in order 
not to miss potential links among them, we now use a 
centralized vetting system. So, in turning TWIC on, we must be 
absolutely certain that we do not jeopardize the stability or 
security of this larger vetting system. The only way to be sure 
is to flight-test TWIC extensively.
    All of the internal moving parts to TWIC must work 
together, and they must work in combination with the larger 
screening gateway. Rigorous performance testing is the only way 
to know for sure that TWIC is ready to go live. That's where we 
are in the process, and what remains is the testing.
    Everybody wants to know when TWIC enrollments will start, 
and we are all very mindful of the SAFE Port Act deadline of 
July 1 to enroll 10 ports in TWIC. So, where are we on that?
    TSA has already conducted--as Senator Lautenberg 
mentioned--Watch Lists and immigration checks for over 750,000 
port workers, and will do it again over the Summer to keep that 
assessment fresh. I believe that addresses the near-term, real-
world security concerns about the current workforce, even 
before the cards are issued.
    For us, the stakes are enormously high. For the people who 
pay for these cards, and use them daily to enter workplaces and 
jobs, they are also high. Out of respect for these employees 
and the businesses, we must spend the time to ensure that the 
program is tested, fully integrated, and does not compromise 
security in any linked system.
    We respect the deadline, and April is too soon to give up 
on a July deadline. But, if it is a choice between meeting that 
deadline, and program integrity, we will choose the latter.
    We have a strong new team onboard from Lockheed Martin with 
excellent program support from TSA and the Coast Guard. The 
industry and its workers have been forthcoming and 
constructive. For commerce, TWIC means that thousands of 
independent businesses will have one, interoperable security 
network for the first time in history.
    We look forward to working with the Committee to ensure the 
success of the TWIC program, and port security, generally.
    Thank you for the opportunity, I'd be happy to answer 
questions.
    [The prepared statement of Mr. Hawley follows:]

    Prepared Statement of Hon. Edmund S. ``Kip'' Hawley, Assistant 
         Secretary, Transportation Security Administration, DHS

    Good morning Chairman Inouye, Vice Chairman Stevens, and 
distinguished members of the Committee. Thank you for this opportunity 
to speak with you about the Transportation Worker Identification 
Credential (TWIC) program.
    I would like to acknowledge the leadership this committee has 
provided in defining the vision and requirements for TWIC. The TWIC 
program is moving aggressively toward its objectives with a focus on 
making good security and business decisions. This leading edge program 
is developing essential processes, capabilities and expertise that will 
be beneficial to other programs.
    The final rule for TWIC went into effect on March 26, 2007. With 
the passing of this critical milestone, this hearing provides an 
excellent opportunity to highlight program developments and describe 
how we are incorporating our lessons learned into an effective, 
efficient business plan for TWIC enrollment.
    We have framed our program decisions and processes within the 
context of the Nation's port security goals, including the need to:

  <bullet> Identify authorized individuals who require unescorted 
        access to secure areas of Maritime Transportation Security Act 
        (MTSA) regulated facilities and vessels;

  <bullet> Determine the eligibility of an individual for access 
        through a security threat assessment;

  <bullet> Ensure unauthorized individuals are denied access through 
        biometric confirmation of the credential holder;

  <bullet> Revoke access promptly for individuals who fail to maintain 
        their eligibility;

  <bullet> Apply privacy and security controls to protect TWIC 
        information; and,

  <bullet> Fund the program entirely by user-fees.

    Achieving these ambitious goals has required creative planning, 
flexible implementation, effective stakeholder communication, and 
adaptive contract management. The basic program deployment philosophy 
has been a commitment to evaluate all practicable technical 
alternatives that will provide adequate port security and minimize 
adverse impacts, either economically or logistically, to our Nation's 
citizens and our international trading system. This has been and will 
continue to be the program's implementation premise.
TWIC Milestones to Date
    An estimated 750,000 workers currently have unescorted access to 
our ports. The central technical TWIC challenge is providing facilities 
and vessels with a reliable tool for identifying individuals who have 
been granted authorized access to our ports. Simply put, TSA has been 
tasked with the development of a 21st century identification system. 
The key element of the system is a card that includes biometric 
technology that makes it virtually impossible for the card to be used 
by anyone other than the person to whom the card was issued.
    The technical principle underlying TWIC's ability to authenticate a 
person's identity includes three factors. When using the full extent of 
TWIC's authentication ability each person can be identified by:

  <bullet> Something they know--a worker's Personal Identification 
        Number (PIN);

  <bullet> Something they have--the TWIC credential; and

  <bullet> Something they are--a biometric.

    Obviously, new processes and technologies require systematic pilot 
studies. The prototype study was deployed to 26 locations in the areas 
of Los Angeles/Long Beach, Wilmington/Philadelphia and Florida's 
deepwater ports. The prototype TWIC was successfully issued to more 
than 4,000 volunteer workers including truck drivers, longshoremen, 
container terminal, railway, and airport personnel. A name-based threat 
assessment was completed on each individual. A criminal background 
check was conducted by the State of Florida for the deep-water port 
volunteers. These efforts were a success on multiple levels; it 
provided invaluable experience and a much deeper understanding of the 
technical and logistical challenges.
    Security improvements could not wait until TWIC is fully deployed. 
We have gone forward with significant interim security enhancements and 
actions during TWIC's initial development phase. These actions 
included:

  <bullet> The Coast Guard worked effectively with National Maritime 
        Security Advisory Committee (NMSAC) to define secure areas. 
        This definition will have a direct impact on over 10,000 
        vessels and more than 3,200 facilities. These secure areas 
        delineate where a TWIC will be required for unescorted access.

  <bullet> The joint rulemaking process between the Coast Guard and TSA 
        was accelerated resulting in TWIC Notice of Proposed Rulemaking 
        (NPRM) being published on May 22, 2006.

  <bullet> The Coast Guard and TSA worked with industry partners to 
        develop an interim process that compares a worker's 
        biographical information against our terrorist watch lists and 
        immigration databases.

  <bullet> Facility owners, facility operators and unions submitted 
        worker names, date of birth, and, as appropriate, alien 
        identification number. The worker's immigration status was 
        checked by the U.S. Citizenship and Immigration Service using 
        its Central Index.

  <bullet> To date TSA has completed 740,000 name-based threat 
        assessments on port workers and longshoreman. These assessments 
        were an interim measure and did not include the criminal 
        history records check or biometric credential that is part of 
        TWIC.

TWIC Rule and Stakeholder Input
    The TWIC rule was posted on the TSA and Coast Guard websites on 
January 1, 2007, and published in the Federal Register on January 25, 
2007. The rule is the result of extensive public involvement and 
interagency coordination. In addition to the direct involvement of the 
National Maritime Security Advisory Committee, TSA and the Coast Guard 
held four public meetings in Newark, NJ; Tampa, FL; St. Louis, MO; and 
Long Beach, CA. Over 1,900 comments were received from workers, port 
owners and operators, small businesses and others affected by the new 
program. All comments were carefully considered and we made significant 
changes to the NPRM in the development of the Final Rule. These changes 
include:

  <bullet> The Coast Guard and TSA delayed the requirement to purchase 
        and install electronic readers to allow for additional field 
        testing, technology improvements, and more public comment.

  <bullet> We created an expedited interim threat assessment process 
        for new hires so that they may go to work pending completion of 
        the full threat assessment.

  <bullet> We expanded the immigration requirements to permit certain 
        visa-holders who are prevalent in the maritime industry to 
        apply for TWIC.

    In addition, the TWIC NPRM and Final Rule include provisions that 
respond to comments we received from workers subject to similar threat 
assessment programs. These include:

  <bullet> Creating a new process where TSA can make a determination 
        that a security threat assessment conducted by another 
        government agency is comparable, eliminating redundancy and 
        reducing costs for workers;

  <bullet> Providing workers more time to apply for an appeal or 
        waiver;

  <bullet> Streamlining the process, jointly with the Coast Guard, for 
        merchant mariner credentialing and ensuring that there was no 
        duplication of requirements resulting from the TWIC process.

    TWIC cards will be required not only for port facility workers, but 
for anyone who seeks unescorted access to secure areas of a MTSA 
regulated facility or vessel, regardless of frequency. The workers 
covered by this rule include certain truck drivers, rail employees, 
security guards, longshoremen, as well as all U.S. merchant mariners. 
TSA will use the time tested security assessment procedures and 
standards that are currently used for commercial motor vehicle drivers 
licensed to transport hazardous materials, known as Hazardous Material 
Endorsements (HME). In short, TWIC will be issued to workers who 
successfully complete a security threat assessment, which includes: (1) 
a check against terrorist watch lists, (2) an immigration status check, 
and (3) a FBI fingerprint-based criminal history records check.

TWIC Card Readers
    The TWIC rule does not currently include a requirement for owners 
and operators to use card readers. This was done as a response to 
important public comments received on the NPRM and concerns from 
Congress expressed in the SAFE Port Act. The card reader requirement is 
being formulated and coordinated by extensive technical input from 
industry and the public. In the interim, workers seeking unescorted 
access to secure areas will present their cards to authorized 
personnel, who will compare the photo, inspect security features on the 
card, and evaluate the card for signs of tampering. At facilities with 
various sophisticated access control systems, the magnetic stripe on 
the credential could be used to grant or deny access at entry gates. 
The Coast Guard will also institute periodic unannounced checks to 
confirm the identity of the holder of the TWIC.
    We will continue to work closely with all interested parties to 
address the ever evolving technology issues. The TWIC technical 
architecture is compatible with Homeland Security Presidential 
Directive (HSPD) 12 and Federal Information Processing Standards (FIPS) 
201-1 requirements which provide an open standard that will ensure 
interoperability and real-time exchange for supply chain security 
cooperation between the Department and the private sector. The 
applicant's photograph, name, TWIC expiration date, and a unique 
credential number are printed on the card. An integrated circuit chip 
on the card stores two fingerprint minutia templates and a PIN as well 
as a digital photo of the applicant, the applicant's name, and card 
expiration. The embedded computer chip is capable of being read by both 
contact and contactless card readers and also contains the magnetic 
strip and linear bar codes.
    In addition to previously conducted prototype testing, pilot test 
planning and discussions with interested port, facility, and vessel 
operators began late last year. The pilots will test access control 
technologies in real-world marine environments. The National Maritime 
Security Advisory Committee is providing invaluable input regarding 
operational requirements and has recommended specifications for 
contactless biometric smart cards and card readers. Public feedback is 
being collected and analyzed on the recommendations. As part of the 
outreach efforts for the TWIC program and the Department's Port 
Security Grant Program we have met with a number of maritime interests 
to invite their participation in the pilot tests. Our objective is to 
include pilot test participants that are representative of a variety of 
facility and vessel types and sizes which operate in a variety of 
geographic locations and environmental conditions. There appears to be 
sufficient interest from the maritime community to achieve this 
objective.
    The Department is currently reviewing Port Security Grant 
applications relating to these pilot studies and will announce awards 
later this spring. While the grant process is proceeding, TSA and Coast 
Guard are working with Department test and evaluation experts to 
develop a comprehensive plan that addresses the unique pilot test 
challenges. The evaluation of the pilot tests will greatly facilitate 
the Department's efforts to propose a TWIC reader requirement rule that 
effectively addresses security requirements, maintains the flow of 
commerce, and protects the personal information used to validate the 
TWIC holder's identity.

Rollout Contract
    A key operational piece of the rollout plan was the award of a 
competitively bid, indefinite delivery/indefinite quantity contract to 
Lockheed Martin Corporation. The TWIC enrollment and systems operations 
and maintenance contract will include a Quality Assurance Surveillance 
Plan (QASP) that establishes detailed metrics to be monitored through 
the life of the contract and will determine whether the contractor will 
receive any award fee for services performed.
    Lockheed Martin will establish approximately 130 enrollment centers 
near the port facilities where applicants will provide biographic 
information and fingerprints. This information will be transferred to 
TSA so we may conduct a threat assessment involving checks of criminal 
history, immigration, and intelligence databases. Once a worker 
successfully completes the threat assessment process, the government 
will produce the credential and send it to the enrollment center, where 
the worker will retrieve it. TWIC enrollment will begin initially at 
select ports based on risk and other factors and will proceed 
throughout the Nation over the next 18-24 months.

TWIC Card Costs
    As required by Congress, the costs of the program will be borne by 
TWIC applicants. Therefore, we are obligated to look for practicable 
ways of controlling costs, eliminating duplicative processes, providing 
timely decisions, and, most importantly, ensuring accuracy and 
fairness.
    The fees for a TWIC will be slightly lower than was anticipated in 
the Final Rule. A TWIC will be $137.25 for a card that is valid for 5 
years. Workers with current, comparable background checks (e.g., 
HAZMAT, Merchant Mariner Document (MMD) or Free and Secure Trade 
(FAST)) will receive a discounted fee of $105.25. The cost of a lost, 
damaged or stolen credential is $36, although we have solicited comment 
on raising that fee.
    We fully realize that these costs are not an insignificant amount 
to some workers. However, we feel that the costs compare very favorably 
with equivalent HSPD-12 compliant card fees and in some instances may 
actually reduce the costs for some workers. For example, the Coast 
Guard is in the process of completing a companion rule which will 
consolidate existing mariner credentials and streamline the application 
process for mariners who have already applied for the TWIC. This will 
reduce the overall cost burden for these workers. Preparations are 
underway to reduce duplication by having TSA provide the Coast Guard 
with electronic copies of the applicant's fingerprints, proof of 
identification, proof of citizenship, photograph, and if applicable the 
individual's criminal record, FBI number and alien registration number. 
This will eliminate the need for TWIC holding mariners to visit a Coast 
Guard Regional Exam Center to apply for or renew their Merchant Mariner 
Credential unless an examination is required.

Rollout Communication Plan and Pre-Enrollment
    Effective public communication is fundamental to our rollout plan. 
The TWIC program office has used the lessons learned from the prototype 
phase to develop a multi-dimensioned outreach strategy for all of the 
enrollment phases. A toll-free help desk, Frequently Asked Questions, 
informational brochures, and a centralized e-mail address will provide 
up-front assistance and guidance for workers, owners, and operators. 
These services include program information, response to enrollment 
questions, pre-enrollment assistance, lost/stolen card reporting, 
credential replacement support, updates on an individual's case, and 
information on appeals and waivers. Applicants are encouraged, but not 
required, to ``pre-enroll'' and provide biographic information at the 
secure TWIC website which should help reduce waiting time at the 
enrollment centers. An additional service that is provided during pre-
enrollment is an opportunity for the applicant to schedule an 
appointment for appearing at the enrollment center.
    Lockheed Martin is required by contract to develop a communication 
plan to ensure that applicants, operators, and relevant industry 
associations are educated and knowledgeable about the TWIC enrollment 
process. The communication plan will identify TSA goals and 
responsibilities, contractor goals and responsibilities, port facility 
and vessel responsibilities, target audiences, communications 
processes, and supporting communication tools. A key plan element is 
the use of a communication committee to ensure sustained two-way 
communication with major stakeholders. This vital effort is calculated 
to provide the most current, accurate program information to interested 
stakeholders and provide a mechanism for continuing stakeholder input 
during the rollout.

Enrollment Centers
    Enrollment sites will be operated by trusted agents who are 
employees of a vendor under contract with TSA. These trained agents 
will have undergone a TSA security threat assessment before being 
allowed to collect the data. The trusted agents will provide applicants 
with a privacy notice and consent form, by which the applicant agrees 
to provide personal information for the security threat assessment and 
credential. The trusted agents will verify an applicant's identity, 
confirm the accuracy of biographic information, collect biometric 
information (a full set of fingerprints and a facial photograph), and 
obtain the applicant's signature on the enrollment documents. The 
contract performance parameter for the trusted advisor enrollment 
process will be an average enrollment time of 15 minutes. The 
enrollment process for a pre-enrolled applicant is fully expected to 
take less time. As you can see, focused planning that fosters 
convenience for applicants will benefit workers as well as our process 
efficiencies.

Data Security Vetting and Card Issuance
    After enrollment, an applicant's data is sent to the TSA system, 
and the vetting process (i.e., terrorism database, criminal history 
records check, immigration check) is started. We anticipate that the 
TWIC threat assessment processing time will be similar to our 
experience in the HME program. Since the inception of the HME program, 
threat assessments have frequently been completed in 3 days or less. 
During this same period the average time for completing HME threat 
assessments has been approximately 14 days, which includes all appeals 
and waivers. The process will be impacted by steps where there is 
minimum governmental control. For example, applicants need to promptly 
provide corrected records, and respond to initial determinations. Other 
factors that we anticipate could result in processing delays include an 
applicant providing incorrect information, watch list determinations, 
evaluation of the nature of threats, whether the applicant is currently 
under criminal investigation, and confirming immigration status that is 
not available in electronic format. Nonetheless, the 14 day average for 
processing the HME assessments includes the time required to meet the 
same threat assessment challenges that we will face with TWIC.
    If TSA determines that an applicant does not pose a security 
threat, the applicant's information is sent for card production. After 
the card is developed it is sent to the enrollment center, where the 
worker will be notified to pick up the card. Due to the secure nature 
of the credential, the smart cards are shipped as ``inactive.'' An 
applicant must verify his or her personal identity by providing a 
biometric (i.e., fingerprint) that is matched to the cards electronic 
template. After identity is verified, the applicant selects a secret 
PIN which is stored on the card as an additional identity 
authentication factor.

Worker Redress/Waivers/Appeals
    If an applicant is denied a TWIC they will be notified of the 
reason and instructed on how to apply for an appeal or waiver. All 
applicants have the opportunity to appeal a disqualification and may 
apply to TSA for a waiver. In order to expedite processing time, 
applicants who are aware of a potential disqualifying crime may begin 
the waiver process when they initially apply for a TWIC.
    The standards for denial of a TWIC are the same standards that 
apply in the HME process. Any applicant who is subject to removal 
proceedings or an order of removal under the immigration laws of the 
United States is not eligible to apply for a TWIC. An individual will 
be disqualified if he or she lacks legal presence and/or authorization 
to work in the United States, has a connection to terrorist activity, 
or has been determined to lack mental capacity.
    A person will also be denied a TWIC for a criminal history 
involving certain disqualifying crimes. TSA received valuable NPRM 
comments on the list of disqualifying crimes and decided to fine tune 
the list to better reflect crimes that are more likely to result in a 
terrorism security risk or a risk that the individual may engage in a 
transportation security incident. Permanent disqualifying criminal 
offenses include: espionage, sedition, treason, terrorism, improper 
transportation of a hazardous material, unlawful possession, use or 
sale of an explosive, murder, threats to a place of public use 
(government facility, public transportation system, or infrastructure 
facility), violations of the Racketeer Influenced and Corrupt 
Organizations (RICO) Act in which the predicate act is one of the 
permanently disqualifying crimes, or a crime involving a transportation 
security incident. A transportation security incident is a security 
incident resulting in a significant loss of life, environmental damage, 
transportation system disruption, or economic disruption in a 
particular area.
    Individuals are ineligible for a TWIC if convicted in the last 7 
years or incarcerated within the last 5 years of the following crimes: 
Unlawful possession, use or sale of a firearm or other weapon, 
extortion, fraud, bribery, smuggling, immigration violations, 
distribution or importation of a controlled substance, arson, 
kidnapping or hostage taking, rape or aggravated sexual abuse, assault 
with intent to kill, robbery, RICO violations that do not involve a 
permanent disqualifying crime.
    The appeal process involves ensuring that the information on which 
TSA bases its threat assessment is completely accurate. This process 
allows the applicant to correct the record on which that threat 
assessment occurs.
    Fairness and accuracy in TWIC waiver determinations are further 
ensured by an opportunity for independent review by an Administrative 
Law Judge. As previously noted, the regulations provide a lengthened 
period for appealing denial of waivers, from 30 days to 60 days, to 
accommodate workers who tend to travel for extended periods of time. 
Furthermore, the regulations allow a worker to file a request for a 
time extension after the deadline has passed by filing a motion 
describing the reasons why they were unable to comply with the 
timeline. The extra procedural measures are intended to give workers 
every reasonable chance to bring legitimate concerns and issues to the 
attention of people who are trying to make the best and correct 
decision regarding security risks.

Lessons Learned and Future Efforts
    The initial rollout of TWIC will be focused on the maritime mode. 
However, once the initial maritime rollout is complete DHS will 
evaluate deployment of this program in other modes of transportation. 
The analysis and planning for any resulting decision will benefit from 
the experience, technical expertise, and lessons learned that evolved 
under the TWIC program.
    There are several vital lessons learned during the development of 
this program that must be prominently considered in future efforts:

  <bullet> Look for efficiencies in duplicative regulatory processes. 
        As noted previously, TSA and Coast Guard are developing 
        procedures for the sharing of mariner fingerprints, identity 
        verification, criminal history, and photographs for TWIC which 
        is expected to save not only money but time. In addition, 
        merchant mariners will no longer be required to visit a 
        Regional Exam Center to obtain and renew their credentials, 
        resulting in substantial time and travel savings.

  <bullet> Address the impact on small businesses. TSA and the Coast 
        Guard worked closely with the Small Business Administration to 
        minimize the financial and operational impact on small 
        businesses wherever possible. The rule includes provisions that 
        allow MTSA-regulated passenger vessels (excluding cruise ships) 
        to establish employee access areas for crewmembers that do not 
        require unescorted access to secure areas such as the pilot 
        house and engine room. This provision reduces the impact on 
        those employees who rarely need to use spaces beyond those 
        designated for support of passengers while maintaining the 
        integrity of vessels' secure areas. We are also producing and 
        distributing a Small Business Compliance Guide to assist small 
        businesses in their implementation of the program.

  <bullet> When practicable, preserve state regulatory flexibility. 
        Mariner regulations and port security plans preempt state 
        regulations. However, TSA does not preempt states from 
        requiring background checks and badging systems in addition to 
        TWIC. States may need to set standards for important purposes 
        other than terrorism threats, such as preventing drug 
        trafficking or organized crime.

  <bullet> Plan for privacy. All data collected at an enrollment center 
        will be deleted from the enrollment center work stations. The 
        entire enrollment record (including all fingerprints collected) 
        is stored in the TSA system, which is protected through role-
        based entry, encryption, and segmentation to prevent 
        unauthorized use.

  <bullet> Technical innovation requires adaptive contract management. 
        TWIC is attempting to develop a 21st century technology that 
        accommodates evolving IT standards suited to emergent needs 
        that span local, international, public, and private interests. 
        This requires continual reevaluation of the scope and methods 
        of contracting. The recent Lockheed Martin contract award is a 
        culmination of our efforts to date. Due to the nature of this 
        task, however, we will need to continue to look for and 
        implement adaptive planning, metrics, and changes to ensure 
        this effort stays on track.

  <bullet> Don't expect a ``silver bullet'' technology solution. 
        Evolving technology, such as card readers, creates a changing 
        environment and program control constraints. This is especially 
        the case when the technology must be deployed to a vast 
        multitude of entities with remote connectivity challenges 
        (e.g., vessels) and varying degrees of access control system 
        capabilities.

  <bullet> Place the highest value in stakeholder input; it is time 
        well spent. The public hearings, comments to the NPRM, meetings 
        with operators and associations, and contributions of advisory 
        councils all added pure value. We came away from each and every 
        one of these efforts better informed about the challenges, the 
        unacceptable impacts, and the practicable options for 
        protecting our ports.

Conclusion
    The steps we are taking will be an extremely important aspect to 
the security of our port facilities and vessels. It's an effort which, 
when completed, will assure our citizens that those people who have 
unescorted access to secure areas of these port facilities and vessels 
have been screened to make sure that they are not a security threat.
    I appreciate the keen interest that this Committee has in an 
effective implementation of TWIC, and I thank you for your support. Mr. 
Chairman, this concludes my testimony and I am pleased to answer any 
questions that you may have.

    The Chairman. Thank you very much, sir.
    And now I'll recognize Admiral Salerno.

   STATEMENT OF BRIAN SALERNO, REAR ADMIRAL AND DIRECTOR OF 
             INSPECTIONS AND COMPLIANCE, USCG, DHS

    Admiral Salerno. Good morning, Mr. Chairman and members of 
the Committee. Thank you for this opportunity to speak with you 
about the current status, and the way ahead for the TWIC 
Program.
    I would specifically like to update the Committee on the 
Coast Guard's efforts, working in partnership with TSA to 
implement this program, which will strengthen maritime 
security, while balancing the need to facilitate commerce, and 
minimize negative effects on our port and vessel stakeholders.
    Although the TWIC Program has not moved as rapidly as all 
of us would like, important milestones have been accomplished. 
Working relationships have been strengthened with the public 
and key industry stakeholders, and our commitment to protecting 
the maritime transportation system, while facilitating 
commerce, has not wavered.
    Since publication of the final rule on January 25 of this 
year, the Coast Guard and TSA have continued to meet with our 
stakeholders in various venues. We've received considerable 
input on their ongoing concerns. These venues include the 
Passenger Vessel Association Conference, SMART card, and 
biometric industry conferences, maritime union meetings, and 
National Petro-Chemical Refiner's Association meeting, an 
American Waterways Operator's Executive Committee meeting, and 
the American Association of Port Authorities Conference, to 
name just a few.
    The concerns expressed in these meetings have included the 
roll-out process for the initial TWIC cards, and the need to 
ensure that new hire provisions contained in the rules function 
as intended, which is of particular interest to small 
businesses. And, of course, the pilot program, which will pave 
the way for follow-on rulemaking for the card readers.
    To address the roll-out, Coast Guard and TSA have worked 
together to develop supplemental documents, designed to assist 
those affected by the regulations. These documents include a 
Navigation and Vessel Inspection Circular, or NVIC, which is 
meant to explain the processes and procedures related to the 
implementation of the TWIC.
    We have solicited and received input from the affected 
industry, as well as from Coast Guard field personnel on the 
draft of this NVIC, and have had generally positive feedback on 
the guidance contained within it.
    We have also assisted in the development of two Small 
Business Administration compliance guides, and we have 
developed flyers, working with the contractor, Lockheed Martin, 
which will provide information to TWIC applicants.
    We are also developing internal guidance documents for 
training, implementation and consistent enforcement. These 
documents will be cleared through Coast Guard Headquarters, and 
will be reviewed both by DHS and OMB, prior to distribution.
    As we move into the implementation phase, we will continue 
working with industry to bring about the smooth transition to 
this much-needed security measure. We remain mindful of 
industry's concerns that vital provisions, such as the new-hire 
provision, function as intended, and our draft guidance 
reflects those concerns.
    We also plan to verify that the security enhancement 
envisioned by the TWIC Program is having the intended effect. 
To this end, we intend to procure hand-held readers for use 
during our vessel and facility examinations and spot-checks.
    After the compliance state is reached in a given port, the 
Coast Guard will use portable card readers to randomly check 
the validity of an individual's TWIC. This will serve as an 
interim measure, until the second rulemaking on card readers is 
finalized and put into effect.
    Meanwhile, we are working very closely with DHS and TSA in 
coordinating the pilot program, which will provide key 
information and practical lessons learned to inform the second 
rulemaking. We requested, and received, recommendations from 
the National Maritime Security Advisory Committee, NMSAC, on 
technical specifications to be considered for card readers, 
which will be the subject of the second rulemaking. NMSAC's 
recommendations were also published in the Federal Register for 
public comment, and we are considering those comments 
carefully, to balance privacy, security and commerce, as we 
move forward with the card reader requirements.
    TSA and Coast Guard continue to reach out to our private 
sector stakeholders, in the interest of fashioning regulations 
that will strengthen America's maritime security, while 
advancing commerce. While a TWIC Program is multi-faceted and 
includes numerous players, we are committed to developing a 
useful and valuable system.
    Thank you for the opportunity to speak to you today, and I 
will be happy to take your questions.
    [The prepared statement of Rear Admiral Salerno follows:]

   Prepared Statement of Brian Salerno, Rear Admiral and Director of 
                 Inspections and Compliance, USCG, DHS

    Good morning, Senator Inouye, Senator Stevens, and members of the 
Committee. Thank you for this opportunity to speak with you about the 
current status and the way ahead for the Transportation Worker 
Identification Credential (TWIC) program. Specifically, I would like to 
update the Committee on the Coast Guard's efforts, in partnership with 
the Transportation Security Administration (TSA), to implement a 
program that will strengthen maritime security while balancing the need 
to facilitate commerce and minimize negative impacts to our port and 
vessel stakeholders.

Background and Authority
    As a result of the Maritime Transportation Security Act (MTSA), the 
Coast Guard developed regulations establishing security requirements 
for maritime vessels and facilities posing a high risk of being 
involved in a transportation security incident. As part of these 
regulations, these vessels and facilities were required to conduct 
detailed security assessments and in turn, develop security plans under 
which owners and operators have been required to operate since July 1, 
2004. The Coast Guard has been responsible for implementing and 
ensuring compliance with MTSA.
    This same law requires the Department of Homeland Security (DHS) to 
issue a biometric transportation security card in order to be granted 
unescorted access to secure areas of vessels and facilities to those 
individuals who satisfactorily pass a security threat assessment. TSA 
was assigned this requirement, and because of our overlapping 
responsibilities, the Coast Guard and TSA formally joined efforts to 
carry out the TWIC program in November 2004. In this partnership, TSA 
is responsible for TWIC enrollment, security threat assessment and 
adjudication, card production, TWIC issuance, conduct of the TWIC 
appeal and waiver process, and management of government support 
systems. The Coast Guard is responsible for establishing and enforcing 
TWIC access control requirements at regulated vessels and facilities. 
Both agencies work very closely every day to make sure that our efforts 
achieve the objective of increased security that MTSA intended.
    The TSA and the Coast Guard published a joint TWIC Notice of 
Proposed Rule Making (NPRM) on May 22, 2006. Following the publication 
of the NPRM and the subsequent comment period, Congress enacted the 
Security and Accountability for Every (SAFE) Port Act of 2006. The SAFE 
Port Act placed new statutory requirements for the TWIC Program. Among 
these requirements were: the commencement of a pilot program to test 
the viability of TWIC cards and readers in the maritime environment; 
deployment of the program in priority ports by set deadlines; inclusion 
of a provision to allow newly hired employees to work while the TWIC 
application was being processed; and concurrent processing of the TWIC 
and merchant mariner applications.
    TSA and the Coast Guard published the TWIC final rule on January 
25, 2007 in which the Coast Guard's MTSA regulations and TSA's 
Hazardous Material Endorsement regulations were amended to incorporate 
the TWIC requirements. This final rule did not require the installation 
of card readers at vessels and facilities as originally proposed in the 
NPRM. This requirement will be proposed during a second notice and 
comment rulemaking.

Joint Rulemaking by TSA and the USCG
    In the TWIC Program, TSA is responsible for TWIC enrollment and 
issuance, including hardware and software applications and the data 
storage system. This responsibility involves conducting a security 
threat assessment on TWIC applicants, which includes a check against 
terrorist watch lists, an immigration status check, and a fingerprint-
based criminal history records check, as well as perpetual vetting 
against the terrorist watch lists throughout the 5 year life of the 
TWIC. The Coast Guard is responsible for implementing TWIC in the 
maritime environment. The Coast Guard is achieving this by requiring a 
TWIC for all individuals who need unescorted access to secure areas of 
MTSA-regulated facilities and vessels and requiring a TWIC for all U.S. 
merchant mariners with active credentials.
    TSA and the Coast Guard are also working together to develop 
several supplementary documents to help those affected by this 
regulation. These documents include a Navigation and Vessel Inspection 
Circular (NVIC); two Small Business Administration Compliance Guides; 
fliers for TWIC applicants; and internal guidance documents for 
training, implementation, and enforcement for Coast Guard and TSA 
personnel. Since publication of the Final Rule, the Coast Guard and TSA 
have conducted outreach at national venues such as the Passenger Vessel 
Association Conference; SMART card and biometric industry conferences; 
maritime union meetings; American Waterway Operators Executive 
Committee meeting; and the American Association of Port Authorities 
Conference to name a few.

Public Comments and Concerns
    TSA and the Coast Guard received almost 2,000 comments on the TWIC 
NPRM. A general theme throughout the comments was the technological and 
economic feasibility of the TWIC cards and card readers in the maritime 
environment. While smart cards, open slot card readers, and the use of 
biometrics have been used for a number of years in controlled, office-
like environments, very few studies have examined how currently 
approved biometric card readers will withstand the comparatively harsh 
environments of vessels and maritime facilities. Also, several 
commenters stated that the cost of biometric card readers would be 
extremely detrimental for small entities. TSA and the Coast Guard found 
the comments received to be invaluable in determining the best way 
forward for this rule.
    Throughout February and March of this year, the Coast Guard also 
solicited comments from field units and industry stakeholders while 
drafting the TWIC Navigation and Vessel Inspection Circular. We 
received over 400 comments, which were used to construct a clear and 
thorough guidance document for industry and Coast Guard units during 
implementation. This guidance document is currently in concurrent 
clearance at Coast Guard Headquarters and will be reviewed by both DHS 
and OMB prior to distribution.

Pilot Program
    Based on the comments received from all sources, the Department 
chose to bifurcate the rule. In order to address concerns about the 
adequacy of current reader technology, the Coast Guard is not requiring 
facility and vessel owner operators to purchase, install, and maintain 
card readers. We will address this requirement in a separate rulemaking 
following the pilot program required by the SAFE Port Act and will 
provide all interested parties ample opportunity to comment on the new 
proposals during the comment period following the second NPRM.
    In addition, the National Maritime Security Advisory Committee 
(NMSAC) formed a working group of maritime industry and biometric 
technology representatives to propose specifications for TWIC cards and 
card readers using a contactless (or proximity) interface. The 
specifications were presented and approved on February 28, 2007 at 
NMSAC's quarterly meeting. A notice of availability of the 
specifications was published in the Federal Register for public comment 
on March 16, 2007. NMSAC's specifications will inform the pilot program 
set to begin in the Ports of Los Angeles/Long Beach, CA, in June 2007.

The Way Ahead
    Work continues on several aspects of the TWIC Program. The Coast 
Guard is in the process of procuring handheld open slot card readers 
for use during vessel and facility inspections and spot checks. The 
Coast Guard will use the card readers to randomly check the validity of 
an individual's TWIC. Also, the provision for newly hired employees to 
work while they await issuance of a TWIC is in development and on track 
between the Coast Guard's Homeport web-portal engineers and TSA's 
Identity Data Management System engineers. Internally, policy is being 
written for implementation and enforcement of the TWIC Program in our 
ports through collaboration of our law enforcement, port security, and 
technology experts. We are working to meet the deadlines set by the 
SAFE Port Act.

Conclusion
    TSA and the USCG continue to reach out to our private sector 
stakeholders in the interest of fashioning a regulation that 
strengthens America's maritime security while advancing commerce. While 
the TWIC Program is multifaceted and includes numerous players, we are 
committed to developing a useful and valuable system. I would be happy 
to take any questions you have at this time.

    The Chairman. Thank you very much, Admiral.
    May I now call upon Mr. Rabkin?

  STATEMENT OF NORMAN J. RABKIN, MANAGING DIRECTOR, HOMELAND 
                SECURITY AND JUSTICE ISSUES, GAO

    Mr. Rabkin. Chairman Inouye, members of the Committee, 
thank you very much for inviting me this morning to participate 
in this hearing on the status of the TWIC Program.
    In December 2004, and September 2006, we reported on the 
status of the development and testing of the program. Our 2004 
report identified challenges that TSA faced in developing 
regulations and a comprehensive plan for managing the TWIC 
Program, and several factors that caused TSA to miss the 
initial deadlines for issuing TWIC cards.
    Our 2006 report identified the challenges encountered 
during the TWIC program testing, and several problems related 
to TWIC contract planning and oversight.
    My testimony today focuses on two key areas, first, the 
progress that TSA has made since September, and second, some of 
the remaining challenges that TSA, the Coast Guard and the 
maritime industry must overcome to ensure the successful 
implementation of the TWIC Program.
    TSA has made progress towards implementing TWIC and 
addressing several of the problems that we have previously 
identified regarding contract oversight, planning and 
coordination with stakeholders. Specifically, TSA has first 
issued the rule about enrolling workers and issuing the cards 
to workers in the maritime sector. Second, it has awarded a $70 
million contract for enrolling these workers in the TWIC 
program. Third, it has assured us that it has a schedule for 
enrolling these workers and issuing the TWIC cards at ports, 
and conducting the pilot program to test TWIC access control 
technologies. Fourth, it has added staff with program and 
contract management expertise to help oversee the TWIC 
enrollment contract. And, finally, it has improved 
communications in coordination with the maritime stakeholders, 
and has plans for conducting public outreach and education 
efforts.
    Nevertheless, TSA and the maritime industry stakeholders 
still face several challenges to ensuring that the TWIC Program 
can be implemented successfully. First, TSA and its enrollment 
contractor need to transition from limited testing of the TWIC 
Program, to successful implementation of the program on a much 
larger scale, covering over 770,000 workers at over 3,000-3,500 
maritime facilities and over 5,000 vessels.
    During testing, TSA issued TWIC cards to only about 1,700 
workers, far short of its goal at that time of 75,000. Although 
TSA has learned from the testing experience, and has taken 
steps to help address problems that we previously identified, 
it remains to be seen whether TSA and the enrollment contractor 
will be able to implement the TWIC Program on such a large 
scale, in reasonable time-frames.
    Second, TSA and the enrollment contractor will also need to 
educate workers about the TWIC requirements, ensure that 
enrollments begin in a timely manner, and process numerous 
background checks, appeals and waivers. Identifying the 
thousands of workers located throughout this and neighboring 
countries who will need to have the TWIC card, and educating 
them about their responsibilities for obtaining the card, will 
require a communication and coordination effort on the part of 
TSA and the enrollment contractor. Furthermore, processing 
these appeals, and doing so in a timely manner will also be a 
challenge.
    Finally, TSA and the stakeholders must also ensure that the 
TWIC access control technologies will work effectively in the 
maritime environment, be compatible with the cards that have 
been issued, and will balance security with the flow of 
commerce. Access control technologies will need to withstand 
the harsh rigors of the maritime environment. If biometric card 
readers do not work effectively, ports could experience long 
lines, delaying other workers or trucks from entering. Such 
delays, of course, will negatively impact maritime commerce, 
costing port facilities time and money.
    As TSA continues to implement the TWIC Program, we believe 
it should establish reasonable time-frames for holding itself, 
and its contractor accountable, and ensure that it learns and 
implements lessons as it phases in the enrollment function and 
pilot tests the access control technologies.
    Mr. Chairman, this concludes my statement, and I also would 
be glad to answer your questions.
    [The prepared statement of Mr. Rabkin follows:]

      Prepared Statement of Norman J. Rabkin, Managing Director, 
               Homeland Security and Justice Issues, GAO

    Mr. Chairman and members of the Committee:
    Thank you for inviting me to participate in today's hearing on the 
status of the Transportation Security Administration's (TSA) 
Transportation Worker Identification Credential (TWIC) program. 
Ensuring that only workers that do not pose a terrorist threat are 
allowed access to secure areas of the Nation's transportation 
facilities is critical to helping prevent a terrorist attack. The TWIC 
program was created to help protect these facilities from the threat of 
terrorism by issuing identification cards only to workers who do not 
pose a terrorist threat and allow these workers unescorted access to 
secure areas of the transportation system. To accomplish this 
objective, the TWIC program will include collection of personal and 
biometric information to validate workers' identities, background 
checks on transportation workers to ensure they do not pose a threat to 
security, issuance of tamper-resistant biometric credentials that 
cannot be counterfeited, verification of these credentials using 
biometric access control systems before a worker is granted unescorted 
access to a secure area, and revocation of credentials if disqualifying 
information is discovered, or if a card is lost, damaged, or stolen. 
The TWIC program was initially intended to serve all modes of 
transportation; however, TSA, in partnership with the Coast Guard, is 
focusing initial implementation on the maritime sector and is planning 
to implement the program in other modes in the future.
    In December 2004 and September 2006, we reported on the status of 
the development and testing of the TWIC program.\1\ Our 2004 report 
identified the challenges TSA faced in developing regulations and a 
comprehensive plan for managing the TWIC program and several factors 
that caused TSA to miss initial deadlines for issuing TWIC cards. Our 
September 2006 report identified the challenges encountered during TWIC 
program testing and several problems related to TWIC contract planning 
and oversight. In August 2006, TSA decided that the TWIC program would 
be implemented in the maritime sector using two separate rules. TSA 
issued the first rule in January 2007 requiring worker enrollment and 
card issuance and plans to issue a proposed rule on access control 
technologies in 2008. Since our September 2006 report, the Congress 
passed the Security and Accountability for Every (SAFE) Port Act of 
2006, directing TSA, among other things, to implement the TWIC program 
at the 10 highest risk ports by July 1, 2007.\2\ In January 2007, TSA 
awarded a $70 million contract to begin enrolling workers and issuing 
TWIC cards to workers at these maritime facilities.
---------------------------------------------------------------------------
    \1\ GAO, Port Security: Better Planning Needed to Develop and 
Operate Maritime Worker Identification Card Program, GAO-05-106 
(Washington, D.C.: December 2004), and Transportation Security: DHS 
Should Address Key Challenges before Implementing the Transportation 
Worker Identification Credential Program, GAO-06-982 (Washington, D.C.: 
September 2006).
    \2\ Pub. L. 109-347, 120 Stat. 1884, 1889 (2006).
---------------------------------------------------------------------------
    My testimony today focuses on two key areas: (1) the progress TSA 
has made since September 2006 in implementing the TWIC program; and (2) 
some of the remaining challenges that TSA and the maritime industry 
must overcome to ensure the successful implementation of the TWIC 
program. My comments are based primarily on our December 2004 and 
September 2006 reports on the TWIC program, which reflect work 
conducted at TSA and the Coast Guard, as well as site visits to 
transportation facilities that participated in testing the TWIC 
program. In addition, in March and April 2007, we interviewed TSA 
officials and obtained some supporting documentation regarding the 
agency's efforts to implement the TWIC program. We also interviewed 
officials at port facilities in California, Delaware, and Florida that 
participated in TWIC testing concerning the implementation of the TWIC 
program. We conducted our work in accordance with generally accepted 
government auditing standards.

Summary
    Since we issued our report on the TWIC program in September 2006, 
TSA has made progress toward implementing the TWIC program and 
addressing several of the problems that we previously identified 
regarding contract oversight and planning and coordination with 
stakeholders. Specifically, TSA has:

  <bullet> issued a TWIC rule that sets forth the requirements for 
        enrolling workers and issuing TWIC cards to workers in the 
        maritime sector;

  <bullet> awarded a $70 million contract for enrolling workers in the 
        TWIC program,

  <bullet> established a schedule for enrolling workers and issuing 
        TWIC cards at ports and conducting a pilot program to test TWIC 
        access control technologies,

  <bullet> added staff with program and contract management expertise 
        to help oversee the TWIC enrollment contract, and

  <bullet> developed plans to improve communication and coordination 
        with maritime stakeholders, including plans for conducting 
        public outreach and education efforts.

    TSA and maritime industry stakeholders still face several 
challenges to ensuring that the TWIC program can be implemented 
successfully:

  <bullet> TSA and its enrollment contractor need to transition from 
        limited testing of the TWIC program to successful 
        implementation of the program on a much larger scale covering 
        770,000 workers at about 3,500 maritime facilities and 5,300 
        vessels.\3\
---------------------------------------------------------------------------
    \3\ TSA estimated the total number of workers, facilities, and 
vessels affected by the TWIC rule in the Regulatory Impact Assessment 
of the TWIC rule.

  <bullet> TSA and its enrollment contractor will need to educate 
        workers on the new TWIC requirements, ensure that enrollments 
        begin in a timely manner, and process numerous background 
---------------------------------------------------------------------------
        checks, appeals, and waivers.

  <bullet> TSA and industry stakeholders will need to ensure that TWIC 
        access control technologies will work effectively in the 
        maritime environment, be compatible with TWIC cards that will 
        be issued, and balance security with the flow of maritime 
        commerce.

    As TSA works to implement the TWIC program and begin enrolling 
workers, it will be important that the agency establish clear and 
reasonable time-frames and ensure that all aspects of the TWIC program, 
including the TWIC access control technologies, are fully tested in the 
maritime environment.

Background
    Securing transportation systems and facilities is complicated, 
requiring balancing security to address potential threats while 
facilitating the flow of people and goods. These systems and facilities 
are critical components of the U.S. economy and are necessary for 
supplying goods throughout the country and supporting international 
commerce. U.S. transportation systems and facilities move over 30 
million tons of freight and provide approximately 1.1 billion passenger 
trips each day. The Ports of Los Angeles and Long Beach estimate that 
they alone handle about 43 percent of the Nation's oceangoing cargo. 
The importance of these systems and facilities also makes them 
attractive targets to terrorists. These systems and facilities are 
vulnerable and difficult to secure given their size, easy 
accessibility, large number of potential targets, and proximity to 
urban areas. A terrorist attack at these systems and facilities could 
cause a tremendous loss of life and disruption to our society. An 
attack would also be costly. According to testimony by a Port of Los 
Angeles official, a 2002 labor dispute led to a 10-day shutdown of West 
Coast port operations, costing the Nation's economy an estimated $1.5 
billion per day.\4\ A terrorist attack to a port facility could have a 
similar or greater impact.
---------------------------------------------------------------------------
    \4\ Testimony of the Director of Homeland Security, Port of Los 
Angeles, before the U.S. Senate Committee on Commerce, Science, and 
Transportation, May 16, 2006.
---------------------------------------------------------------------------
    One potential security threat stems from those individuals who work 
in secure areas of the Nation's transportation system, including 
seaports, airports, railroad terminals, mass transit stations, and 
other transportation facilities. It is estimated that about 6 million 
workers, including longshoreman, mechanics, aviation and railroad 
employees, truck drivers, and others access secure areas of the 
Nation's estimated 4,000 transportation facilities each day while 
performing their jobs. Some of these workers, such as truck drivers, 
regularly access secure areas at multiple transportation facilities. 
Ensuring that only workers that do not pose a terrorism security risk 
are allowed unescorted access to secure areas is important in helping 
to prevent an attack. According to TSA and transportation industry 
stakeholders, many individuals that work in secure areas are currently 
not required to undergo a background check or a stringent 
identification process in order to access secure areas. In addition, 
without a standard credential that is recognized across modes of 
transportation and facilities, many workers must obtain multiple 
credentials to access each transportation facility they enter.

TWIC Program History
    In the aftermath of the September 11, 2001, terrorist attacks, the 
Aviation and Transportation Security Act (ATSA) was enacted in November 
2001.\5\ Among other things, ATSA required TSA to work with airport 
operators to strengthen access control points in secure areas and 
consider using biometric access control systems to verify the identity 
of individuals who seek to enter a secure airport area. In response to 
ATSA, TSA established the TWIC program in December 2001 to mitigate the 
threat of terrorists and other unauthorized persons from accessing 
secure areas of the entire transportation network, by creating a common 
identification credential that could be used by workers in all modes of 
transportation.\6\ In November 2002, the Maritime Transportation 
Security Act of 2002 (MTSA) was enacted and required the Secretary of 
Homeland Security to issue a maritime worker identification card that 
uses biometrics, such as fingerprints, to control access to secure 
areas of seaports and vessels, among other things.\7\
---------------------------------------------------------------------------
    \5\ Pub. L. 107-71, 115 Stat. 597 (2001).
    \6\ TSA was transferred from the Department of Transportation to 
the Department of Homeland Security pursuant to requirements in the 
Homeland Security Act of 2002 (Pub. L. 107-296, 116 Stat. 2135 (2002).
    \7\ Pub. L. 107-295, 116 Stat. 2064 (2002).
---------------------------------------------------------------------------
    The responsibility for securing the Nation's transportation system 
and facilities is shared by Federal, state, and local governments, as 
well as the private sector. At the Federal Government level, TSA, the 
agency responsible for the security of all modes of transportation, has 
taken the lead in developing the TWIC program, while the Coast Guard is 
responsible for developing maritime security regulations and ensuring 
that maritime facilities and vessels are in compliance with these 
regulations. As a result, TSA and the Coast Guard are working together 
to implement TWIC in the maritime sector. Most seaports, airports, mass 
transit stations, and other transportation systems and facilities in 
the United States are owned and operated by state and local government 
authorities and private companies. As a result, certain components of 
the TWIC program, such as installing card readers, will be the 
responsibility of these state and local governments and private 
industry stakeholders.
    TSA--through a private contractor--tested the TWIC program from 
August 2004 to June 2005 at 28 transportation facilities around the 
Nation, including 22 port facilities, 2 airports, 1 rail facility, 1 
maritime exchange, 1 truck stop, and a U.S. postal service facility. In 
August 2005, TSA and the testing contractor completed a report 
summarizing the results of the TWIC testing. TSA also hired an 
independent contractor to assess the performance of the TWIC testing 
contractor. Specifically, the independent contractor conducted its 
assessment from March 2005 to January 2006, and evaluated whether the 
testing contractor met the requirements of the testing contract. The 
independent contractor issued its final report on January 25, 2006.
    Since its creation, the TWIC program has received about $79 million 
in funding for program development. (See Table 1.)

                          Table 1.--TWIC Program Funding From Fiscal Years 2002 to 2007
                                              [Dollars in millions]
----------------------------------------------------------------------------------------------------------------
               Fiscal Year                  Appropriated      Reprogramming      Adjustments      Total funding
----------------------------------------------------------------------------------------------------------------
2002                                                     0                 0                 0                 0
2003                                                   5.0                 0                 0               5.0
2004                                                  49.7                 0                 0              49.7
2005                                                   5.0                 0                 0               5.0
2006                                                     0              15.0                 0              15.0
2007                                                     0                 0               4.7               4.7
                                         -----------------------------------------------------------------------
    Total                                             59.7              15.0               4.7              79.4
----------------------------------------------------------------------------------------------------------------
Source: TSA.
Note: TSA's Fiscal Year 2008 Congressional justification includes $26.5 million in authority to collect fees
  from transportation workers for TWIC cards.

Key Components of the TWIC Program
    The TWIC program is designed to enhance security using several key 
components (see Fig. 1). These include:

  <bullet> Enrollment: Transportation workers will be enrolled in the 
        TWIC program at enrollment centers by providing personal 
        information, such as a social security number and address, and 
        be photographed and fingerprinted. For those workers who are 
        unable to provide quality fingerprints, TSA is to collect an 
        alternate authentication identifier.

  <bullet> Background checks: TSA will conduct background checks on 
        each worker to ensure that individuals do not pose a security 
        threat. These will include several components. First, TSA will 
        conduct a security threat assessment that may include, for 
        example, terrorism databases or terrorism watch lists, such as 
        TSA's No-fly and selectee lists. Second, a Federal Bureau of 
        Investigation criminal history records check will be conducted 
        to identify if the worker has any disqualifying criminal 
        offenses. Third, workers' immigration status and mental 
        capacity will be checked. Workers will have the opportunity to 
        appeal the results of the threat assessment or request a waiver 
        in certain limited circumstances.

  <bullet> TWIC card production: After TSA determines that a worker has 
        passed the background check, the worker's information is 
        provided to a Federal card production facility where the TWIC 
        card will be personalized for the worker, manufactured, and 
        then sent back to the enrollment center.

  <bullet> Card issuance: Transportation workers will be informed when 
        their cards are ready to be picked up at enrollment centers. 
        Once a card has been issued, workers will present their TWIC 
        cards to security officials when they seek to enter a secure 
        area and in the future will enter secure areas through 
        biometric card readers.

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
TSA Has Made Progress Since September 2006 in Implementing the TWIC 
        Program
    Since we issued our report on the TWIC program in September 2006, 
TSA has made progress toward implementing the TWIC program and 
addressing several of the problems that we previously identified 
regarding contract oversight and planning and coordination with 
stakeholders. In January 2007, TSA and the Coast Guard issued a TWIC 
rule that sets forth the requirements for enrolling workers and issuing 
TWIC cards to workers in the maritime sector and awarded a $70 million 
contract for enrolling workers in the TWIC program. TSA is also taking 
steps designed to address requirements in the SAFE Port Act regarding 
the TWIC program, such as establishing a rollout schedule for enrolling 
workers and issuing TWIC cards at ports and conducting a pilot program 
to test TWIC access control technologies. TSA has also taken steps to 
strengthen TWIC contract planning and oversight and improve 
communication and coordination with its maritime stakeholders. Since 
September 2006, TSA reported that it has added staff with program and 
contract management expertise to help oversee the TWIC enrollment 
contract and taken additional steps to help ensure that contract 
requirements are met. In addition, TSA has also focused on improving 
communication and coordination with maritime stakeholders, such as 
developing plans for conducting public outreach and education efforts.

TSA Issued a TWIC Rule and Awarded a Contract To Begin Enrolling 
        Workers and Issuing TWIC Cards This Year
    On January 25, 2007, TSA and the Coast Guard issued a rule that 
sets forth the regulatory requirements for enrolling workers and 
issuing TWIC cards to workers in the maritime sector. Specifically, the 
TWIC rule provides that workers and merchant mariners requiring 
unescorted access to secure areas of maritime facilities and vessels 
must enroll in the TWIC program, undergo a background check, and obtain 
a TWIC card before such access is granted. In addition, the rule 
requires owners and operators of maritime facilities and vessels to 
change their existing access control procedures to ensure that merchant 
mariners and any other individual seeking unescorted access to a secure 
area of a facility or vessel has a TWIC. Table 2 describes the specific 
requirements in the TWIC rule.

                 Table 2.--Requirements in the TWIC Rule
------------------------------------------------------------------------
           Requirement                   Description of requirement
------------------------------------------------------------------------
Transportation workers             Individuals who require unescorted
                                    access to secure areas of maritime
                                    facilities and vessels and all
                                    merchant mariners must obtain a TWIC
                                    card before such access is granted.
Fees                               All workers applying for a TWIC card
                                    will pay a fee of $137 to cover the
                                    costs associated with the TWIC
                                    program. Workers that have already
                                    undergone a Federal threat
                                    assessment comparable to the one
                                    required to obtain a TWIC will pay a
                                    reduced fee of $105. The interim
                                    replacement fee for a TWIC card will
                                    be $36.
Access to secure areas of          By no later than September 25, 2008,
 maritime facilities and vessels    facilities and vessels currently
                                    regulated by the Maritime
                                    Transportation Security Act must
                                    change their current access control
                                    procedures to ensure that any
                                    individual or merchant mariner
                                    seeking unescorted access to a
                                    secure area has a TWIC card.
Newly hired workers and escorting  Newly hired workers, who have applied
 procedures                         for, but have not received their
                                    TWIC card, will be allowed access to
                                    secure areas for 30 days as long as
                                    they meet specified criteria, such
                                    as passing a TSA name-based
                                    background check, and only while
                                    accompanied by another employee with
                                    a TWIC card. Individuals that need
                                    to enter a secure area but do not
                                    have a TWIC card must be escorted at
                                    all times by individuals with a TWIC
                                    card.
Background checks                  All workers applying for a TWIC card
                                    must provide specific types of
                                    personal information and
                                    fingerprints to TSA to conduct a
                                    security threat assessment, that
                                    includes an FBI fingerprint-based
                                    criminal history records check, and
                                    an immigration status check. In
                                    order to receive a TWIC card,
                                    workers must not have been
                                    incarcerated or convicted of certain
                                    crimes within prescribed time
                                    periods, must have legal presence or
                                    authorization to work in the United
                                    States, have no connection to
                                    terrorist activity, and cannot have
                                    been found as lacking mental
                                    capacity or have been committed to a
                                    mental health facility.
Appeals and waiver process         All TWIC applicants will have the
                                    opportunity to appeal a background
                                    check disqualification through TSA
                                    or apply to TSA for a waiver, either
                                    during the application process, or
                                    after being disqualified for certain
                                    crimes, mental incapacity, or are
                                    aliens in Temporary Protected
                                    Status. Applicants who appeal or
                                    seek a waiver and are denied by TSA
                                    may seek review by an administrative
                                    law judge.
Access control systems             The Coast Guard will conduct
                                    unannounced checks to confirm the
                                    identity of TWIC card holders using
                                    hand-held biometric card readers to
                                    check the biometric on the TWIC card
                                    against the person presenting the
                                    card. In addition, security
                                    personnel will conduct visual
                                    inspections of the TWIC cards and
                                    look for signs of tampering or
                                    forgery when a worker enters a
                                    secure area.
------------------------------------------------------------------------
Source: GAO analysis of TWIC rule.

    The TWIC rule does not include the requirements for owners and 
operators of maritime facilities and vessels to purchase and install 
TWIC access control technologies, such as biometric TWIC card readers. 
As a result, the TWIC card will initially serve as a visual identity 
badge until access control technologies are required to verify the 
credentials when a worker enters a secure area. According to TSA, 
during the program's initial implementation, workers will present their 
TWIC cards to authorized security personnel, who will compare the 
cardholder to his or her photo and inspect the card for signs of 
tampering. In addition, the Coast Guard will verify TWIC cards when 
conducting vessel and facility inspections and during spot checks using 
hand-held biometric card readers to ensure that credentials are valid. 
According to TSA, the requirements for TWIC access control technologies 
will be set forth in a second proposed rule to be issued in 2008, at 
which time TSA will solicit public comments and hold public meetings.
    As part of the TWIC rule, TSA is also taking steps designed to 
address various requirements of the SAFE Port Act including that it 
implement TWIC at the 10 highest risk ports by July 1, 2007. According 
to TSA, the agency has categorized ports based on risk and has 
developed a schedule for implementing TWIC at these ports to address 
the deadlines in the SAFE Port Act. In addition, TSA is currently 
planning to conduct a pilot program at five maritime locations to test 
TWIC access control technologies, such as biometric card readers, in 
the maritime environment. According to TSA, the agency is partnering 
with the Ports of Los Angeles and Long Beach to test TWIC access 
control technologies and plans to select additional ports to 
participate in the pilot in the near future. TSA and Port of Los 
Angeles officials told us that ports participating in the pilot will be 
responsible for paying for the costs of the pilot and plan to use 
Federal port security grant funds for this purpose. According to TSA, 
the agency plans to begin the pilot in conjunction with the issuance of 
TWIC cards so the access control technologies can be tested with the 
cards that are issued to workers. Once the pilot has been completed, 
TSA plans to use the results in developing its proposed rule on TWIC 
access control technologies.
    Following the issuance of the TWIC rule in January 2007, TSA 
awarded a $70 million contract to a private company to enroll the 
estimated 770,000 workers required to obtain a TWIC card. According to 
TSA officials, the contract costs include $14 million for the 
operations and maintenance of the TWIC identity management system that 
contains information on workers enrolled in the TWIC program, $53 
million for the cost of enrolling workers, and $3 million designated to 
award the enrollment contractor in the event of excellent performance. 
TSA officials stated that they are currently transitioning the TWIC 
systems to the enrollment contractor and testing these systems to 
ensure that they will function effectively during nationwide 
implementation. TSA originally planned to begin enrolling workers at 
the first port by March 26, 2007--the effective date of the TWIC rule. 
However, according to TSA officials, initial enrollments have been 
delayed. While TSA officials did not provide specific reasons for the 
delay, officials from the port where enrollments were to begin told us 
that software problems were the cause of the delay, and could postpone 
the first enrollments until May 2007. In addition, TSA and the Coast 
Guard have not set a date by which workers will be required to posses a 
TWIC card to access secure areas of maritime facilities and vessels. 
According to the TWIC rule, once the agency determines at which ports 
TWIC will be implemented and by what date, this schedule will be posted 
to the Federal Register.

TSA Has Taken Steps to Strengthen Contract Planning and Oversight and 
        Better Coordinate With Maritime Industry Stakeholders
    Since we issued our September 2006 report, TSA has taken several 
steps designed to strengthen contract planning and oversight. We 
previously reported that TSA experienced problems in planning for and 
overseeing the contract to test the TWIC program, which contributed to 
a doubling of TWIC testing contract costs and a failure to test all key 
components of the TWIC program. We recommended that TSA strengthen 
contract planning and oversight before awarding a contract to implement 
the TWIC program. TSA acknowledged these problems and has taken steps 
to address our recommendations. Specifically, TSA has taken the 
following steps designed to strengthen contract planning and oversight:

  <bullet> Added staff with expertise in technology, acquisitions, and 
        contract and program management to the TWIC program office.

  <bullet> Established a TWIC program control office to help oversee 
        contract deliverables and performance.

  <bullet> Established monthly performance management reviews and 
        periodic site visits to TWIC enrollment centers to verify 
        performance data reported by the contractor.

  <bullet> Required the enrollment contractor to survey customer 
        satisfaction as part of contract performance.

    In addition to these steps, TSA has established a TWIC quality 
assurance surveillance plan that is designed to allow TSA to track the 
enrollment contractor's performance in comparison to acceptable quality 
levels. This plan is designed to provide financial incentives for 
exceeding these quality levels and disincentives, or penalties, if they 
are not met. According to the plan, the contractor's performance will 
be measured against established milestones and performance metrics that 
the contractor must meet for customer satisfaction, enrollment time, 
number of failures to enroll, and TWIC help desk response times, among 
others. TSA plans to monitor the contractor's performance through 
monthly performance reviews and by verifying information on performance 
metrics provided by the contractor.
    In addition to contract planning and oversight, TSA has also taken 
steps designed to address problems that were identified in our 
September 2006 report regarding communication and coordination with 
maritime stakeholders. We previously reported that stakeholders at all 
15 TWIC testing locations that we visited cited poor communication and 
coordination by TSA during testing of the TWIC program. For example, 
TSA never provided the final results or report on TWIC testing to 
stakeholders that participated in the test, and some stakeholders 
stated that communication from TSA would stop for months at a time 
during testing. We recommended that TSA closely coordinate with 
maritime industry stakeholders and establish a communication and 
coordination plan to capture and address the concerns of stakeholders 
during implementation. TSA acknowledged that the agency could have 
better communicated with stakeholders at TWIC testing locations and has 
reported taking several steps to strengthen communication and 
coordination since September 2006. For example, TSA officials told us 
that the agency developed a TWIC communication strategy and plan that 
describes how the agency will communicate with the owners and operators 
of maritime facilities and vessels, TWIC applicants, unions, industry 
associations, Coast Guard Captains of the Port, and other interested 
parties. In addition, TSA required that the enrollment contractor 
establish a plan for communicating with stakeholders.
    TSA, the Coast Guard, and the enrollment contractor have taken 
additional steps designed to ensure close coordination and 
communication with the maritime industry. These steps include:

  <bullet> Posting frequently asked questions on the TSA and Coast 
        Guard websites.

  <bullet> Participating in maritime stakeholder conferences and 
        briefings.

  <bullet> Working with Coast Guard Captains of the Ports and the 
        National Maritime Security Advisory Committee to communicate 
        with local stakeholders.

  <bullet> Conducting outreach with maritime facility operators and 
        port authorities, including informational bulletins and fliers.

  <bullet> Creating a TWIC stakeholder communication committee chaired 
        by TSA, the Coast Guard, and enrollment contractor, with 
        members from 15 maritime industry stakeholder groups. According 
        to TSA, this committee will meet twice per month during the 
        TWIC implementation.

    Several stakeholders we recently spoke to confirmed that TSA and 
its enrollment contractor have placed a greater emphasis on 
communicating and coordinating with stakeholders during implementation 
and on correcting past problems. For example, an official from the port 
where TWIC will first be implemented stated that, thus far, 
communication, coordination, and outreach by TSA and its enrollment 
contractor have been excellent, and far better than during TWIC 
testing. In addition, the TWIC enrollment contractor has hired a 
separate subcontractor to conduct a public outreach campaign to inform 
and educate the maritime industry and individuals that will be required 
to obtain a TWIC card about the program. For example, the port official 
stated that the subcontractor is developing a list of trucking 
companies that deliver to the port, so information on the TWIC 
enrollment requirements can be mailed to truck drivers.

TSA and Industry Stakeholders Need To Address Challenges To Ensure the 
        TWIC Program Is Implemented Successfully
    TSA and maritime industry stakeholders need to address several 
challenges to ensure that the TWIC program can be implemented 
successfully. As we reported in September 2006, TSA and its enrollment 
contractor face the challenge of transitioning from limited testing of 
the TWIC program to successful implementation of the program on a much 
larger scale covering 770,000 workers at about 3,500 maritime 
facilities and 5,300 vessels. Maritime stakeholders we spoke to 
identified additional challenges to implementing the TWIC program that 
warrant attention by TSA and its enrollment contractor, including 
educating workers on the new TWIC requirements, ensuring that 
enrollments begin in a timely manner, and processing numerous 
background checks, appeals, and waiver applications. Furthermore, TSA 
and industry stakeholders also face difficult challenges in ensuring 
that TWIC access control technologies will work effectively in the 
maritime environment, be compatible with TWIC cards that will be issued 
soon, and balance security with the flow of maritime commerce.

TSA and Its Contractor Face Challenges in Enrolling and Issuing TWIC 
        Cards to Large Populations of Workers at Numerous Port 
        Facilities and Vessels
    In September of 2006, we reported that TSA faced the challenge of 
enrolling and issuing TWIC cards to a significantly larger population 
of workers in a timely manner than was done during testing of the TWIC 
program. In testing the TWIC program, TSA enrolled and issued TWIC 
cards to only about 1,700 workers at 19 facilities, well short of its 
goal of 75,000. According to TSA and the testing contractor, the lack 
of volunteers to enroll in the TWIC program testing and technical 
difficulties in enrolling workers, such as difficulty in obtaining 
workers' fingerprints to conduct background checks, led to fewer 
enrollments than expected. TSA reports that it used the testing 
experience to make improvements to the enrollment and card issuance 
process and has taken steps to address the challenges that we 
previously identified. For example, TSA officials stated that the 
agency will use a faster and easier method of collecting fingerprints 
than was used during testing and will enroll workers individually 
during implementation, as opposed to enrolling in large groups, as was 
done during testing. In addition, the TWIC enrollment contract 
Statement of Work requires the contractor to develop an enrollment test 
and evaluation program to ensure that enrollment systems function as 
required under the contract. Such a testing program will be valuable to 
ensure that these systems work effectively prior to full-scale 
implementation. We also reported that TSA faced the challenge of 
ensuring that workers are not providing false information and 
counterfeit identification documents when they enroll in the TWIC 
program. According to TSA, the TWIC enrollment process to be used 
during implementation will use document scanning and verification 
software to help determine if identification documents are fraudulent, 
and personnel responsible for enrolling workers will be trained to 
identify fraudulent documents.
    Since we issued our report in September 2006, we have also 
identified additional challenges to implementing the TWIC program that 
warrant attention by TSA and its enrollment contractor. We recently 
spoke with some maritime stakeholders that participated in TWIC testing 
and that will be involved in the initial implementation of the program 
to discuss their views on the challenges of enrolling and issuing TWIC 
cards to workers. These stakeholders expressed concerns regarding the 
following issues:
    Educating workers: TSA and its enrollment contractor face a 
challenge in identifying all workers that are required to obtain a TWIC 
card, educating them about how to enroll and receive a TWIC card, and 
ensuring that they enroll and receive a TWIC card by the deadlines to 
be established by TSA and the Coast Guard. For example, while 
longshoremen who work at a port every day may be aware of the new TWIC 
requirements, truck divers that deliver to the port may be located in 
different states or countries, and may not be aware of the 
requirements.
    Timely enrollments: One stakeholder expressed concern about the 
challenges the enrollment contractor faces in enrolling workers at his 
port. For example, at this port, the enrollment contractor has not yet 
begun to lease space to install enrollment centers--which at this port 
could be a difficult and time-consuming task due to the shortage of 
space. Stakeholders we spoke to also suggested that until TSA 
establishes a deadline for when TWIC cards will be required at ports, 
workers will likely procrastinate in enrolling, which could make it 
difficult for the contractor to enroll large populations of workers in 
a timely manner.
    Background checks: Some maritime organizations are concerned that 
many of their workers will be disqualified from receiving a TWIC card 
by the background check. These stakeholders emphasized the importance 
of TSA establishing a process to ensure timely appeals and waivers 
process for the potentially large population of workers that do not 
pass the check. According to TSA, the agency already has established 
processes for conducting background checks, appeals, and waivers for 
other background checks of transportation workers. In addition, TSA 
officials stated that the agency has established agreements with the 
Coast Guard to use their administrative law judges for appeal and 
waiver cases and plans to use these processes for the TWIC background 
check.

TSA and Industry Stakeholders Face Challenges in Ensuring That TWIC 
        Access Control Technologies Work Effectively and Balancing 
        Security With the Flow of Maritime Commerce
    In our September 2006 report, we noted that TSA and maritime 
industry stakeholders faced significant challenges in ensuring that 
TWIC access control technologies, such as biometric card readers, 
worked effectively in the maritime sector. Few facilities that 
participated in TWIC testing used biometric card readers that will be 
required to read the TWIC cards in the future. As a result, TSA 
obtained limited information on the operational effectiveness of 
biometric card readers, particularly when individuals use these readers 
outdoors in the harsh maritime environment, where they can be affected 
by dirt, salt, wind, and rain. In addition, TSA did not test the use of 
biometric card readers on vessels, although they will be required on 
vessels in the future. Also, industry stakeholders we spoke to were 
concerned about the costs of implementing and operating TWIC access 
control systems, linking card readers to their local access control 
systems, connecting to TSA's national TWIC database to obtain updated 
security information on workers, and how biometric card readers would 
be implemented and used on vessels and how these vessels would 
communicate with TSA's national TWIC database remotely. Because of 
comments regarding TWIC access control technology challenges that TSA 
received from maritime industry stakeholders on the TWIC proposed rule, 
TSA decided to exclude all access control requirements from the TWIC 
rule issued in January 2007. Instead, TSA plans to issue a second 
proposed rule pertaining to access control requirements in 2008, which 
will allow more time for maritime stakeholders to comment on the 
technology requirements and TSA to address the challenges that we and 
stakeholders identified.
    Our September 2006 report also highlighted the challenges that TSA 
and industry stakeholders face in balancing the security benefits of 
the TWIC program with the impact the program could have on maritime 
commerce. If implemented effectively, the security benefits of the TWIC 
program in preventing a terrorist attack could save lives and avoid a 
costly disruption in maritime commerce. Alternatively, if key 
components of the TWIC program, such as biometric card readers, do not 
work effectively, they could slow the daily flow of maritime commerce. 
For example, if workers or truck drivers have problems with their 
fingerprint verifications on biometric card readers, they could create 
long queues delaying other workers or trucks waiting in line to enter 
secure areas. Such delays could be very costly in terms of time and 
money to maritime facilities. Some stakeholders we spoke to also 
expressed concern with applying TWIC access control requirements to 
small facilities and vessels. For example, smaller vessels could have 
crews of less than 10 persons, and checking TWIC cards each time a 
person enters a secure area may not be necessary. TSA acknowledged the 
potential impact that the TWIC program could have on the flow of 
maritime commerce and plans to obtain additional public comments on 
this issue from industry stakeholders and develop solutions to these 
challenges in the second rulemaking on access control technologies.
    In our September 2006 report, we recommended that TSA conduct 
additional testing to ensure that TWIC access control technologies work 
effectively and that the TWIC program balances the added security of 
the program with the impact that it could have on the flow of maritime 
commerce. As required by the SAFE Port Act, TSA plans to conduct a 
pilot program to test TWIC access control technologies in the maritime 
environment. According to TSA, the pilot will test the performance of 
biometric card readers at various maritime facilities and on vessels as 
well as the impact that these access control systems have on facilities 
and vessel business operations. TSA plans to use the results of this 
pilot to develop the requirements and procedures for implementing and 
using TWIC access control technologies in the second rulemaking.

Conclusion
    Preventing unauthorized persons from entering secure areas of the 
Nation's ports and other transportation facilities is critical to 
preventing a terrorist attack. The TWIC program was initiated in 
December 2001 to mitigate the threat of terrorists accessing secure 
areas. Since our September 2006 report, TSA has made progress toward 
implementing the program, including issuing a TWIC rule, taking steps 
to implement requirements of the SAFE Port Act, and awarding a contract 
to enroll workers in the program. While TSA plans to begin enrolling 
workers and issuing TWIC cards in the next few months, it is important 
that the agency establish clear and reasonable time-frames for 
implementing TWIC. TSA officials told us that the agency has taken 
steps to improve contract oversight and communication and coordination 
with its maritime TWIC stakeholders since September 2006. While the 
steps that TSA reports taking should help to address the contract 
planning and oversight problems that we have previously identified and 
recommendations we have made, the effectiveness of these steps will not 
be clear until implementation of the TWIC program begins. In addition, 
significant challenges remain in enrolling about 770,000 persons at 
about 3,500 facilities in the TWIC program. As a result, it is 
important that TSA and the enrollment contractor make communication and 
coordination a priority to ensure that all individuals and 
organizations affected by the TWIC program are aware of their 
responsibilities. Further, TSA and industry stakeholders need to 
address challenges regarding enrollment and TWIC access control 
technologies to ensure that the program is implemented effectively. It 
is important that TSA and the enrollment contractor develop a strategy 
to ensure that any potential problems that these challenges could cause 
are addressed during TWIC enrollment and card issuance. Finally, it 
will be critical that TSA ensure that the TWIC access control 
technology pilot program fully test all aspects of the TWIC program on 
a full scale in the maritime environment and the results be used to 
ensure a successful implementation of these technologies in the future.
    Mr. Chairman, this concludes my statement. I would be pleased to 
answer any questions that you or other members of the Committee may 
have at this time.

    Senator Lautenberg [presiding]. Thank you very much. Mr. 
Hawley, how many workers nationwide do you expect will need 
TWIC cards?
    Mr. Hawley. The initial estimate is somewhere between 
750,000 and 1.5 million.
    Senator Lautenberg. That's a fairly broad spread. Well, the 
Port of New York and New Jersey currently issues some form of 
ID to allow access to port facilities, and they believe that 
they need 128,000 TWIC cardholders among the workers. And 
that's double what TSA's contractor has estimated. So, what 
figures does TSA intend to use? Because that's going to 
determine what resources need to be available to provide these 
cards in a timely and efficient manner.
    Mr. Hawley. Yes, sir. I think it points out some of the 
improvements that have been made recently in the program, in 
that the contractor, in this case Lockheed Martin, is paid by 
the card. That's their incentive to do it quickly and well. It 
is scaleable and if we need to increase the number of cards, 
they're able to scale right along with that. And so, we do not 
have a situation where we have got a particular appropriation 
that we have to fit everything in. It is whatever the Coast 
Guard identifies as those positions, or the people who work in 
areas, that need this security. As many people that fall under 
that category, our contractor has the capacity to enroll.
    Senator Lautenberg. But it has to be paid for.
    Mr. Hawley. Yes. It's paid for by itself. In other words, 
when the port worker pays $137.25, that pays for the card and 
what's behind it.
    Senator Lautenberg. Is it fair to ask the cardholders, the 
workers, to pay for, $137 in fee if the card readers are not 
going to be in place at the time? It's not fair to ask them to 
underwrite a development program.
    Mr. Hawley. They're not underwriting the development. 
They're underwriting the cost of their card; and it's a 
professional credential that they have. It comes out to about 
$30 a year that it will cost them. So, it has less to do with 
the specific workplace, and everything to do about that 
individual. Because once an individual has a TWIC card, they 
have been verified. They can take it anywhere in the maritime 
sector. It will first, work, and second, meet all of the 
security requirements without question. So, it's an 
extraordinary value to the individuals who get them; and for 
$30 a year, that's a good deal.
    Senator Lautenberg. Well, how about the value to the 
country? It seems unfair to me to ask them to pay for something 
that still has a long way to go in terms of development. How 
many card readers are there in place now?
    Mr. Hawley. Well, those are done in the private sector, and 
the ones that will be specifically related to TWIC, we've put 
that off based on the stakeholders input, including all of the 
workers, of wanting to have a full opportunity to explore that, 
and have a notice and comment period before that is selected. 
So, the card is flexible enough to be compatible with the 
standards that are selected.
    And, I think as Admiral Salerno mentioned, our Advisory 
Committee has come back with draft standards for that, that 
showed the way.
    Senator Lautenberg. How is that cost determined, Mr. 
Hawley; to be sufficient to cover the cost of the card 
preparation. And if someone has a short-term job going into the 
port, are they going to have to pay $135 or $137? And depending 
upon the private sector, not fully, to have the card readers 
there, and they're not in place at this point.
    Mr. Hawley. That's correct. But there is significant 
security value for the card. Just having the card, and as 
Admiral Salerno mentioned, the check-in. Maybe the Admiral 
could mention the new-hire process and the other security.
    Senator Lautenberg. Wouldn't it, according to your policy, 
Admiral Salerno, only Coast Guard personnel can confiscate a 
misused TWIC card. Local law enforcement, and they are limited 
to holding an individual until Coast Guard personnel arrives to 
confiscate the TWIC card. That's a pretty cumbersome system. 
Wouldn't it make more sense to allow bona fide law enforcement 
officials to confiscate a TWIC card based on a reasonable 
cause?
    Admiral Salerno. Senator, the policy was put in place so 
that we could maintain control over the system. The facility 
operator has the authority to deny entry to any person that 
does not have reason to be on the facility, so we would 
anticipate----
    Senator Lautenberg. Can they confiscate the card?
    Admiral Salerno. They would not confiscate the card, that 
would be done by Coast Guard personnel.
    Senator Lautenberg. Well, if a card has been denied access, 
then that would obviously have to be proven, perhaps, in a 
court room. How efficient can the system be if they have to 
wait for Coast Guard to catch up with this person, and 
confiscate the card?
    Admiral Salerno. Senator, we do--as you know--have a 
presence in all of the major ports, and have teams of people 
who are tasked with conducting facility inspections, and vessel 
inspections, and it's a part of their job description that they 
would visit these facilities on a regular basis. So, by 
notifying the Coast Guard, these teams could be dispatched to 
take whatever action----
    Senator Lautenberg. I think you're going to have to look 
very deeply into that problem, because it seems to me that the 
Coast Guard is busy altogether. I always think that the Coast 
Guard has been issued too many assignments for the body of 
personnel that it has. And when I think of them having to run 
down and confiscate the card.
    And I think about an employer's dilemma--got a lot of work 
to do, I'm going to pick up these cards from these three 
fellows, and put them aside--would they only be people that 
were on they, who don't qualify to pass the terrorist watch 
list?
    Admiral Salerno. It would be, in cases where it appears to 
be held by a person who's not entitled to a card, some 
fraudulent activity. It would not be based on the background 
check itself, that would be done--we would not issue a card 
unless a person has passed the background check. It would only 
be in cases where there appears to be something inappropriate 
taking place.
    Senator Lautenberg. Without these card readers in place, I 
think what we'll see is more confusion and longer delays.
    Mr. Hawley, it's my understanding that TSA has suggested 
taking resources from the Port Security Grant Program to pay 
for the TWIC pilot project. Why wasn't funding requested 
separately for the pilot project?
    Mr. Hawley. Well, the pilot project relates to access 
control, and that has to be the subject of--it will have 
pilots, and then the rulemaking. The standards are just now 
being set. And we have a number of ports who have come forward, 
including ports in New York, and New Jersey, who are anxious to 
be among the pilot. Since it is a permanent part of the port 
infrastructure that they're doing, it is eligible for the Port 
Security Grant. So, that is a way to jumpstart the program, and 
then as we work further to define the nature of the other 
pilots, that's when we'll look at the money and see if we need 
more, and if we do, we'll ask for it.
    But, the Port Security Grants, that's what they're for, and 
this is a process that's already underway, and they can move 
very quickly to get them going.
    Senator Lautenberg. Are you comfortable with the progress 
made thus far, and the ability to set a target date to get 
things relatively in place to effectively read the cards? 
What's the timeline that you suggest would be a timeline that 
could be met? And where we're really getting a test of this--I 
mean, issuing the cards is one part of it, but I think the 
larger part in terms of having it work effectively is whether 
or not these can be read electronically, and with some degree 
of dispatch, get them done?
    Mr. Hawley. Yes, I think the--one of the features of the 
standard that we'll have for the access control system is the 
flexibility to allow the individual operators to use their own 
existing access control. That can be enabled on the card. So 
the TWIC cards, when issued, will be able to be used 
immediately in that environment.
    Senator Lautenberg. Well. We don't have to look through the 
list to----
    Senator Carper. It's just us.
    Senator Lautenberg.--see who's next. Senator Carper?

              STATEMENT OF HON. THOMAS R. CARPER, 
                   U.S. SENATOR FROM DELAWARE

    Senator Carper. Gentlemen, welcome. It's good to see you, 
Secretary Hawley, Admiral Salerno. I said to Beth Osborne, a 
member of my staff, ``Is it my imagination, or are the Admirals 
getting younger?''
    Mr. Rabkin, thank you for coming, and thanks for all of the 
good work that you do at GAO.
    We have a special interest in this particular issue in 
Delaware because of the Port of Wilmington. Not everybody in 
the audience who might be watching this hearing knows that the 
Port of Wilmington is the top banana port, and we all want to 
be top banana in some respect or the other, and for us in 
Delaware, our port is a place where a lot of bananas come 
through. If you ate a banana this morning with your cereal, 
there's a pretty good chance that it came through the Port of 
Wilmington. We're a big port for Chilean fruit, all kinds of 
stuff that we bring through that helps feed--especially people 
on the eastern side of our country.
    We bring in other things, and export among other things, 
the Saturn Sky. We don't export a lot of automobiles, but we 
export the Saturn Sky, made in Wilmington, Delaware by GM.
    But, we're proud of our port, and it's a major employer, 
and not just at the port, but also helps support a variety of 
businesses and parts of our economy, not just in Delaware, but 
in the Greater Delaware Valley and the Del Mar Peninsula. So, 
we have more than a little bit of interest, as you might 
imagine.
    This is an issue we've followed for a few years in 
Delaware, and Delaware was the first state to ratify the 
Constitution and our moniker is ``The First State''--we like to 
be first in a whole lot of things.
    I think we might get to be first with respect to the TWIC 
card. And, it has taken us awhile to get here, and one of the 
questions I wanted to ask, and one of the things I'd like to 
explore with the panel is a little bit of chronology. When was 
the first gleam in somebody's eye that there ought to be a TWIC 
card, and did it grow out of legislation in 2001, was it part 
of the Patriot Act, was there, was it part of the Maritime 
Transportation Security Act, is that where the genesis really 
lies?
    Mr. Hawley. I believe out of MTSA was where TWIC was 
originated.
    Senator Carper. All right. Could somebody just kind of walk 
me through the TWIC in terms--I think, if someone had said back 
when the legislation was enacted that we'd still be here, and, 
in the Spring of 2007, waiting to implement the program, in 
even one port, I think folks would have been surprised. We're 
told, the folks in Wilmington, the Port of Wilmington are told 
that we can anticipate the initial deployment maybe in May, and 
now we're hearing it may not be May, we were told before it was 
before May.
    So, first question--somebody, I don't care, Mr. Rabkin, if 
it's you, I don't care, Secretary Hawley, if it's you--somebody 
just kind of walk us through why it has taken this long?
    Mr. Hawley, you've not been in your job forever, I know 
that, I know that--how many years have you been there?
    Mr. Hawley. About a year and a half.
    Senator Carper. How long does it seem?
    [Laughter.]
    Mr. Hawley. About that.
    Senator Carper. OK. You've not been there since this 
legislation--but why so long?
    Mr. Hawley. Well, it has to do with the system that's 
behind the card. As you know, it is that network behind the 
card that is complex. We made some decisions in the last year, 
that added complexity, and therefore, probably time, to the 
process. But it was, in our view, worth it. It has to be 
compliant with the FIPS 201 process, which is the latest 
Federal Government biometrics standard. So changes were needed 
to align TWIC with that. We thought that was prudent going 
forward.
    And then there were some privacy data issues, gaps 
identified by our internal folks as well as the DHS Inspector 
General. So, we had to get after those, and close those, and 
that's now done as of February. And the rulemaking, we went 
through a long rulemaking. We had 1,900 comments. So that's 
why, that's why it has taken so long.
    Senator Carper. Do you have, do you have a fair amount of 
confidence that we're almost--I'll use a football metaphor--the 
ball is almost in the end zone?
    Mr. Hawley. Well, it--which end zone? No, but I think the--
--
    [Laughter.]
    Mr. Hawley. Yes, I do. I think a year ago, all of the 
points that Mr. Rabkin made and the Chairman made earlier in 
terms of where is your process; where are your professional 
program managers, a whole lot of those things have now been 
fixed. The system is built. We've awarded the procurement; and 
now we're in the stage of testing. The hard part about testing 
is you just don't know how long it's going to take, because if 
it passes the first try, we're out of here and ready to go. And 
because of the importance of it in the real world, we're not 
going to move forward until the testing is done. That is the 
reason why the cards are not being issued today, because the 
testing is not complete.
    So, in answer to the Port of Wilmington, which will be 
first for TWIC and when I mentioned in my opening about the 
port community being enormously forthcoming and constructive, 
the Port of Wilmington leads that charge, and we will have a 
minimum of a 45-day head start before we begin to go to the 
port and start enrollment. So, whenever we get to that point, 
the TSA, the Coast Guard will communicate with the port, and 
then there will be plenty of time to get the thing up and 
running.
    Senator Carper. Thank you.
    Mr. Rabkin, should we be encouraged that we're making 
reasonable progress and the expectations that Secretary Hawley 
has suggested will be realized?
    Mr. Rabkin. Well, I think there's reasonable progress, but 
I'm not as optimistic as the Secretary is about how much has 
been shown, and how close we are--if I may--to the goal line. 
TSA conducted a prototype test that was underwhelming, it did 
not achieve any of its goals, although it did create some 
lessons to be learned, and I think the TSA has learned those 
lessons.
    They still have to meet certain deadlines, they have to 
hold their contractor accountable for getting this next test of 
issuing cards in the 10 highest-risk ports done, and it's not 
off to a very auspicious start, because it's delayed there, and 
we're still not confident about when it's even going to start, 
let alone finish.
    And then, that's just getting the cards out. It's a very 
important process, but from my perspective, that's the easy 
part. And then they have to move the technology, and having it 
work, and work quickly and work accurately, all the time, is, I 
think, even more of a major challenge. So, there's a lot to be 
done yet.
    Senator Carper. Let me follow up with a question about 
communication; between TSA and whether it's the Port of 
Wilmington or other ports that will be coming down the road 
here. Just tell us about the quality of that communication, are 
you satisfied with it? Is it getting better? We've been told it 
has been--from our perspective, not very good.
    Mr. Hawley. Well, I think the communication is excellent, 
actually. And, it's a team thing between the Coast Guard and 
TSA, and now our contractor. And we've stood up a formal 
consultative group to formalize that process.
    Senator Carper. I'm talking about communicating with ports, 
with the folks that are----
    Mr. Hawley. Well, first of all, the Coast Guard is in the 
port.
    Admiral Salerno. If I may, sir----
    Senator Carper. Please.
    Admiral Salerno. In each port there is a, what we call an 
Area of Maritime Security Committee which represents a broad 
cross-section of stakeholders in the port. In addition, there 
is a harbor safety committee, which again, represents broad 
sections of the port. One is for security purposes, one for 
safety, but each of them represent opportunities to reach out 
and communicate with the full spectrum of port stakeholders.
    We have communicated with our staffs in all of the ports, 
and have prepped them to make this outreach in a very 
deliberate way, in conjunction with TSA and with the 
contractor. Essentially, they're waiting for the green light on 
the go-ahead that, you know, once we have the schedule 
established, there will be a very deliberate process of 
informing people. It will start with a notice in the Federal 
Register, but there will be--you know, to make it official--but 
there will be all sorts of informal means, including these 
committees, to get the word out to people.
    Senator Carper. I think there's a disconnect here. Because 
the people who run our port, the folks who work there, believe 
there has not been good--in fact, the word was given to me as 
``poor'' communication. So there are some differences between 
``excellent'' and ``poor.'' And, we always say, ``The 
customer's always right.'' I'm not sure who the customer is 
here, but it could be the port and the folks that the port 
serves.
    But, the message I would ask you to take back to your folks 
is, people in my port are not pleased with the communication 
with the program managers and I would just ask you to, let's do 
better. I know, everything I do, I could do better, and I 
suspect the same is true here. So I'd ask that you re-double 
your efforts. OK. All right.
    Mr. Hawley. Yes, sir.
    Senator Carper. Could I ask just one more quick one? 
Thanks.
    On one hand, we want to make sure that the folks that, 
whose background is such that would raise alarms and concerns--
we want to make sure that they have a system here to catch 
those, to detect those folks.
    At the same time, I'll be honest with you, folks who work 
at a lot of these ports, whether it's my port, or ports in New 
Jersey or other states, a lot of them you would look through 
the high school yearbooks, they weren't picked to be ``Most 
Likely to Succeed,'' and a lot of them have had troubled pasts, 
they've--some of them have been in trouble with the law, some 
have been incarcerated, some have been pardoned, some have not. 
And, let me just ask, for the folks, for some people in the 
State of New Jersey this is the first good job they've ever 
had, and they've straightened themselves out, and they're 
staying out of trouble. How do we balance the desire, the 
earnest desire, to make sure that we're not allowing people who 
shouldn't be, who have a past that suggests that they shouldn't 
be allowed to have access to the port, and do pose a security 
risk, from those who just made bad choices in their lives 
earlier, and have straightened themselves out?
    Mr. Hawley. It's a very, very, very important issue, 
because this is a credential to work. And, the standard is 
terrorist risk. And that is for what we all hope is an 
infinitesimal part of the population.
    Our Hazardous Materials Endorsements in the trucking 
population is an analogy that gives me some confidence, because 
we've done 2.7 million of those, and the adjudication process, 
appeal, waiver process has been very effective, and has not 
been the problem we all might have anticipated. So, we are 
very, very zeroed in on that specific issue.
    Senator Carper. We want to work with you closely on that. 
Thank you.
    Thanks, Mr. Chairman.
    Senator Lautenberg. Thanks very much, Senator Carper.
    One thing, and that is, according to the schedule as we've 
heard it, we're supposed to start issuing cards Monday in the 
New York/New Jersey region. And, it's now moved back, as I 
understood you to say, to somewhere in the fall. And, I don't 
think there can be a lot of optimism that this program is going 
to be meeting any of the targets outlined. We, you said, that 
the employee population that may be covered could be 750,000, 
could be 1.2 million, or 1.5 million. Now, how do you plan to 
provide the resources, depending on what number you finally 
come up with?
    Mr. Hawley. Yes. The program is scaleable. Using Port of 
Wilmington as an example, we've already hired the 8 trusted 
entities who will do the enrollment. That is part of the 
communication with the port, to identify how many people are 
going to be enrolled when the team goes in, and then they scale 
up to do it. So, I think, of the concerns, that is not one of 
the major concerns. I think we'll be able to handle the 
population. The part that is most important and still out there 
is the part Mr. Rabkin mentioned, in terms of the extensive 
testing that is required for the system.
    Senator Lautenberg. I really don't understand how these 
parameters are being dealt with, because to me they don't pass 
the early testing that we've done, and we're stuck in limbo, 
and we're going to ask the employees to pay $137 to get this 
card, but it may not be system-wide. You said that that person 
could take that card anywhere in the country and use it to gain 
access. But, also, I think the Admiral said that this isn't 
necessarily the terror watch list, but it could be for any 
other reasons as well. Now, if this is going to be presenting a 
person's full background, looking at this card, this has got 
several tests it has got to pass so that one's liberties aren't 
encroached upon.
    I'm sorry, but we have another panel here, and we are going 
to have a vote soon. So, I would ask that the second panel of 
witnesses be seated.
    Thank you very much for being here with us.
    Mr. Pomaikai, Mr. Michael Rodriguez, please take your 
seats. Thank you.
    Ms. Himber is Vice President of the Maritime Exchange for 
the Delaware Ricer and Bay, the Maritime Exchange is the 
industry trade association for the Delaware River port system, 
including ports in Camden, New Jersey, and Philadelphia, and we 
thank you for joining us today, Ms. Himber.
    Mr. Pomaikai is the Assistant Port Captain for Sause Bros., 
Incorporated, in Honolulu, Hawaii, and Mr. Michael Rodriguez, 
Executive Assistant to the President of the International 
Organization of Masters, Mates and Pilots. And we thank all of 
you for being here.
    We're going to ask you to summarize your statements within 
a five-minute time range, if there's another minute needed, 
we'll permit that, but otherwise it will encroach on the other 
person's ability to have the microphone. So, Ms. Himber? Thank 
you.

STATEMENT OF LISA B. HIMBER, VICE PRESIDENT, MARITIME EXCHANGE 
                 FOR THE DELAWARE RIVER AND BAY

    Ms. Himber. Good morning, and thank you for inviting me to 
present testimony today, particularly on behalf of our members 
in New Jersey and Delaware, who have been involved in the TWIC 
pilot program since its inception in 2002.
    Our members of the Maritime Exchange, include both private 
and public regulated facilities, as well as vessels, and the 
individuals who need access to secure maritime areas.
    I've been involved with the TWIC Program for its--since the 
beginning--and in addition, as a member of the National 
Maritime Security Advisory Committee, have chaired two working 
groups developed to address TWIC issues.
    And, I believe everybody's aware of the many setbacks, 
we've talked about some of them today. My feeling is, despite 
the setbacks which occurred in the past, the pilot program did 
allow TSA to gain an understanding of the challenges that they 
will face in implementing a program of this magnitude.
    My testimony today will focus on issues surfacing from the 
TWIC rulemaking, as well as concerns relating to the second 
part of the program, the use of the TWIC readers at ports and 
vessels.
    In drafting its final rule, it is evident that stakeholder 
comments to last year's proposed rule were given serious 
consideration. Particularly, we believe DHS made exactly the 
right decision to separate the card issuance, and reader 
installation processes. Yet, obviously in a program of this 
scope, there remain additional concerns about the program.
    First, the rule is silent on casual labor, which is such an 
integral part of maritime operations that it must not be 
overlooked. While the rule does provide for accommodation for 
escorting non-TWIC holders, there's no clear pathway to 
implementing the escort requirement in any practical manner. In 
addition to the operational and physical impediments, other 
questions have arisen about the escort's liability and 
responsibility.
    Similarly, our members are concerned about access for non-
TWIC holding truck drivers, especially during the initial 
program roll-out.
    The second major concern we have relates to the costs, 
which simply stated, and as you've stated, are too high. 
There's little incentive for individuals to seek employment at 
maritime facilities when the cost of such an employment may 
exceed his wages for the day. And, if the company pays--and 
some trade union agreements require that they do--it may cost 
several thousands more beyond the cost of the card to pay for 
meals, and time spent applying for and retrieving the card.
    Significant additional costs will accrue for companies to 
escort non-TWIC holders. This is particularly troublesome given 
that some employers or employees may pay for cards that the 
individuals never receive, as a result of their security threat 
assessments.
    Another question has been raised regarding processes for 
individuals who, for religious reasons, may not have their 
pictures taken, or must have their heads covered when being 
photographed.
    These are just a few of the concerns which have surfaced 
over the last several months, and there are many others.
    On the other hand, there are issues industry has voiced in 
the past as preventing successful TWIC implementation, and we 
would like to compliment DHS on the steps that they are taking 
to address them.
    Predominant among these issues is--as everybody has 
mentioned today--has been the problem of communicating 
information to stakeholders, particularly as it relates to 
program setbacks and delays. But, we appreciate the creation of 
the TWIC Stakeholder Communications Committee, and look forward 
to seeing some improvement in that regard.
    In addition, our local Coast Guard sector, Delaware Bay, 
has done an excellent job in facilitating outreach and sharing 
information as it becomes available.
    Further, we've also been concerned that many TWIC 
technologies were excluded from the pilot program tests, and we 
are pleased that DHS will conduct an additional pilot. And for 
that, I'd like to talk for a minute about the card readers.
    One of the key concerns submitted to the proposed rule 
related to the use of contact cards in the maritime 
environment. In response, the National Maritime Security 
Advisory Committee was asked to develop recommendations for a 
contactless TWIC reader, and we completed that work in 
February. There was one critical area where DHS and the 
maritime industry could not come to terms, and that's whether 
or not the fingerprint template should be encrypted. This may 
very well be one of the single-most important issues DHS will 
have to address as it enters the second phase of the TWIC 
rulemaking process.
    Industry believes that individual privacy is more than 
sufficiently protected by virtue of the fact that the TWIC will 
not contain a full fingerprint image. There are other 
outstanding issues surrounding the selection and use of card 
reader technology, such as the use of a PIN, integration with 
existing port access control systems, and future expansion of 
the card, just to name a few.
    In addition to addressing these and other remaining 
questions, we suggest that DHS revisit its approach to the TWIC 
reader implementation. The Department should first make the 
final TWIC policy decisions, such as the use of readers at low-
risk facilities and vessels, or access control recordkeeping 
requirements, and then identify the technology that we need to 
support them.
    We also suggest that DHS work with industry in the pilot 
program design phase, as well as its execution and evaluation 
and the subsequent rulemaking process.
    In closing, let me say that although there are still a lot 
of serious concerns, DHS has made progress in bringing this 
program to fruition. We remain committed to the TWIC Program, 
and want to continue to work with TSA and Coast Guard, to 
ensure there are no unintended consequences, and that the 
program is going to be deployed in the most secure and 
efficient manner possible.
    And, that concludes my remarks, and I'll be happy to answer 
any questions.
    [The prepared statement of Ms. Himber follows:]

         Prepared Statement of Lisa B. Himber, Vice President, 
            Maritime Exchange for the Delaware River and Bay

    Good morning, Mr. Chairman, Mr. Vice Chairman, and members of the 
Committee. Thank you for the opportunity to present testimony today. My 
name is Lisa Himber, and I am Vice President of the Maritime Exchange 
for the Delaware River and Bay. The Maritime Exchange is a non-profit 
trade association representing the members of the commercial maritime 
industry in Southern New Jersey, Southeastern Pennsylvania, and 
Delaware, and our mission is to promote commerce at Delaware River 
ports. We accomplish this by engaging on issues and developing programs 
to support the safety, security, economic viability and environmental 
health of the tri-state port complex. Included among our 300 members 
are those companies and individuals who operate, or provide service to, 
the 2,800 vessels calling Delaware River ports each year. Our 
membership includes regulated vessels, port authorities and private 
maritime facilities as well as the many businesses and individuals who 
need access to one or multiple facilities to do their jobs on a daily 
basis--such as tug and barge companies, steamship agents, labor 
organizations, surveyors, line handlers, and trucking companies, just 
to name a few.
    Although the Maritime Exchange is focused on activity at Delaware 
River ports, we address issues of national significance with our sister 
maritime organizations under the umbrella of Maritime Information 
Services of North America, known as MISNA, as well as through NAMO, the 
National Association of Maritime Organizations.
    In addition, I serve as Vice Chair of the National Maritime 
Security Advisory Committee (NMSAC), which as you are aware was 
established under the Maritime Transportation Security Act (MTSA) of 
2002. NMSAC has been actively engaged with the Department of Homeland 
Security on the Transportation Worker Identification Credential (TWIC) 
program since its initial meeting in March of 2005, and I'll talk more 
about our recent accomplishments in a few minutes.
    I appreciate this opportunity to discuss the TWIC program and 
issues associated with implementation of the final rule issued in 
January of this year. TWIC has long been one of the priority Federal 
projects for my organization and our members in the Delaware River 
maritime community.

Background
    The Exchange role in the port--Like most associations, the Maritime 
Exchange is an advocate on issues of concern to its members, much like 
a Chamber of Commerce. However, what sets the Exchange apart from a 
traditional trade association is its operating role in the port. The 
Exchange operates on a 24/7 basis, and one of our primary 
responsibilities is to collect, store and disseminate information on 
all commercial cargo ships moving through the port. We also serve as a 
maritime information and communications hub for the region, conveying 
messages between ships and their shoreside service providers as well as 
distributing Federal safety, security, operational, and procedural 
bulletins to the maritime businesses community. Because of the 
importance of this function, which we have been providing since 1875, 
coordinating information through the Maritime Exchange communications 
center has been incorporated into the Area Maritime Security Plan for 
Coast Guard Sector Delaware Bay.
    In addition to our traditional Ship Reporting function, in the mid-
1980s the Exchange began the development of what is now known as 
Maritime On-Line (MOL). This system is a community-based information 
network which provides a mechanism not only to obtain anticipated, 
current and historical vessel movement information but also offers a 
tool for steamship carriers and their agents to submit cargo manifest 
data to U.S. Customs and Border Protection and advance electronic 
notice of vessel arrival and departure information to the U.S. Coast 
Guard. Through MOL, the Exchange provides Delaware River port operators 
with a cost-effective means to both comply with Federal information 
reporting requirements as well as to share information, such as 
manifest data or cargo release status, with local public and private 
sector transportation partners through a centralized maritime 
intelligence system.
    Development of a regional standard ID--Because the Exchange had 
demonstrated its ability to bring together the various maritime 
stakeholders to develop, implement, and use a community information 
system, several members approached us in the late 1990s to discuss the 
feasibility of developing a system under Maritime On-Line which could 
be used to identify truck drivers accessing the various cargo 
facilities in the three states.
    The Exchange organized a working group of system users and 
developed a set of requirements for what would become known as the 
Electronic Driver Identification (EDID) System. By September 2001, the 
system design was complete, and the Exchange was working to identify a 
means of funding the initial program development. The premise behind 
this system was a centralized database and the issuance of an ID card 
that would be accepted at all participating Delaware River maritime 
terminals.
    Immediately after the events of September 11, 2001, Exchange 
members asked whether the system we had designed to identify truck 
drivers could be expanded to include anyone requiring access to 
maritime facilities. Like truck drivers in the State of Florida, those 
doing business in the Delaware River were required to obtain multiple 
identification cards, and the maritime community agreed that 
development of a single, standard ID card would be a critical program 
under new heightened security programs at maritime facilities.
    As a result, by December 2001, the Exchange, in partnership with 
the Port of Wilmington, Delaware, had identified funding to develop a 
pilot program, and successfully programmed and tested what would become 
the Delaware River ID (DRID) system. We subsequently received a Port 
Security Grant to expand this program.
    It was because of this effort that the Delaware River was selected 
as one of the TWIC pilot program locations. It was generally agreed 
that if such a system could work effectively at Delaware River ports, 
with three states and multiple private and public port facilities, it 
could work at all U.S. ports.

TWIC Pilot Program
    Having been involved in the TWIC program even prior to the 
establishment of the TSA and the August 2002 launch of the East Coast 
TWIC pilot project, my organization and its members have been keenly 
interested in the successful deployment of this program.
    Members of the Delaware River port community participated in all 
three phases of the TWIC pilot program, beginning with the Planning 
Phase which spanned the Fall of 2002 through the Spring of 2003, the 
Technology Evaluation from May to October of 2003, and the Prototype 
Phase, which started in November 2004 and officially ended in June 
2005, although TSA continued to support Delaware River sites well into 
2005.
    I believe everyone is aware that there were a great number of 
setbacks which plagued the TWIC pilot program, which was originally 
scheduled for completion in December 2003. Despite some of the problems 
encountered by the Transportation Security Administration, some of 
which were discussed at a hearing before this Committee last May, it 
seems clear that the pilot program did afford TSA with the opportunity 
to gain an understanding of what would be required to implement a 
program of this magnitude.

Moving Forward
    Program Deployment--Card Issuance--The Final Rule published in 
January is an extremely complex document which many maritime 
professionals are still working to comprehend. However, we cannot 
emphasize enough that we believe the Department of Homeland Security 
made the right decision in separating the card application and issuance 
processes from the reader installation and usage processes. Taken 
separately, each of these components of the TWIC program is extremely 
intricate and creates multiple possibilities to unduly hamper maritime 
operations if not implemented in a thoughtful and deliberate manner; we 
appreciate that DHS is allowing sufficient time to address the 
challenges of card issuance prior to attempting to introduce the 
component of accessing and communicating with a central TWIC database, 
which was never tested during the pilot program. There is no doubt that 
had both phases been implemented concurrently, the transition to full 
program deployment would have been fraught with multiple unanticipated 
problems.
    In drafting its final rule, it is evident that DHS took into 
consideration the thousands of comments submitted by maritime 
stakeholders in response to the Proposed Rule published last May. 
Several of the issues cited have been addressed, such as the need to 
accommodate temporary and seasonal workers, and the elimination of the 
formal employer sponsor relationship. In addition, the Coast Guard 
drafted a very clearly-written and helpful Navigation and Vessel 
Inspection Circular (NVIC) guidance document; and we appreciated the 
opportunity to comment on the draft document prior to its finalization. 
This is not an opportunity the regulated public often enjoys.
    Needless to say, however, in a program of this scope, there still 
remain some additional questions and concerns about the regulation.
    First, the rule is silent on the issue of casual labor, which is 
such an integral part of efficient maritime operations that it must not 
be overlooked. While the regulation and the draft NVIC provide 
accommodation to escort non-TWIC holders, there is no clear pathway to 
implementing the escort requirement. Foremost among the challenges is 
the fact most facilities operators within the Delaware River and 
elsewhere have determined that the secure and restricted areas defined 
in their security plans will be contiguous, such that the entire 
facilities are restricted.
    The effect of that decision directly relates to the numbers of non-
TWIC holders who may be escorted by any one-TWIC holder. As outlined in 
the draft NVIC, escorting in a restricted area is limited to five non-
TWIC holders for every one TWIC-holding escort. In addition, unless 
this guidance changes in the final version, the escort must be constant 
and side-by-side (i.e., no monitoring via video or random patrol). The 
impact of this can be seen in the following scenarios: at the hiring 
hall, a longshoreman offers to drive three or four day laborers to the 
pier to report for work. Upon arrival, these individuals may be 
assigned to work different ships, and therefore the TWIC holder is no 
longer in a position to serve as an escort for the others. Or perhaps 
one of the workers is a female and the TWIC holder is male; surely he 
cannot be expected to stay by her side during the entire workday. In 
any case, it is not conceivable that one worker could escort even one 
individual, let alone several others, on a constant basis while still 
fulfilling his own responsibilities. In addition to the practical 
difficulties, in some cases the physical layout of the marine facility 
prohibits the ability of the card holder to fulfill his/her 
obligations. For example, while it is obvious where the vessel berthed, 
the final resting place of the cargo is sometimes several hundred 
yards--or even miles--away from the vessel in a storage yard, warehouse 
or transit shed.
    Further questions have arisen about the escort's liability and 
responsibility. If an individual under escort causes a Transportation 
Security Incident or otherwise violates existing laws, regulations or 
facility/vessel policies, what is the ramification to the escort? This 
question has yet to be resolved, and depending on the answer, it may be 
difficult, if not impossible, to identify willing escorts.
    Similar issues arise as they relate to truck drivers. Many drivers 
arrive at Delaware River ports from other parts of the country. Of 
necessity, until the program is fully implemented, these drivers will 
not have their TWIC cards, and with the sheer volume of trucks moving 
through facility gates every day, it is not feasible that facilities, 
importers, or others could provide resources to escort these drivers. 
Even after initial TWIC rollout is completed, there will always be 
random arrivals by drivers who had never previously hauled cargo to or 
from maritime facilities.
    The card application and issuance processes are not designed to 
accommodate long-haul truck drivers. For example, during initial 
rollout, if a driver arrives at the Port of Wilmington, he can, and 
should, apply for his TWIC card at that time. Yet the processes require 
that he return to the place of issuance to retrieve and activate his 
card after the security threat assessment has been completed. Needless 
to say, the driver may be long gone from the area with no immediate 
opportunity to return.
    Suggestions for addressing the above issues include: allow TWIC 
applicants to designate that cards be returned to a different 
enrollment center than that where the individual originally applied, or 
include a mechanism to mail a card to an applicant's office or home--or 
other appropriate location--after which the individual could return to 
a convenient enrollment location to activate the card.
    In addition, facilities should be given the option to create a 
``temporary'' credential or visitor's pass in lieu of requiring 
escorts. If appropriate, when the individual's identification 
documentation is validated, his photograph could be taken and other 
information entered into the facility access control system. If 
necessary, this information could be submitted to DHS. Such a mechanism 
might be designed along the lines of the Florida ``5 in 90'' rule: 
Florida State regulation allows for a temporary credential, and if an 
individual presents himself for access to a regulated facility more 
than 5 times in 90 days, he or she would no longer be eligible for a 
visitor's card and would be required to obtain a Florida card. Needless 
to say, both DHS and the maritime industry would need to agree to 
mutually acceptable details to implement such a program within TWIC, 
but the idea bears consideration.
    A second major concern relates to the cost of the TWIC card. Simply 
stated, the cost is too high. Although we anticipated there would be a 
significant cost saving associated with DHS centralizing the purchasing 
and production of the cards, these do not appear to have been realized. 
Again, keeping in mind that the maritime industry is highly reliant on 
casual, seasonal and temporary workers, there is little incentive for 
these individuals to seek employment at maritime facilities and vessels 
when the cost of such employment may exceed his wages for the day. Non-
profit organizations, such as the Seamen's centers are also greatly 
impacted by the high price tag. At the Seamen's Center of Wilmington, 
where I serve on the Board of Trustees, the estimated cost to obtain 
TWICs for volunteers is $8,000; this represents an 8 percent increase 
in operating expenses for the upcoming year. Also, of particular 
concern is the fact that an applicant is required to pay the full price 
at application, even if he/she is subsequently denied a card and it is 
never produced. TSA should charge only the cost of processing the 
enrollment application and for the security threat assessment, with the 
balance to be paid only after the card is produced and activated.
    Third, one additional question has recently surfaced in our region: 
how can we process TWIC applications for individuals who for religions 
reasons may not have their pictures taken or require that their heads 
be covered when photographed? While I would not hazard a suggestion on 
how to address such an issue, it may not have previously been 
considered and is certainly a challenge DHS will need to address.
    These are just a few of the questions and concerns which have been 
raised over the last several months; there are countless others--far 
too many to address today. However, we expect that many of these will 
be resolved when the final NVIC is released.
    In addition, there are a few issues the Maritime Exchange and 
others have raised in the past as preventing successful TWIC 
implementation, and we compliment DHS on the steps taken to address 
them.
    Predominant among these has been the problem of successfully 
communicating information to the maritime industry--particularly as it 
relates to program setbacks and delays. We appreciate that that the 
Lockheed Martin contracting team has established a TWIC Stakeholder 
Communications Committee specifically to address the issues of 
communications. To date, the Committee has held only one meeting, so we 
are not yet in a position to evaluate its effectiveness; however we 
remain optimistic and look forward to working with the TWIC team toward 
a successful and smooth implementation.
    In addition to efforts underway at the national level, our local 
Coast Guard personnel, who are responsible for coordinating activities 
between TSA, the contractors and the maritime community, have done an 
excellent job over the last several months in facilitating outreach 
sessions, helping identify enrollment center locations, and providing 
maritime stakeholders with information as it becomes available. We are 
confident that local Coast Guard will approach the implementation and, 
ultimately, enforcement of the TWIC program with the flexibility it 
demands.
    In addition, during the last 5 years, many have held the belief 
that the constant turnover in DHS, TSA and TWIC program office 
leadership has contributed significantly to the ongoing delay in 
implementing the program. Over the last year, the personnel roster has 
been completely stable, and we are pleased to note that DHS seems to 
have addressed some of the internal issues associated with employee 
turnover.
    Finally, the Exchange and others have expressed concerns about the 
fact that many of the critical technologies, such as communication with 
the database, use of biometrics, or individual (versus corporate) 
program enrollment were not tested, or tested insufficiently, during 
the original TWIC pilot program. We appreciate that DHS, as required by 
the SAFE Port Act, will conduct a TWIC pilot program to test reader 
technology and processes.
    Installation and Usage of Card Readers--As stated previously, DHS 
elected to defer this component of TWIC implementation. We 
enthusiastically applaud this decision and appreciate the efforts of 
DHS to work with industry to determine the appropriate technology for 
use in the maritime environment.
    One of the key concerns expressed by those commenting on the 
Proposed Rule last Spring related to the use of contact cards. 
Requiring that a card be swiped at a TWIC reader would not only 
significantly delay maritime operations, but contact readers are more 
susceptible to failure due to environmental elements, and they also 
present an easy and attractive target to vandals. In response, last 
November DHS asked the National Maritime Security Advisory Committee to 
develop recommendations for a contactless card reader which could be 
used at ports and vessels.
    NMSAC agreed to accept this challenge, and it was my pleasure to 
co-chair the working group established to develop the recommendations. 
The Working Group included approximately 130 individuals, not including 
the Federal Government participants, and was organized into a maritime 
team and a security technology industry team. The maritime group was 
comprised of public and private terminal owners and operators, vessel 
owners and operators, maritime labor and employer organizations, trade 
associations, and a host of others. These individuals, with counsel of 
the security industry team members spent the months of December 2006 
and January 2007 developing a series of operating requirements which 
would guide the development of the technical documentation. This 
document was completed by mid-February in advance of the February 28 
deadline established by DHS.
    For the most part, the technical team was able to meet the 
requirements outlined by the maritime industry representatives, and the 
technical specification endorsed by NMSAC reflects the combined efforts 
of the full working group.
    However, there remains one critical area where the DHS and the 
maritime industry could not come to terms. This relates to the level of 
protection which should be placed on the fingerprint template 
transferred between the TWIC card and the reader. This is one of the 
single most important issues DHS will have to address as it enters the 
second phase of the TWIC rulemaking process.
    In its simplest form, DHS has stated that the fingerprint template 
is to be encrypted; the maritime industry holds that individual privacy 
is more than sufficiently protected simply by virtue of the fact that 
the TWIC will not contain a full fingerprint image but only a minutiae 
template which cannot be re-generated if it is ``stolen'' during 
contactless transmission.
    The following text is excerpted directly from the NMSAC 
recommendations:

        A. Privacy and Security Considerations--NMSAC supports the 
        inclusion of measures to protect individual privacy and 
        acknowledges that this prerequisite, along with the need to 
        enhance commerce and improve transportation security, has been 
        included as a required goal of the TWIC program since it was 
        announced in February 2002.

        It is our understanding that all personally identifiable 
        information about an individual gathered during enrollment will 
        be retained by TSA in its central data bank. The card itself is 
        expected to show and/or contain a photo, a unique cardholder 
        identification number, and the individual's biometric 
        fingerprint template.

        In its design, TSA wisely elected to utilize the fingerprint 
        template rather than a full fingerprint image specifically to 
        address both privacy and operational efficiency concerns. Since 
        only a fingerprint template will be passed between the card and 
        the TWIC reader, the information cannot be reverse-engineered 
        to a full fingerprint image.

        Even if the template were ``stolen'' during contactless 
        transmission to a TWIC reader, and even if somehow it could be 
        used to replicate the original fingerprint, for which we 
        understand no technology currently exists, the ``thief'' would 
        not be able to use this illegal TWIC as the fingerprint image 
        would not match his own when presented to a biometric reader in 
        conjunction with a TWIC. In addition, an individual interested 
        in ``stealing'' a fingerprint would meet much less technical 
        resistance and obtain a more accurate representation by lifting 
        it from an object in a public place such as a car door, window 
        or drinking glass.

        B. Operational Considerations--There are several concerns with 
        encrypting the fingerprint template. First, every transaction 
        will require encryption and decryption, each of which affords 
        time and opportunity for a problem to arise. In addition, prior 
        to encryption and decryption, some form of authentication or 
        ``handshake'' between the card and reader is necessary to 
        validate that the transaction about to take place is 
        legitimate. In order for such authentication to take place, 
        some form of key management must be in place. Thus, if a key is 
        compromised at one instance, it affects every reader in that 
        ``key community.''

    In summary:

  <bullet> Adding encryption generally makes the TWIC system more 
        complex and therefore more difficult to develop, use, manage, 
        and maintain.

  <bullet> Adding encryption will slow processing time to read cards at 
        vessels/facilities.

  <bullet> The use of keys places an administrative burden and certain 
        liabilities (e.g., responsibility to ensure the key is not 
        compromised) on those charged with key management. Vessel and 
        facility operators are neither prepared nor able to accept 
        these responsibilities.

  <bullet> Adding encryption will increase TWIC costs.

        Therefore . . . ``Given the limited amount of information 
        transmitted between the TWIC and the reader, the Working Group 
        does not believe encryption will provide any additional 
        security benefit, but it will increase both cost and processing 
        time.'' The NMSAC TWIC Working Group (TWG) closely studied the 
        issue and as a group concluded that the operational 
        complexities increase by a level of magnitude and to the point 
        where they are not proportionate with any perceived benefit of 
        encrypting the biometric template. In short, there is no 
        empirical evidence that encrypting the fingerprint template 
        affords any additional protection of personal privacy.

    DHS published the NMSAC recommendations for public comment, 
approximately 30 organizations or individuals responded, and an 
overwhelming majority agreed with the NMSAC on this critical issue.
    While it is possible that a compromise solution to this challenge 
may be identified, the NMSAC group was unable to explore these 
opportunities given the fact that DHS did not provide any indication 
that it would expressly require encryption of the biometric until 
February, after the maritime team had completed its work. Further, DHS 
has not effectively presented rationale for taking this position; 
indeed, the original task statement presented by DHS stated that the 
recommendations shall incorporate ``reasonable security and privacy 
controls,'' which we believe the NMSAC-endorsed recommendations did.
    There are several other outstanding questions and concerns 
surrounding the selection and use of card reader technology. These 
include the use of a PIN during the TWIC verification procedures, 
integration with legacy access control systems, and future expansion of 
the card. However, we believe DHS will work effectively with the pilot 
program participants and the National Maritime Security Advisory 
Committee to meet the challenges associated with this phase of the 
rulemaking process.
    In addition to addressing the above, we suggest that DHS reverse 
its approach to the TWIC reader implementation. Specifically, rather 
than first developing a TWIC reader specification and subsequently 
finalizing policy decisions and promulgating a rulemaking on reader 
usage, we recommend that DHS first resolve the TWIC policy questions 
(e.g., the requirement for use of readers at low-risk facilities and 
vessels, processes for enrolling individuals whose fingerprint cannot 
be captured, access recordkeeping, etc.), and then incorporate the 
appropriate technology to support them.
    Finally, we suggest that DHS work with industry in the pilot 
program design phase as well as its evaluation and subsequent 
rulemaking activities.

Conclusion
    Over the years, the maritime sector perhaps more than any other has 
recognized the need to implement new programs and practices in an 
effort to enhance the security of our homeland. We have dramatically 
altered business processes and worked closely with DHS agencies to help 
them achieve their missions. As with many Federal programs, we want to 
continue to work with TSA on the TWIC program to ensure there are no 
unintended consequences, such as those which might arise if we are 
unable to credential casual labor, and that the TWIC will be deployed 
in the safest, most secure, and efficient manner possible.
    Thank you for the opportunity to speak today. I will be happy to 
answer any questions you may have.

    Senator Lautenberg. Thank you very much.
    Mr. Paul Pomaikai, we welcome you.

          STATEMENT OF CAPT. PAUL KAIPO POMAIKAI, SR.,

       ASSISTANT PORT CAPTAIN, SAUSE BROS.; ON BEHALF OF

                THE AMERICAN WATERWAYS OPERATORS

    Mr. Pomaikai. Good morning, Mr. Chairman, and members of 
the Committee. Thank you for the opportunity to testify today, 
and for the support you have shown the industry.
    My name is Paul K. Pomaikai, Senior, I am the Assistant 
Port Captain----
    Senator Carper. Excuse me, would you pronounce your name 
again, your last name, very slowly?
    Mr. Pomaikai. Pomaikai.
    Senator Carper. Pomaikai.
    Mr. Pomaikai. Pomaikai.
    Senator Carper. Thank you, sir.
    Mr. Pomaikai. Yes. I'm Assistant Port Captain for Sause 
Brothers, I also hold a Master's Ticket from the United States 
Coast Guard, going on my seventh issue.
    We've come out of Honolulu, Hawaii. Sause Brothers has been 
in marine transportation business since 1937. Our Hawaiian 
Island division was incorporated in 1983.
    I am testifying today on behalf of the American Waterways 
Operators, the national trade association for the tugboat, 
towboat and barge industry.
    Mr. Chairman, Sause Brothers and other members of AWO 
consider ourselves partners with Congress, and the Department 
of Homeland Security in ensuring the security of our country. 
We take that responsibility very seriously.
    We are here today because we have serious concerns about 
the impact of TWIC and the TWIC Program on our industry and the 
men and women who work in it.
    These issues are very personal for me, I grew up in the 
maritime industry. My father was on the dock at Pearl Harbor on 
that fateful day, December 7, 1941.
    My wife, Donna Laurie, is also a licensed mariner, sailing 
in the engine room department on the container vessel LURLINE, 
of Matson Navigation Company, as we speak. In 2003, Donna and I 
founded the Wai'anae Maritime Academy, located at Leeward 
Community College, a unit of the University of Hawaii.
    Our intention was to provide young people with the 
education and training to begin a career in the maritime 
industry. So far, we have graduated 180 cadets in 9 classes.
    I love this industry, and I know what a wonderful place it 
can be to make a career. I do not want to see my industry or 
the people who work in it harmed by well-intentioned, but 
misguided government regulations.
    Mr. Chairman, AWO has two major concerns with the TWIC 
Program. First, we are concerned that the process for obtaining 
a TWIC will become a barrier to entry that will discourage new 
hires from beginning a career in the maritime industry. This 
will compound the existing shortage of personnel for our 
vessels.
    Second, we believe requiring card readers on small vessels 
like towing vessels will add no practical security value and 
should not be a part of the proposed rule that TSA and the 
Coast Guard will issue later this year.
    Let me elaborate on these concerns, briefly. First, AWO is 
very grateful that the SAFE Port Act passed by Congress last 
year included a provision requiring an interim work authority 
for new hires. However, under the process laid out in the TWIC 
final rule, an individual cannot begin working under the new 
hire provision, until he or she has traveled to a TWIC 
enrollment center, which could be many hours away, and for some 
of us in Hawaii, an island away, make an application for TWIC 
and pay the $137 fee.
    This is an enormous hurdle for a young man or woman or an 
older worker, looking to make a career change. It is also a 
problem for employers who need to be able to put new hires to 
work as soon as they have passed the drug screen and physicals.
    If new employees are scared away from seeking employment in 
the maritime industry because of the burdens involved in 
applying for a TWIC, companies could be forced to tie up boats 
for lack of crew members to operate them. Given the importance 
of maritime transportation to the economy of Hawaii, and other 
states, this would be a very major problem.
    As an alternative, we would propose that the process begin 
with a computerized check against a terrorist watch list, not a 
trip to the TWIC enrollment center, with an employees consent, 
the employer could enter his or her name, birth date, Social 
Security number into the Coast Guard's Homeport website, to 
initiate a check against a terrorist watch list.
    Provided this initial screening turned up no red flags, the 
individual could be put to work on an interim basis. Later, 
once the new hire has had the taste of life and work on a 
vessel and sees that it will work for him or her, the mariner 
could be required to complete the TWIC enrollment process.
    Second, AWO believes that the card readers should not be 
required on vessels with small crews, like towing vessels. The 
SAFE Port Act gives the Department of Homeland Security the 
authority to limit the card reader requirement to vessels with 
more than a certain number of crew, to be determined by that 
agency.
    On a typical U.S. flag-towing vessel with four to ten crew 
members, all of whom are familiar to management and fellow crew 
members, an electronic card reader adds no practical security 
value. We strongly recommend that card readers not be required 
on vessels with less than 10 crew members.
    Thank you, Mr. Chairman, thank you for the opportunity to 
testify.
    [The prepared statement of Captain Pomaikai follows:]

 Prepared Statement of Capt. Paul Kaipo Pomaikai, Sr., Assistant Port 
  Captain, Sause Bros.; on Behalf of The American Waterways Operators

    Good morning, Mr. Chairman, I am Paul Kaipo Pomaikai, Sr., 
Assistant Port Captain for Sause Bros., Inc., in Honolulu, Hawaii. I 
want to thank you for holding this hearing and for the support you have 
shown for our industry.
    Sause Bros., headquartered in Coos Bay, Oregon, is a privately held 
towing company, carrying forest products, building materials and 
petroleum to and from Alaska and Hawaii and up and down the U.S. West 
Coast. We employ over 500 people, including 300 mariners as crew on our 
boats. Sause Bros. owns and operates a fleet of 35 tugboats and 25 
barges, and has been in the marine transportation business since 1937.
    Sause Bros. has been engaged in common carrier service to the 
Hawaiian Islands since 1966. Our Hawaiian Island division was 
incorporated in Hawaii in 1983 to more effectively serve Island 
customers. The Hawaiian fleet provides inter-island and Military 
Sealift Command towing services, and distributes West Coast cargoes to 
Island customers. Our Island barge fleet carries products ranging from 
lumber, plywood, sand, and containers, to heavy equipment and petroleum 
products. Our ship assist fleet has gained a reputation among the 
Island shipping industry for safety, reliability, and professionalism.
    As Assistant Port Captain for Sause Bros., I am responsible for all 
of our operations in the Hawaiian Islands. In addition, in 2003, my 
wife, Donna Laurie, who is also a licensed mariner, and I founded the 
Wai'anae Maritime Academy, located at Leeward Community College at 
Wai'anae, a unit of the University of Hawaii, to provide young people 
with the education necessary to begin a career in the maritime 
industry. We have graduated 180 cadets in nine classes, and this May we 
will be holding our tenth class. One of our commitments to our students 
is to help them find employment on board vessels following their 
graduation. We help them to meet the qualifications and get the 
documents they need, and we also help them develop the lifestyle that 
allows them to be productive workers in the maritime industry or other 
places they may decide to go with their lives.
    I am appearing before the Committee today on behalf of The American 
Waterways Operators. AWO is the national trade association for the 
tugboat, towboat, and barge industry. The industry AWO represents is 
the largest segment of the U.S.-flag domestic fleet and a vital part of 
America's transportation system. The industry safely and efficiently 
moves over 800 million tons of cargo each year with a fleet that 
consists of nearly 4,000 tugboats and towboats, and over 27,000 barges. 
Our industry employs more than 30,000 mariners as crewmembers on our 
vessels. While a few companies in the towing industry are relatively 
large, according to the U.S. Army Corps of Engineers, over 90 percent 
of U.S. towing companies are actually smaller than Sause Bros.
    Mr. Chairman, Sause Bros. and the other members of The American 
Waterways Operators have been, and will continue to be, partners with 
Congress and the Department of Homeland Security in ensuring the 
security of our country. Immediately after the September 11, 2001 
attacks, the members of AWO worked in cooperation with the Coast Guard 
to develop security plans for our vessels, even before they were 
required by the Maritime Transportation Security Act of 2002. We take 
security seriously, and we are proud of the fact that our vessels and 
their crews are considered to be the ``eyes and ears'' for the Coast 
Guard on our Nation's waterways.
    Nevertheless, we have serious concerns about the impact of the 
Transportation Worker Identification Credential (TWIC) program on our 
industry and the men and women who work in it. Our primary concern is 
that the process for obtaining a TWIC card will become a barrier to 
entry into the maritime industry for new hires, and this will 
exacerbate an existing shortage of personnel for our vessels. We are 
also concerned that requiring card readers on small vessels like towing 
vessels will add no practical security value and should not be part of 
the proposed rule that TSA and the Coast Guard will issue later this 
year. Allow me to elaborate on these concerns.
    The May 2006 NPRM contemplated a TWIC enrollment process taking 30 
to 60 days. In its comments on the NPRM, AWO said that such a time-
frame would ``seriously impede the ability of companies to bring new 
mariners into the industry in a timely manner.'' AWO and many of the 
2,000 other organizations and individuals commenting on the NPRM 
suggested that the Department of Homeland Security include an interim 
work authority provision in the TWIC rule which would enable new hires 
in the industry to begin working immediately once they have passed an 
initial security screening.
    We are enormously grateful that the Congress recognized these 
concerns, and as a result, a provision of the SAFE Port Act, Public Law 
109-347, signed into law on October 13, 2006, required the inclusion of 
an interim work authority in the final rule. The statute provides: 
``The regulations shall include a background check process to enable 
newly hired workers to begin working unless the Secretary makes an 
initial determination that the worker poses a security risk. Such 
process shall include a check against the consolidated and integrated 
terrorist watch list maintained by the Federal Government.'' This 
language embodied the request we had made in our comments to the NPRM 
and made mandatory a process to allow new hires to begin working after 
an initial screening unless there is a determination that the worker 
poses a security risk (emphasis added).
    The final rule issued on January 25, however, does not follow the 
intent of the statute to avoid creating barriers to new hires entering 
the industry. The proposal would deny a new hire the ability to begin 
work until the expensive and burdensome application process for a TWIC 
has been completed. Under the process called for in the final rule, new 
applicants must first travel to a TWIC enrollment center to make 
application for a TWIC in person, as well as pay the TWIC enrollment 
fee of $137, before undergoing an initial check against the terrorist 
watch list.
    For many applicants in Hawaii and other parts of the country, this 
trip to the TWIC enrollment center will not be quick, easy or 
inexpensive. In Hawaii, for example, an applicant might have to fly 
from one island to another simply to apply for a TWIC. In other parts 
of the country where there is not a TWIC enrollment center nearby, 
applicants will also have to travel significant distances in order to 
make the application. This process creates a very high barrier to entry 
for new entrants to the industry who are not sure whether a career in 
the maritime industry is right for them.
    Under the final rule, the ``initial'' security screening can only 
occur after the applicant has gone through the time and expense of 
completing his or her application. At that point, the employer may 
enter the individual's information into the Coast Guard's Homeport 
website to obtain the results of the check against the terrorist watch 
list. The rule indicates that a response can be expected within 24 to 
72 hours after enrollment is completed. The problem is that for new 
hires and their employers, the TWIC enrollment process is only one step 
in a larger process of coming to work in the maritime industry. The 
first thing a company does when a new hire makes application is put him 
or her through a drug screen. If he or she passes that test, the next 
step is a physical exam, followed by a reference check. In the real 
world, neither the applicant nor an employer will want to invest in a 
trip to a TWIC enrollment center until those steps are taken. What that 
means is that it could easily take more than a week before an applicant 
is ready to travel to an enrollment center and make application for a 
TWIC, and then wait an additional 3 days for the results of the 
terrorist watch list check to be available.
    Mr. Chairman, we are concerned that requiring new applicants to 
undergo such a burdensome process will deter individuals from entering 
the maritime industry. My company, and companies like mine, provide 
entry level opportunities for high school graduates looking to begin a 
career in the marine industry as deckhands on our vessels. These men 
and women come to our company with a need to begin earning a paycheck 
and providing for themselves and their families right away. Faced with 
the burdensome requirements surrounding the TWIC process, many will 
seek employment in another industry where the barriers to entry are not 
so high. Even without the TWIC rule, we are struggling with a chronic 
shortage of personnel to man our vessels. AWO estimates that the annual 
turnover of entry level personnel in the towing industry is 50 percent. 
New hires may find that they get seasick or homesick and choose not to 
continue with a maritime career. Companies must also evaluate an 
individual's ability to perform on the job. Both the new hire and the 
company must come to the conclusion that a career as a working mariner 
is the right ``fit'' for the individual and the company before a long 
term commitment is made. For many new hires, the first manifestation of 
that commitment is the trip to the TWIC enrollment center and the 
payment of the application fee. That commitment should not be required 
until both the company and the applicant have concluded that the 
individual will continue in the industry.
    In this environment, we are very concerned that the burdensome 
requirements for obtaining a TWIC card will exacerbate the current 
personnel shortage and could even force companies like ours to tie up 
boats for lack of crewmembers to operate them. Such an outcome would 
have a very negative impact on our ability to deliver the cargoes that 
are the building blocks of the economy in Hawaii, and would have the 
same negative impact on the national economy by affecting hundreds of 
towing companies around the country that also deliver the goods that 
are essential to maintain America's economic vitality.
    As an alternative, we would propose that the process begin with a 
computerized check against the terrorist watch list, not a trip to the 
TWIC enrollment center. (This could be done concurrently with the drug 
screen or physical exam described earlier.) With an employee's consent, 
the employer could enter the new hire's name, birth date, and Social 
Security number into the Coast Guard's Homeport website to initiate a 
check against the terrorist watch list. Provided this initial screening 
turned up no red flags, the individual could be put to work on a vessel 
on an interim basis. Later--once the new hire has a taste of life and 
work on a vessel, and sees that it works for him or her--the mariner 
could be required to complete the TWIC enrollment process.
    Another significant concern for the towing industry is the 
potential requirement for TWIC card ``readers'' on every towing vessel. 
The NPRM proposed a requirement for readers at both facilities and 
vessels. The Department subsequently announced that the card reader 
requirement would not be implemented as part of the initial TWIC rule 
but would be considered further as part of a separate rulemaking. This 
was a proper response to the many comments that were received about the 
card reader requirement, but the issue of card readers for towing 
vessels remains an open one.
    Card readers are simply unnecessary for towing vessels. As AWO 
pointed out in its comments on the NPRM, crew sizes on tugboats and 
towboats typically range from four to ten mariners. In a typical U.S.-
flagged towing vessel operation, every employee is known to management 
and fellow crewmembers. A stranger onboard the vessel is immediately 
obvious. Personal knowledge of fellow employees provides a higher 
security standard than reliance upon an electronic reader, no matter 
how sophisticated the technology employed. Access control procedures 
can be included as part of a vessel security plan. The validity of TWIC 
cards can be checked through means other than mandating computerized 
equipment onboard each vessel to constantly communicate with the 
database.
    Mr. Chairman, even if card readers could be operated reliably in 
the severe marine environments where towing vessels routinely go--and 
that has not yet been demonstrated--there is simply no need to require 
their installation on every towing vessel in order to ensure the 
security of those vessels, or to ensure the security of the maritime 
transportation system. The SAFE Port Act gives DHS the authority to 
limit the card reader requirement to vessels with more than a certain 
number of crew, to be determined by the agency. On behalf of AWO, I 
would like to suggest that, at a minimum, vessels with 10 or fewer crew 
members requiring a TWIC should not be required to have a card reader 
installed onboard.
    These problems with the TWIC program are very significant, 
especially for the many small businesses in the towing industry. They 
also have serious implications for companies throughout the towing 
industry and for the economy we serve. The provision for an interim 
work authority for new hires into the industry must be a workable one. 
The requirement to begin the process by traveling to a TWIC enrollment 
center must be eliminated. Failure to do so will have a significant 
negative impact on the ability of vessel operators to attract and 
retain the individuals necessary to crew their boats. In addition, card 
readers provide no additional security value in a small vessel 
environment and should not be required for vessels with ten or fewer 
crewmembers.
    Mr. Chairman, I very much appreciate the opportunity to appear 
before you today. AWO and its member companies stand ready to work with 
this committee and with TSA and the Coast Guard to ensure the security 
of our country while keeping mariners working, vessels moving, and the 
commerce of the United States flowing. Thank you.

    Senator Lautenberg. Thank you very much for your testimony 
and the wonderful story about how you built a business and the 
important services you render. We congratulate you for that.
    Mr. Pomaikai. Thank you.
    Senator Lautenberg. Mr. Rodriguez, please.

          STATEMENT OF MICHAEL J. RODRIGUEZ, EXECUTIVE

   ASSISTANT TO THE PRESIDENT, INTERNATIONAL ORGANIZATION OF 
               MASTERS, MATES AND PILOTS, AFL-CIO

    Mr. Rodriguez. Yes, Mr. Chairman, thank you.
    I have submitted written testimony to the Committee. I'd 
like to read a brief statement to highlight a couple of points.
    Senator Lautenberg. I would point out, Mr. Rodriguez, 
thanks for the reminder, that your full statements will be in 
the record as written, and that the summary--we hope--covered 
the points you wanted to make. But, be assured that your full 
statement will be in the record.
    Please, Mr. Rodriguez, start.
    Mr. Rodriguez. Thank you, Mr. Chairman.
    I am Michael Rodriguez, Executive Assistant to the 
President of the International Organization of Masters, Mates 
and Pilots. I began my career in the maritime industry in 1979 
as a graduate of the United States Merchant Marine Academy at 
King's Point.
    I sailed as a Deck Officer aboard U.S.-flag vessels until 
1995. At MMP, I report on regulatory matters to the 
organization's leadership. I have been monitoring the 
development of the TWIC Program since the beginning.
    I am also a Lieutenant Commander in the United States Naval 
Reserve, and a Veteran of Operation Enduring Freedom. I'll 
touch on a couple of points that are in my written statement.
    The TWIC Program must be a national program. We believe 
Congress envisioned a national maritime security system that 
would pre-empt state and local systems. However, current 
provisions allow state or local governments to impose their own 
duplicate systems. This will result in higher costs and 
additional burdens for our workers and vessel operators as they 
trade between States, even between facilities, within the same 
state. We are also concerned about processing delays at the 
state and local levels.
    The TWIC Program should be compatible with international 
systems. We have argued that the TWIC Program should take 
advantage of proven biometric technology by using the 
International Civil Aviation Organization standards. The ICAO 
standards are simple, efficient, and recognized worldwide.
    Machine-readable travel document control systems used by 
the United States for electronic passports that monitor entry 
of foreign travelers into the United States employ the ICAO 
standard. We feel the ICAO standard is the logical choice for a 
biometric security card that could be interoperable with the 
TWIC and the Seafarer's Identity Documents that will be carried 
by crews of foreign ships trading to the U.S.
    Finally, we are concerned about the administrative law 
judge program that would be put in place to handle denials and 
waivers. We feel it is imperative that a sufficient number of 
ALJs be in place to handle the increased case load generated by 
the TWIC. If reviews are not processed in a timely manner, 
there will be a substantial negative impact on workers who are 
wrongly denied their TWICs.
    That concludes my remarks, Mr. Chairman, I look forward to 
your questions.
    [The prepared statement of Mr. Rodriguez follows:]

Prepared Statement of Michael J. Rodriguez, Executive Assistant to the 
  President, International Organization of Masters, Mates and Pilots, 
                                AFL-CIO

    I want to thank the Committee for inviting the Masters, Mates & 
Pilots (MM&P) to present our views concerning the implementation of the 
Transportation Worker Identification Credential (TWIC) in the maritime 
sector. Our organization represents Ship's Masters and Licensed Deck 
Officers and Engineers working aboard U.S.-flag commercial vessels 
operating in the international and domestic trades, and on the inland 
waterways; and on civilian-crewed ships in the government fleet. The 
MM&P also represents harbor pilots.
    The MM&P and, in fact, all the American seafaring and longshore 
unions, have a vital interest in maritime security and the 
administration of the maritime security regime. The members of our 
maritime labor organizations will be directly affected by any breach of 
maritime security. Many of the members of the MM&P also serve as Ship 
Security Officers and are responsible for the implementation of the 
U.S. Maritime Security Regulations and the International Code for the 
Security of Ships and of Port Facilities (ISPS Code).
    Our comments are from the perspective of mariners who are 
continually in transit between different terminals, ports, states and 
countries for long periods as they work and live aboard their vessels. 
Accordingly, and in order to do their jobs efficiently and effectively, 
these maritime workers need consistency between national and 
international identity credentials, and uniformity with respect to the 
administration of access control.
    Once fully implemented across all sectors of the transportation 
industry, the TWIC program will affect millions of American workers. In 
fact, many of our concerns are shared by other transportation workers, 
such as longshoremen, truck drivers, rail crews, ship service personnel 
and others whose employment is not limited to a single facility or 
port.
    Seafaring and longshore workers want secure ports and vessels. We 
should be and we want to be treated as allies in the war against terror 
and not as the enemy. Our members would be among the first affected by 
a terrorist attack directed at or using our Nation's maritime 
transportation system. Therefore, we understand that access control 
procedures, including identification cards, can be important tools in 
the effort to prevent terrorist acts against our maritime 
transportation system. We support initiatives to identify and bar from 
working in security-sensitive transportation jobs individuals who 
clearly pose a security risk.
    The stated goals of the TWIC program are to improve the security of 
our transportation systems, ensure the flow of commerce, and preserve 
the rights of workers; workers who are essential participants in the 
supply chain and in its security. We believe very strongly that in 
order to achieve these objectives, the process of applying for and 
receiving a TWIC must be efficient and must not result in unnecessary 
burdens upon workers. TWIC cards will be used in a marine environment 
covering a vast and diverse maritime workplace and the program must not 
only account for and reflect this reality, but must be adaptable to a 
wide variety of circumstances. Unfortunately, we are concerned that in 
too many areas this is not currently the case.
An Overview of the Current Situation

Support for a National Program
    We have no doubt of the need for a ``biometric transportation 
security card'' as mandated by Congress in section 70105 of the 
Maritime Transportation Security Act of 2002 (MTSA of 2002). Early on 
we saw the benefits of a single, national security system based on a 
comprehensive security record check that could be used in a uniform 
system by a mobile workforce employed across many terminals, ports and 
states. Therefore, we support a system based upon background checks to 
ensure that transportation workers do not pose a ``terrorism security 
risk'' to the United States. However, our support was predicated on the 
belief that such a system would be a national system that would become 
the standard for all maritime workers throughout the country and would 
prevent a proliferation of local systems that would all require their 
own background checks and fees. This unfortunately is not the case 
today. In the absence of Federal preemption, the program is permitting 
local requirements to overlay the TWIC standards for access control.
    It should be clear that this situation is inconsistent with the 
goals of the TWIC program and unnecessarily burdens transportation 
workers who, by the nature of their work, require access to secure 
areas throughout a port, a state, the Nation, or even internationally. 
Terrorism and the prevention of terrorism are national, not local, 
concerns and the standards and system put in place to address these 
national concerns should take precedence over all others and not be 
left to the vagaries of each individual facility, port, city or state.
Need for International Uniformity
    We anticipated and have urged that the TWIC program should take 
advantage of proven biometric technology by using standards developed 
by the International Civil Aviation Organization (ICAO). ICAO is the 
United Nations organization that regulates international air transport. 
The ICAO standards are simple, efficient, widely used and recognized 
worldwide.
    In addition, the ICAO standards form the basis for secure identity 
documents recently adopted by the International Labor Organization in 
Convention 185 (ILO C185), Seafarer Identity Documents (SID). They also 
form the basis for the machine readable travel document control systems 
used by the U.S. for electronic passports that monitor access of 
foreign travelers to the U.S. It seems to us the ICAO standards are the 
logical choice for a biometric security card that could be used in an 
interoperable system that could include both our national cards and the 
international cards that will be carried by the crews of foreign ships; 
a population of seafaring workers employed aboard the foreign flag 
ships that carry 95 percent of America's export and import trade in and 
out of America's ports. Also, foreign port workers on U.S. flag ships 
while working cargo or undergoing repairs in foreign ports are expected 
to carry ICAO-compatible identity cards.
    Because our TWIC system will not be interoperable with 
international standards the vast majority of ships and crews in U.S. 
deepwater ports will not be covered under TWIC-based access control 
systems. In other words, U.S. ships working cargo in a U.S. port with 
U.S. labor will have to comply with United States Coast Guard (Coast 
Guard) security provisions while a competing foreign ship with a 
foreign crew at the same terminal will be exempt--a situation we can 
begin to rectify by requiring that the TWIC system use the readily 
available ICAO standards.

An Overly Complex Card
    It is disappointing to us that the very clear provisions regarding 
security cards in the MTSA of 2002 have still not been fully 
implemented in 2007. We attribute this to a number of factors.
    First, ownership of the program has been split. Responsibility for 
the design of the card lies with the Transportation Security 
Administration (TSA) while the Coast Guard is responsible for 
implementation of access control programs using the TWIC.
    Second, rather than accepting the proven ICAO standard, the TSA has 
adopted a design standard that is technologically sophisticated but 
overly complex and with a functionality that is, in most cases, far 
beyond that needed to comply with the MTSA of 2002.
    Third, the card design standard and required supporting equipment 
is unproven in the maritime environment. Many individuals and 
organizations experienced in maritime transportation believe that the 
complex access control regime it is intended to support is both 
unnecessary and impractical throughout much of the maritime workplace.
    Many have also raised objections over the approach taken by the TSA 
but, from our perspective, the agenda seems to be dictated by the 
concerns of the card manufacturers and contractors rather than by those 
of the affected population in the maritime industry who will be covered 
by the program. The result is a very complex and expensive program that 
we are concerned will cause major disruptions in the maritime 
transportation system if implemented as proposed. The cost for all this 
will have been borne by the workers in the system.

Leads to Overly Complex Control System
    In May 2006, the Coast Guard issued a proposal for a security 
regime governing access control using the full functionality of the 
proposed card. That proposal met strenuous objections from the maritime 
industry which highlighted the proposed card's impracticality. It 
appeared that the initial proposal was driven by a desire on the part 
of the Coast Guard to utilize the full alleged functionality of the 
TSA-designed card across the entire maritime sector regardless of any 
risk-based assessment of the threat of terrorism in the various sectors 
of a very diverse industry. As an example, vessels would be required to 
have onboard card readers interconnected via satellite communications 
to a central server maintained by the TSA to monitor use of the TWIC 
card. The impracticality of applying such a system to thousands of 
small inland towing vessels or offshore supply vessels, or even large 
ocean-going ships, should be self evident. While the initial Coast 
Guard proposed access control provisions have been withdrawn, they 
remain the subject of a future rulemaking that, as far as we know, 
still has the objective of utilizing the full functionality of the TWIC 
card across the entire maritime sector in a one-size-fits-all approach 
to security.
    Security systems need to differentiate between high risk operations 
and low to no risk operations. Security regimes and controls must be 
scalable to the risk. For instance, a high profile cruise ship and a 
terminal handling thousands of passengers is in a very different risk 
category or tier than an inland towing vessel with a 5 person crew or a 
ship and terminal handling crushed rock or iron ore.

Need for Federal Preemption
    Since transportation workers will be required to carry a TWIC, it 
follows that many of the card holders will travel between states, 
ports, and facilities. If the TWIC regulations allow each state, port, 
or facility to develop its own unique access control system that does 
not conform to a uniform national standard then the TWIC program will 
impose tremendous costs upon the industry and its workforce but provide 
no real value in terms of ensuring the free flow of commerce. The 
imposition of numerous inconsistent local requirements will require 
transportation workers to file numerous applications, undergo numerous 
background checks and pay the fees associated with all of the perhaps 
dozens of identity cards workers would have to carry. We are also 
concerned about delays in the various systems that would possibly 
deprive workers of employment while they wait for their cards.
    Such a system clearly places an unreasonable burden on workers and 
on interstate and foreign commerce. We strongly believe there is an 
urgent need for Federal laws and regulations governing the TWIC to 
preempt any state or local requirements for such workers.
The TWIC Should Focus on Exposing Terrorism Security Risks
    In the MTSA of 2002, Congress mandated that those who could be a 
``terrorism security risk'' to the United Stated should be denied a 
security card. We agree with that standard and recognize that TSA has 
made some modifications to its original list of disqualifying crimes. 
We remain concerned that some of the broad descriptions of 
disqualifying offenses go beyond this standard. As this program is 
implemented over the next few months and years, we hope that TSA will 
indeed focus on preventing those that are genuine security risks from 
holding a TWIC and exercise appropriate discretion to not deny 
employment opportunities to those workers who may have simply made a 
mistake years ago.

Need for an Adequate ALJ Program
    We are pleased that Congress has established a requirement for a 
review process before an administrative law judge (ALJ) for individuals 
denied a TWIC. It is our understanding that the present intent is to 
use the ALJ's within the Coast Guard system. We recognize the merits of 
having Coast Guard ALJ's conduct the reviews, but we have concerns as 
to the adequacy of the number of ALJ's within the present Coast Guard 
system to handle the caseload that may be generated. If the Coast Guard 
is not able to process reviews in a timely manner it will have a 
substantial impact on the ability of workers who may have been wrongly 
denied a TWIC, to earn a living and support their families.
    Currently, the Coast Guard's ALJ system handles a caseload 
generated by approximately 200,000 credentialed mariners. It has been 
estimated that the initial surge into the TWIC program will cover 
approximately 850,000 workers. It is imperative that a sufficient 
number of ALJ's are in place to handle a vastly increased caseload.

Cost of the TWIC Program
    We continue to oppose the concept that workers must pay the costs 
for the TWIC program. The security threat assessments and the 
background checks mandated by the final rule are considered necessary 
to enhance the security of our Nation's ports and are part of the 
overall effort to fight terrorist elements.
    Security threats against ports and ships are actually aimed at 
governments and the public they represent, not the individual worker. 
Reducing security threats aimed at destabilizing our political and 
social institutions by terrorizing the public is primarily a role of 
the government. The general public is the principle beneficiary of 
maintaining a secure maritime transportation system and a secure global 
supply chain. Therefore, while we understand and appreciate the fact 
that some employers are paying these costs, the Federal Government 
should fund this program.

Privacy Concerns
    As transportation labor has consistently stated, maintaining the 
privacy and confidentiality of the information collected and generated 
by the TWIC process is crucial. Toward this end and at our request, 
Section 70105(e) of the MTSA of 2002 includes a specific mandate that 
``information obtained by the Attorney General or the Secretary under 
this section may not be made available to the public, including the 
individual's employer.'' We do appreciate TSA and the Coast Guard's 
stated intent to fully abide by these privacy protections, but 
continued vigilance will be needed to ensure that sensitive information 
collected in the field, especially at so-called mobile enrollment 
centers, is adequately protected.
    We also have concerns over discussions at the agency level toward 
allowing facilities to use the TWIC card for local applications. The 
idea is to store additional information beyond what is required by the 
MTSA of 2002. Such local applications might include employment records, 
training records, medical records, or other information of a sensitive 
nature and would defeat the national character of the system.
    As a matter of privacy protection we strongly believe that the 
information on the TWIC should be limited to only that necessary for 
the Federal Government to comply with the security functions specified 
in the MTSA of 2002.

Conclusion
    We thank you, again, Mr. Chairman for the opportunity to present 
our comments on the implementation of the Transportation Worker 
Identification Credential. We stand ready to work with you and your 
Committee and other concerned and affected parties to achieve a safer 
and more secure maritime transportation network.

    Senator Lautenberg. Thank you very much.
    And thank each of you for your excellent testimony. It 
helped focus in on the magnitude of this problem, and the 
consequences of what, if it is finally in place, what it might 
mean. So, it's important advice that you give us.
    Mr. Rodriguez, how many states are moving forward with 
their own security credentialing programs in the absence of a 
Federal system? Have states begun aggressively to try to 
establish these identity systems?
    Mr. Rodriguez. Mr. Chairman, I'm aware of only Florida. 
That's my own knowledge. I could try to find that information 
for you and provide it for the Committee at a later date.
    Senator Lautenberg. What do you think about the time frames 
discussed by the earlier, in the earlier panel for getting this 
program underway, any of you who feel that you have knowledge 
about that, please feel free to speak up, Mr. Rodriguez?
    Mr. Rodriguez. I feel that some of what Mr. Hawley's 
testimony touched on, the functionality of the card, the 
``Cadillac'' sort of features it has, is holding us back in 
terms of getting a good system that we can test in operation.
    What I mean by that is, we're talking about putting a lot 
of functionality into this card, and that's opening up the 
discussion to what we can put on the card? What sorts of 
information? Who gets to write to the card? That's slowing down 
the implementation. So, that's one of the reasons we would like 
to see the international standard adopted. It's a very simple 
standard, and once we get a program running, our recommendation 
is to build upon that, the capabilities that we need.
    Senator Lautenberg. Either one of you want to comment on 
your view of the timeframe that has been discussed to getting 
this program really underway?
    Ms. Himber. I--perhaps naively so, but am remaining 
cautiously optimistic--we do think that there is some momentum 
going, and we appreciate what the Secretary said about making 
sure we take the time now to make sure it works right, rather 
than rushing into it and dealing with problems later.
    The experience that we've had with the pilot program is 
that that is the wrong approach. So, we're hopeful that once 
they do get started it will--the timetable that they ultimately 
develop, they'll be able to maintain, because they've worked 
out problems in advance.
    Senator Lautenberg. So, your time frame is hopeful.
    OK, Mr. Pomaikai?
    Mr. Pomaikai. Thank you, good morning, Mr. Chairman, again.
    We have no problem with the time frame. The time frame is 
not a problem. What I fear is, the system will be inundated 
with a massive amount of people all at one time. If we roll the 
program out in certain areas like we are doing now, the Coast 
Guard has to deal with all of the merchant mariners going 
through their documents, going through background checks, 
probably drawing from the same database once the TWIC is 
implemented, they will again be swamped--and they'll have to 
deal with that problem.
    Our problem is to be able to get new hires on the vessel in 
a timely fashion. They have to provide for their families, they 
have to go to work. They do so after a process of application 
with our company, and the process of obtaining from an MMD from 
the Coast Guard, there's a section there--section four of the 
application of the MMD--that calls for a background check. That 
process alone is done after the application is turned in to the 
Coast Guard, sent to Washington, reviewed by the Department of 
Homeland Security and the FBI. It comes back, allowing the 
mariner to, again, come to the Coast Guard REC and receive his 
MMD.
    Now, the mariners go through an extensive process for that, 
and that is done on their own.
    But, after all that he has done, he will have to go through 
the TWIC application process, not to mention----
    Senator Lautenberg. Well, I think it's fair to say that the 
complications are not yet fully dealt with, and frankly, maybe 
not even thought about. So, this process has to protect to 
the--whatever extent possible, the people around the country 
the harbor supports from attack that could take lives, and 
really disturb the economies. On the other hand, we do have to 
get to work, we have hundreds of thousands, and the number, as 
you heard, varied between 750,000 and 1.5 million--it's a 
pretty good spread. But people that we have to work with, and a 
lot of these people are really itinerant in their work 
routines. People come in for a day or two or whatever as 
ordinary labor. But, we have to continue to pursue it.
    The thing that I object to is the ``pie in the sky'' kind 
of deadline, or timeline that's expected. As I see it, based on 
the experience we've had so far, it's totally unrealistic. So, 
and we don't want it to be competing with other security 
measures that are, that have to be taken.
    Ms. Himber, how many transportation workers do you think 
will require TWIC cards at the Delaware River ports?
    Ms. Himber. I'm sorry to say, Senator, that I don't know 
that anybody has a really good feel for what that number is. 
We've talked about, you know, 75,000 direct jobs. That's just 
in the local region, it doesn't count truck drivers who come in 
from other regions that are not maritime areas, that might need 
to get their TWICs in our region. So, I don't know that anybody 
has the answer to that.
    Senator Lautenberg. What's the expected beginning roll-out? 
When do they expect to be issuing cards?
    Ms. Himber. I have heard the same thing that we talked 
about earlier in the Port of Wilmington which will be first, 
it's at least May, and perhaps later.
    Senator Lautenberg. The complications are clear. We--thank 
you.
    Senator Carper?
    Senator Carper. Thanks, Mr. Chairman.
    I just want to say to Ms. Himber, Beth Osborne, remember, 
my staff who helps on these issues, is very complimentary of 
the work that you have done and expressed great pleasure in 
that, the relationship, and the way you approach your 
responsibilities.
    Ms. Himber. Thank you.
    Senator Carper. You're the Vice President of the Maritime 
Exchange, is that correct?
    Ms. Himber. That's correct.
    Senator Carper. Who is the President?
    Ms. Himber. Dennis Rochford.
    Senator Carper. It must be a terrible burden to have to 
carry him on your back. How long have you worked there?
    Ms. Himber. It'll be 19 years this year.
    Senator Carper. Probably seems a lot longer, I'm sure.
    Ms. Himber. I was 12 when I started.
    [Laughter.]
    Senator Carper. Small world, Delaware. Dennis and his 
family, we go to the same church together, so give him our 
best.
    Ms. Himber. I will.
    Senator Carper. I want to follow up, first of all, if I 
could with you, let me just say, Mr. Pomaikai and Mr. 
Rodriguez, Commander Rodriguez--I'm an old Navy guy, too. My 
favorite rank was Commander. I loved being Commander Carper, I 
hope you get to be one, too.
    Mr. Rodriguez. I hope I get to be one soon.
    Senator Carper. You're close, how many years have you put 
in?
    Mr. Rodriguez. I've got 8 good in now, sir.
    Senator Carper. That's good. I take our Boy Scout Troop--my 
sons are Boy Scouts--we go to different service academies, and 
Senator Lautenberg, Senator DeMint and I get to nominate young 
men and women to go to these service academies, and we went to 
your academy last year. Had quite a good time.
    What is your first name?
    Mr. Rodriguez. Michael.
    Senator Carper. I remember seeing scratched on one of the 
walls somewhere, and I think it was a girl's dorm, ``For a good 
time, look up Michael Rodriguez.''
    [Laughter.]
    Senator Carper. I was wondering about that, so----
    Mr. Rodriguez. I can tell you, Senator, there are a couple 
of loose boards at the far end of the football field that say, 
``The Rodriguez Exit.''
    [Laughter.]
    Mr. Rodriguez. I don't think that's on the tour, though.
    Senator Carper. All right.
    Ms. Himber, I think you were talking about the rule, you 
said the rule is silent on casual labor, do you remember?
    Ms. Himber. That's correct.
    Senator Carper. Talk about that a little bit more for us, 
if you will, because there's a lot of casual labor at these 
ports.
    Ms. Himber. The ports are completely reliant on casual 
labor, and particularly during, what we call, busy seasons, in 
the Delaware River, as you mentioned earlier, Chilean fruit 
season. You need additional, you need additional men to work 
the ships to handle the increased cargo flows that come in at 
certain times of the year.
    You might have, in a season, at just one facility, 75 to 
100 potential, what we call, casual workers, people who may 
come one day to work on a port, but you may never see them 
again. And that's throughout the maritime industry, not just in 
the Delaware River.
    Senator Carper. What do we do about those folks?
    Ms. Himber. That's a big question that nobody, I don't 
think, has gotten the answer to that.
    Senator Carper. Well, maybe I should ask, what should we 
do?
    Ms. Himber. Well, there are some options that are under 
consideration. The regulation, and the draft Coast Guard 
guidance documents allow that these people could be escorted. 
So, that any TWIC holder--perhaps another longshoreman, could 
escort one, to possibly ten, depending on the final decision, 
non-TWIC holders at any given time. We don't think that's 
practical, because the person who holds the TWIC, it's going to 
be difficult enough for him to do his own job while watching 
other people.
    Other suggestions have included the idea of, perhaps, 
allowing for some sort of temporary credential that the port 
could issue, very similar to what ports are doing today with 
issuing a visitor's pass. How we could implement a program like 
that and still be in compliance with the legislation, we'd have 
to work through that, but that's an idea that we think would be 
worth looking into.
    Senator Carper. Thank you.
    Mr. Rodriguez, two questions of you, if I could. I think 
you expressed some concerns about workers having to bear the 
cost of the issuance of cards, I think we're heard numbers as 
high as $150, or somewhere in that range. Do you think it's 
appropriate for workers to pay some portion of the cost of the 
issuance of these cards?
    Mr. Rodriguez. Well, from our standpoint, Senator, no. This 
is a function of government to provide this, and we believe 
that the Department should fund the program.
    As Ms. Himber pointed out earlier, there are some workers, 
for whom, $137 is a day's pay. That's quite a bit of money.
    Senator Carper. Last question for you, if I could, Mr. 
Rodriguez. I think you mentioned how important it was that 
there is going to be an adjudication, there's going to be an 
appeals process. Folks are going to be denied a card, and they 
want to appeal, because of, maybe, a criminal record or some 
other issue. And you mentioned it was important that we have an 
adequate number of--what was it; administrative law judges? Is 
that what we're talking about?
    Mr. Rodriguez. Yes, Senator.
    Senator Carper. Talk about that just a little bit.
    Mr. Rodriguez. If a person is denied a TWIC because of the 
agency's action, then they have redress with the administrative 
law judge program. Our understanding right now is that the 
Coast Guard has seven openings for ALJs and there are only five 
slots filled. So, as this program begins to ramp up, and we 
start to look at the numbers, I heard 1.5 million today, I've 
been in discussions that say 2 million. So, there are another 
500,000 on the table, possibly.
    Senator Carper. How many administrative law judges would 
there be to handle all of those?
    Mr. Rodriguez. My understanding at this time is there are 
five.
    Senator Carper. And, capacity for adding two more?
    Mr. Rodriguez. I believe there are those billets. Somebody 
else might be able to answer that.
    Senator Carper. Those are going to be very busy people.
    Mr. Rodriguez. They would be very busy people, sir.
    Senator Carper. Thanks very much.
    Senator Lautenberg. Senator DeMint, welcome.

                 STATEMENT OF HON. JIM DeMINT, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator DeMint. Thank you, Senator Lautenberg, and I thank 
everyone on the panel. We are embarking on a very difficult 
task, and I appreciate you adding your advice today.
    We've heard many considerations and I'm sure there are many 
more we haven't talked about. Certainly we have to consider the 
workers and fairness to workers as we move forward with these 
TWIC cards. A lot of technical considerations, cost 
considerations, timing--a lot of things that you've brought up 
create huge challenges.
    I just want to remind everyone, in addition to myself, that 
the whole purpose of all of this is security. That, as we look 
at our vulnerabilities as a Nation, we see our ports as one of 
those points of where we're most vulnerable. Where there's an 
opportunity when we look at weapons of mass destruction, of 
possibly moving through one of our ports, endangering millions 
of American lives, and all of this, in all of its complexity 
and difficult aspects comes back that we're trying to address a 
very real and new threat to our country. So, security is the 
purpose, and we've got to overcome these other problems.
    I'd like to just address a question to Mr. Rodriguez, and 
again, I appreciate your testimony. As you know, no matter how 
much we spend, no matter how much technology we have at the 
port, such as the scanning devices and sensing devices, no 
matter how many people we have, all it's going to take is one 
or two dock workers cooperating with terrorists, to circumvent 
the whole process. And, in order for a weapon to be smuggled 
into this country, a few people looking the other way can make 
that happen.
    So, the people in our ports are terribly important. And 
that's what this TWIC card is all about; that we can do, at 
least a reasonable level of screening to know that we've done 
everything we can to keep a criminal element from working in 
our ports.
    Because, we don't have to have someone who has committed a 
terrorist act before. Someone who has demonstrated his 
susceptibility to criminal activity could think that he's 
helping some pals smuggle in some drugs, when, in fact, it 
could be a weapon, a dirty bomb or something of that nature.
    So, we've got a serious problem, the TWIC card is designed 
to try to screen out those people who might be susceptible to a 
criminal element. And my question is this, in the written 
testimony that you've provided, you've expressed concern about 
the broad descriptions of disqualifying offenses that you think 
go beyond the standard. What we've done in this requirement 
that excludes folks who've committed serious crimes, is adopt, 
pretty much, what we have at our airports at this point. What 
is in the language here now, in the regulation is very much 
like a bill that we've passed in the Senate, it did not survive 
conference. You say that we've got too broad a description. In 
fact, there is nothing broad about it. We have very specific 
listings of crimes that we think reach the threshold of 
criminal activity that we need to avoid in our ports, and I 
would just ask you if you could give me some of these 
disqualifying offenses that are listed, specifically in the 
regulation, that you think go beyond a reasonable standard.
    Mr. Rodriguez. Senator, one off the top of my head are 
crimes of dishonesty. I think that's quite vague, that's in the 
regulation.
    Senator DeMint. I don't believe that's in the regulation, 
is that in the regulation?
    Oh, fraud, you're talking about----
    Mr. Rodriguez. Fraud.
    Senator DeMint. OK.
    Mr. Rodriguez. Fraud.
    Senator DeMint. Yes, sir.
    Mr. Rodriguez. The crime of robbery, we believe that in the 
MTSA the standard is the risk of terrorism, it might be 
arguable whether or not that really pre-disposes someone to be 
a risk for terror.
    Senator DeMint. I don't see that in the language, I don't 
know if you're using different words or not.
    Mr. Rodriguez. Well, then I need to address that.
    Senator DeMint. Oh, OK. I'm not trying to quibble. Again, 
these are very specific, as I look at the language of espionage 
and sedition, and crimes involving explosive devices and 
murder, and we have not picked small offenses, youthful 
indiscretions here in this language. We have tried to include 
things that indicate a serious bent towards criminal activity, 
and certainly I would be interested in any specific changes 
that you have, and if we've got something such as misdemeanors 
in things that are listed, it's a change from what I've seen. 
Everything is specific in the language.
    What I would just request from you, perhaps, is if you 
could send specific changes that you would like, back to the 
Committee, language that you think should be omitted and 
changed.
    Mr. Rodriguez. Senator, I'll be happy to do that. But I 
would like to make the point that we do feel that we have a 
starting point there, in the regulation. And that's where these 
disqualifying offenses belong.
    Some of the testimony today, some of the reports we've been 
hearing are that we have this huge number of people that we 
don't really have a handle on yet. We want the flexibility in 
the hands of the TSA to make those changes. I'll certainly be 
happy to provide some language for you.
    Senator DeMint. Well, that would be helpful. Again, the 
point is not to punish workers who need a second chance, but 
our top security areas may not be the place to give some 
workers a second chance if they've demonstrated a 
susceptibility to criminal activity.
    Because, as I've said before, if someone has been involved 
with drug smuggling, that is still a problem in our ports. If 
they think they're helping to smuggle drugs, but they're 
actually not smuggling drugs at all, we just need to look at 
that. And I think this is something that is apparently being 
contested, and we need to make sure that this is not something 
where we create an opening.
    Again, all we have to do is make a few mistakes, and we've 
basically undermined everything we're working for. But thank 
you. Thank you, Mr. Chairman.
    Senator Lautenberg. And I thank the witnesses for your 
statements. I found it particularly valuable. And, with that, 
this Committee hearing is adjourned.
    [Whereupon, at 11:34 a.m., the hearing was adjourned.]

                            A P P E N D I X

              Prepared Statement of Ken Wells, President, 
                  Offshore Marine Service Association

    The Offshore Marine Service Association (OMSA) thanks the Senate 
Commerce Committee for holding this hearing on the Transportation 
Worker Identification Credential (TWIC) program. We appreciate having 
the opportunity to submit the following testimony for the record.
    OMSA is the national association representing the owners and 
operators of U.S.-flag vessels that support the offshore oil and gas 
industry. OMSA's members take their role in maintaining America's 
maritime security very seriously. They believe that the U.S.-flag 
vessel, owned by Americans and manned by Americans, is the heart of our 
domestic maritime security. It has often been repeated that the Coast 
Guard has designated the American mariner as its eyes and ears on the 
water. It created the Waterways Watch program to encourage those 
mariners to report suspicious activity. Efforts by the U.S. Government 
to encourage and facilitate the use of U.S.-flag vessels in U.S. waters 
make us all safer and more secure.
    Conversely, actions that make it more difficult for U.S. flag 
vessels to operate or discourage U.S. citizens from becoming mariners 
have the effect of making us less secure. There is a growing fear in 
the maritime community that the TWIC program as it is emerging may 
disrupt vessel operations and become an obstacle to putting American 
citizens to work. If that were to happen, we would find that our 
security has been harmed, not enhanced.
    The OMSA membership have a number of specific concerns about the 
TWIC program, but at this point, a primary concern for the maritime 
sector and for the Congress should be the lack of definition for the 
program even as it moves to implementation. The Final Rule on TWIC was 
published at the end of January after a short comment period and an 
inadequate opportunity for public hearings. In the less than 3 months 
since the rule was issued, it has required:

  <bullet> Four published corrections;

  <bullet> Three published addendum/clarifications;

  <bullet> One additional rulemaking on card costs;

  <bullet> One rulemaking on technical standards for touchless readers, 
        a concept that was never included in the original Proposed 
        Rule; and

  <bullet> One draft Navigation and Vessel Inspection Circular (NVIC) 
        on key elements of the implementation which should have been 
        addressed through a formal rulemaking process, but were not.

    There is still no public timetable for rolling out the program in 
the different ports and Coast Guard Sectors. Now the implementation 
appears to have been delayed by up to 6 months, but anxious mariners 
are still being told that they will need a TWIC card by September of 
2008. A key component, the testing of TWIC readers, is still in its 
infancy and the substantial debate over those readers has yet to be 
held. All of this undercuts the integrity of the TWIC program and 
increases the skepticism of the maritime industry.
    Looking at specific issues, a discussion of the impact of TWIC must 
begin with the recognition that the American mariners who crew U.S. 
flag vessels already undergo some of the most thorough background 
checks of any transportation workers in the world. This means that, 
with or without TWIC, U.S. seaman have already been checked out and 
approved by the U.S. Government to a standard that is at or above the 
level that TWIC will require. Ideally, the Department of Homeland 
Security should have been in a position to develop a program that built 
on what was already a successful process. Instead, the TWIC program and 
the mariner credentialing process were developed on two distinct 
tracks. While the Coast Guard is attempting to make those two processes 
operate concurrently, there is no avoiding the fact that they will 
require mariners to go through two separate processes, pay two fees and 
undergo two background checks.
    It is important to note that any efficiencies in the background 
check process will have to wait for the development of a new Coast 
Guard Merchant Mariner Credential (MMC). There is no timetable for that 
MMC and, until it is released, mariners will still have to travel to a 
TWIC implementation center and undergo a background check for a TWIC 
card and then travel to a Coast Guard Regional Examination Center and 
undergo a subsequent background check for a Merchant Mariner Document 
(MMD).
    The SAFE Port Act requires that the TWIC and Coast Guard mariner 
credentialing be conducted concurrently. As the processes of the TSA 
and Coast Guard are currently envisioned, this requirement of the law 
cannot be accomplished. This is because the agencies consider issuance 
of the TWIC to be a prerequisite for issuance of a Coast Guard 
credential.
    If delays in implementation of the TWIC program continue, it may be 
worth revisiting whether the Merchant Mariner Document, with its 
rigorous background check, should be accepted as meeting the 
requirements of TWIC until that program has proven its effectiveness. 
This could be accomplished by simply exempting credentialed mariners 
from the requirement to obtain a TWIC for a period of time with the 
understanding that the Coast Guard will continue to do the background 
checks. Mariners could then be folded into the TWIC process once the 
large numbers of other maritime transportation workers have been 
processed and the Coast Guard MMC is in place.
    Much has been said about the need for temporary work authority, a 
simple and expedient way to put mariners to work while their TWIC is 
being processed. The process that was made a part of the Final Rule 
does not meet the spirit or letter of the SAFE Port Act and is far too 
cumbersome and difficult to administer to meet the intent of Congress. 
The rule promulgated by the TSA addresses the requirement for temporary 
work authority by requiring companies to complete onerous paperwork if 
they want to grant employees unescorted access to MTSA regulated 
vessels or facilities. New hires after passing an initial security 
screen by TSA, and after companies complete the administrative 
requirements may then be granted ``unescorted'' access so long as they 
are ``accompanied.'' The Rule does not adequately define either 
``unescorted'' or ``accompanied'' in such a way as to give companies 
any confidence that their use of newly hired workers will be 
acceptable.
    Other groups have suggested much simpler but effective approaches 
and we support those suggestions. However, we point out one nuance that 
should not be missed. Many mariners who would fall under this temporary 
worker concept will also need a Coast Guard credential. So far, the 
Coast Guard has been unwilling to also allow for temporary mariner 
credentials to go along with the temporary TWIC authorization. Mariners 
will need both and they will need the process to be simple and 
expedient. Unfortunately, any process that is not simple will result in 
more cost for the maritime industry and more hands-on activity by 
government agencies.
    On a related note, a law change may be necessary to allow for the 
waiver for TWIC requirements in the event of a national emergency, such 
as a hurricane. Our industry's mariners experienced this problem 
firsthand with the loss of the Coast Guard's Regional Examination 
Center in New Orleans as the result of Hurricane Katrina. The Coast 
Guard has asked Congress to grant it the authority to waive license and 
credential expiration dates in these sorts of emergencies. It may also 
be necessary to waive TWIC expiration dates. Again, because the 
decision was made to require mariners to meet both requirements, any 
effort to mitigate the problems caused by a disruption of the 
government service will require that both TWIC and merchant mariner 
credentials be extended.
    There are real concerns over the processing of TWIC applications. 
More information is needed on how the Transportation Security Agency 
intends to meet the staffing levels to expedite processing, especially 
as the estimated numbers of Americans required to obtain a TWIC card 
continues to grow. Clearly, many transportation workers will sail 
through the TWIC process without problems and will hopefully receive 
their TWIC card within the time-frames that TSA has estimated. Just as 
clearly, some potential workers will be permanently rejected based on 
the disqualifying offenses in the law. However, there will also be a 
third group that will fall somewhere in the middle. These individuals 
may have their initial application rejected because of errors or 
because they committed an offense that requires a judgment call by 
someone in government.
    Focusing for a moment on individuals who may be rejected by 
mistake, we can only look at the TSA No-Fly List to see the problems 
that this could create. Much attention has been focused on individuals, 
including small children, Coast Guard officials and even U.S. Senators 
who have found themselves on the No-Fly List. Several years after the 
No-Fly List was created, TSA is still wrestling with how to best remove 
people who should not be on the list. TSA has been silent on how it 
will ensure that maritime transportation workers will not be rejected 
in error or because they have the misfortune of sharing a common name.
    Turning to workers who have committed an offense that requires some 
interpretation, the list of crimes that are not permanently 
disqualifying crimes is extremely vague. The primary example may be 
that of ``dishonesty, fraud or misrepresentation.'' If a transportation 
worker was once convicted of using a false ID to purchase alcohol or 
for purchasing alcohol for a minor, those are regrettable offenses, but 
they do not make that individual a terrorism suspect.
    As an example of this, Operation Drydock was the Coast Guard's 
comprehensive effort to ensure that mariners did not receive false 
documents. The exhaustive research into mariner credentials exposed 
several hundred instances in which mariners were not truthful on their 
applications. However, these were correctly judged to be efforts by 
those mariners to avoid admitting to a minor offense in their past. 
Action was only taken against a small handful of mariners who were 
judged to be truly fraudulent or potential security risks. The lesson 
was plain, there are and will be cases of dishonesty that should not be 
disqualifying events. Those workers should be allowed to obtain a TWIC, 
but it will take some form of human assessment to clear them. TSA 
should say how it will ensure that those applications are reviewed 
quickly and effectively.
    Unfortunately, the TWIC appeal and/or waiver process could delay 
approval for these transportation workers for months. The procedures 
seem to be clearly designed to allow for denial due to a failure of the 
applicant to comply with the rules or time frames. There are no 
requirements for timely review or response by the TSA, or applicant 
review of detrimental information that is deemed ``secret'' by the 
government. At Congress' insistence, the rule allows for an appeal to 
an Administrative Law Judge, but given the limits on the ALJ resources, 
this will be a long process and may only be a ``court of last appeals'' 
for the most dedicated workers. It is likely that most entry level 
workers will have given up and gotten another job long before they have 
exhausted the appeals process.
    Throughout the development of the TWIC card process, there have 
been numerous examples of the agencies ignoring well established vessel 
operations and imposing an unworkable approach. For instance, where the 
industry raised concerns over lost TWIC cards keeping mariners from 
going to work, the Final Rule says that a worker who loses a card will 
have 7 days in which to work while the replacement card is being 
processed. This ignores the fact that much of the maritime sector works 
a 28 day shift, making it impossible to apply for a replacement card 
and then go to work on the vessel.
    The biggest unresolved aspect of TWIC involves the reader machines. 
The MTSA legislation that called for the creation of the TWIC program 
does not require the use of reader systems. The Final Rule makes it 
clear that the agency does not believe it needs Congressional approval 
to impose reader systems. The Department of Homeland Security has yet 
to make the case for how readers on vessels will enhance security, 
especially in a cost effective way.
    In fact, the debate over readers has not yet happened. However, the 
planning for readers is moving ahead in advance of the debate and, we 
believe, in advance of the intent of Congress. The National Maritime 
Security Advisory Committee (NMSAC) assigned by TSA to develop a 
touchless biometric standard for readers cautioned TSA in its final 
report that prior to implementing any reader requirements that the 
public debate on the technology should be conducted. To emphasize this 
failing, a minority report was submitted to TSA signed jointly by 
industry groups and organized labor stating in part that ``. . . TSA 
and Coast Guard should use the expertise of the various vessel 
operating communities to determine whether or not any use of TWIC 
readers is justified on any vessels.''
    The SAFE Port Act required that TSA perform a test of reader 
technology at facilities and on vessels and report back to Congress in 
6 month increments until the pilot program is concluded. TSA has 
reported that it intends to use port security grants to fund the tests. 
This presents a number of practical problems. First, the port security 
grants are not generally open to vessel operators. Second, the agency 
has not made a concerted effort to engage vessel operators in these 
grants. Finally, by wedding the reader tests to the grant process, TSA 
has created a number of obstacles for vessel operators, such as:

  <bullet> The reader machines do not yet exist, meaning that the 
        vessel operator would have to find a manufacturer and oversee 
        their construction.

  <bullet> Lacking existing machines, it is difficult to determine how 
        much money the grant applicant should request.

  <bullet> There may be liability questions that cannot be anticipated 
        but could emerge for a vessel operating company that becomes 
        the grant applicant.

  <bullet> There have been no common testing criteria, accepted 
        procedures or control mechanism established.

    The schedules for the testing and the schedule for the final rule 
are also in conflict. The Congressional timetable requires that the 
report of the tests be completed within 20 months, but TSA has said 
publicly that it plans to issue a final rule on readers in January of 
2009 and that they will issue the reader rules independent of the 
study. Under these timetables, the users will be asked to comment and 
the agency will make a decision on a technology that it has not had a 
chance to adequately test and evaluate. Clearly this does not fit 
anyone's definition of sound public policy, especially for a testing 
program that has already been identified by the GAO as being 
problematic.
    In discussing maritime operations we must stress that safety is the 
primary goal, trumping even security. Lives lost at sea by unsafe 
operations must be avoided. Requirements must be judged by whether they 
harm safety before they are blindly accepted in the name of security. 
Unfortunately, there has been little or no consideration of what the 
reader proposal might do to safety. For example, the NMSAC report on 
card readers indicates that they will be wired so that the ``electrical 
signal from the panel used to command the door's electromechanical 
locking mechanism.'' Vessels do not have any such capability and years 
of experience have shown the danger of locking public access doors on 
vessels. It is the sort of fundamental acceptance of vessel safety that 
has been missing from the TWIC development.
    OMSA's members operate vessels that have relatively small crews who 
have been specifically assigned by a company to serve on a specific 
vessel. Requiring one or, according to the proposed rule on TWIC, 
several readers on the vessel does not enhance security, but does 
dramatically drive up the cost of the program. Congress assigned the 
Commandant the authority to waive the requirement for smaller vessels 
based on crew size. OMSA's members believe this authority should be 
used in such a way as to exclude offshore vessels from the reader 
requirement.
    Finally, one of TSA's implementation plans will significantly 
increase the cost of the program and has not received the attention it 
deserves. At a recent meeting of the National Maritime Security 
Advisory Committee, TSA officials indicated that they were finalizing 
the new standard for touchless reader systems and, when that standard 
was finalized, it would be necessary for every TWIC holder to return to 
a TWIC processing center to have his or her card reprogrammed. This 
unanticipated requirement will cost the offshore sector several million 
dollars alone in lost time and travel costs.
    In conclusion, the maritime industry has a number of concerns about 
the TWIC program. The specific concerns need to be addressed, but there 
is a larger scale concern that the program is still ill-defined and 
does not have the support of the industry that will be most affected by 
it.
    Thank you for allowing the maritime industry to submit testimony on 
this issue. We would be happy to respond to any follow-up questions the 
Committee may have.
                                 ______
                                 
         Prepared Statement of the Passenger Vessel Association

    The Passenger Vessel Association (PVA)--the national trade 
association of U.S.-flagged passenger vessels of all types--appreciates 
this opportunity to submit testimony on the Transportation Worker 
Identification Credential (TWIC).
    Our primary message is: TWIC will affect hundreds of employers and 
thousands of employees who are not engaged in international ocean cargo 
shipping. Therefore, the TWIC system must take into account the 
different circumstances of this segment of the maritime industry.
    PVA understands and supports rational security measures. Many of 
its members' vessels operate in compliance with an approved security 
plan, as required by the Maritime Transportation Security Act. PVA has 
developed a Coast Guard-approved Alternative Security Program, as 
allowed by the MTSA rule. Yet, this implementation has been very 
expensive for our companies. Some have hired a Company Security 
Officer, a new position for them, to assist in the completion of risk-
based threat assessments, identify vulnerabilities, and establish 
procedures to control access to the restricted areas of their vessels. 
PVA members have undertaken extensive training, drills, and audits. All 
of this work has costs associated with it. Still to come are the costs 
of TWICs, vessel-tracking Automatic Identification Systems (AIS), and 
perhaps TWIC readers.
    Our members believe that a small company does not need an 
electronic TWIC card or a TWIC reader to know that employees Sam and 
Karly or Bill are who they say they are when they show up to work each 
day. They are the same Sam and Karly and Bill that the small company 
interviewed, hired and trained. They believe that there are other 
methods that can be used to verify the status of identification that 
present little or no cost to the small employer.
    Congress intended TWIC to focus on large ships that operate at 
commercial port facilities where the flow of cargo depends on numerous 
non-vessel, non-facility employees going in and out of the port. PVA 
does not believe that a small passenger operation such as operated by 
many of its members was ever envisioned by Congress to be included in 
the security concerns of America's ports.
Our Members Need To Put Individuals To Work Promptly
    In our segment of the maritime industry, the ability to hire 
employees and have them go to work quickly is absolutely essential. 
Seasonal operators make up a large portion of our membership. Such an 
operator may hire seasonal workers for up to 80 percent of the staff, 
including deckhands, wait staff, and bartenders. The pool of potential 
employees includes students, teachers, and retirees. Clearly, these 
employees are not ``professional'' mariners. It is not uncommon for 
there to be 100 percent turnover of seasonal employees from 1 year to 
the next. These people may be hired only days before they begin work on 
the passenger vessel.
    Our members compete aggressively with many other businesses for 
good seasonal employees. Our competitors for employees are hotels, 
marinas and restaurants, not subject to the TWIC requirement. Most of 
our seasonal employees are college or high school students who need a 
job when school ends to make the money they need for the next school 
year. This generally means they are available to the employer for 
approximately 90-100 days. They cannot apply for this summer employment 
and then wait 30 days for an ID card. They cannot even wait 2 weeks.
    It is essential for the law and TWIC rule to recognize the ``facts 
of life'' regarding employees on domestic passenger vessels. The rule 
needs to accommodate the need to hire these folks quickly.
    PVA acknowledges and appreciates the provision in the SAFE Port Act 
(section 104(c) of Public Law 109-347) mandating that the final rule 
allow employers to put newly-hired workers on the job pending the 
processing and issuance of a TWIC. That provision states: ``The 
regulations shall include a background check process to enable newly 
hired workers to begin working unless the Secretary makes an initial 
determination that the worker poses a security risk. Such a process 
shall include a check against the consolidated and integrated terrorist 
watch list maintained by the Federal Government.'' The final rule 
attempts to comply by purporting to allow employers to put new hires to 
work with ``accompanied'' access to secure areas for up to 30 days once 
new hires have applied for their TWIC and an initial name-based check 
is completed. PVA remains concerned, however, as to how this provision 
will work in real life.

Reduce The Direct And Indirect Costs Of The TWIC
    Most seasonal or temporary workers on domestic passenger vessel 
cannot afford or will not pay $137 for a TWIC, particularly when they 
have other job options that do not entail such a requirement. Congress 
must realize that domestic passenger vessel operators will be forced to 
pay the application fee for these potential employees, as they now pay 
for their pre-employment drug test, first-aid training, and security 
training, all currently required for their employees, but not required 
of the waterfront restaurant or the marina up the street.
    There are other unaccounted-for costs of this rulemaking. One cost 
is the transportation costs for the employee to travel to the 
enrollment center. In fact, the employee must travel twice to the 
enrollment center, first to apply, then to pick up the TWIC. That means 
two round trips, costing gas, parking, and time away from the job. Not 
once, but twice! For many employees, the passenger vessel operator will 
have to provide this transportation when employees either don't drive 
or don't have transportation. Many would have to have Mom or Dad drive 
them. This is a roadblock to hiring good seasonal employees. If asked 
to make this trip, no matter who pays for it, most will simply chose to 
work elsewhere. It's just too much trouble for a summer job.
    How many TWIC cards will be requested by applicants who change 
their mind and go to work at the restaurant down the street when they 
find out that the restaurant will put them to work right away? How many 
TWIC cards will be issued, and the applicant never picks up the card, 
because Mom decided the family was going on vacation instead? How many 
new hires will quit after the first day? These are the unintended costs 
for the small employer that we are concerned about.

WIC Enrollment Centers Must Be Located In Places That Are Not 
        Traditional Ports
    Also, PVA fears that the contractor will be inclined to locate TWIC 
enrollment centers only in large port cities. This will be where the 
contractor can achieve economies of scale to make a profit on the 
contract. However, in real life, many PVA operators are located in 
remote locations that are not considered to be major maritime centers--
places like the islands of Kauai and Maui, Ketchikan and Kodiak in 
Alaska, Down East locations in Maine, Lake Tahoe and Lake Powell, and 
inland towns such as Omaha, Pierre, and La Crosse, Wisconsin. PVA has 
provided the Coast Guard and the contractor with a list of suggested 
places for enrollment centers that are not traditional maritime centers 
but that are necessary to accommodate our segment of the U.S.-flag 
industry. PVA urges the Senate to instruct the contractor and the Coast 
Guard that contractor profit can not be the only or even the 
controlling factor in the placement of TWIC enrollment centers.

No Burdensome Recordkeeping On The Employer
    PVA also objected to the provision in the proposed rule to require 
each employer to keep detailed records for 2 years, showing every 
occasion on which an employee enters a secure area. This would do 
nothing to prevent security incidents, but would impose a huge 
paperwork burden on a small business. Why add a new redundant 
recordkeeping requirement, on top of the payroll records and vessel log 
books that our members already maintain? Fortunately, the Federal 
agencies deferred action on this proposal for now, but PVA urges the 
Senate to ensure that this bad idea is not resurrected.
    Thank you for your interest in the special needs of the U.S.-
flagged passenger vessel industry, particularly the hundreds of small 
employers in this segment who fall within the purview of the TWIC 
requirement. Congress, the Transportation Security Administration, and 
the Coast Guard must keep in mind that an appropriate level of maritime 
security can be achieved without unnecessarily harming American small 
businesses.
                                 ______
                                 
     Prepared Statement of the Maritime Trades Department, AFL-CIO

    The Maritime Trades Department, AFL-CIO, consists of 24 
international unions and 19 port maritime councils in the United States 
and Canada representing approximately 5.5 million working men and 
women. The vast majority of those workers live and work in the United 
States. Virtually all of them stand to be affected by the 
Transportation Worker Identification Credential (TWIC) program, whether 
they work aboard vessels or in shipyards or elsewhere in the marine 
transportation sector.
    The MTD thanks the Committee for this chance to convey our views on 
the implementation of the TWIC program in the maritime sector. The 
program is enormously relevant to our affiliated unions and their 
members. The MTD submits these comments on their behalf, with 
particular emphasis on the U.S. Merchant Marine:

        Affiliates: Bakery, Confectionery, Tobacco Workers and Grain 
        Millers International Union

        International Brotherhood of Boilermakers, Iron Ship Builders, 
        Blacksmiths, Forgers and Helpers

        Communications Workers of America

        International Brotherhood of Electrical Workers

        International Union of Elevator Constructors

        International Union of Operating Engineers

        International Association of Fire Fighters

        Glass, Molders, Pottery, Plastics and Allied Workers 
        International Union

        International Association of Bridge, Structural, Ornamental and 
        Reinforcing Iron Workers

        International Longshoremen's Association, AFL-CIO

        International Association of Machinists and Aerospace Workers

        Marine Engineers' Beneficial Association

        United Mine Workers of America

        International Union of Allied, Novelty and Production Workers, 
        AFL-CIO

        Office and Professional Employees International Union

        International Union of Painters and Allied Trades of the United 
        States and Canada

        Operative Plasterers' and Cement Masons' International 
        Association of the United States and Canada

        United Association of Journeymen and Apprentices of the 
        Plumbing and Pipe Fitting Industry of the United States and 
        Canada

        Seafarers International Union of North America

        Sheet Metal Workers' International Association

        American Federation of State, County and Municipal Employees

        United Steel, Paper & Forestry, Rubber, Manufacturing, Energy, 
        Allied Industrial & Service Workers International Union

        Transportation <bullet> Communications International Union/IAM

    The MTD acknowledges the scope, complexity, and challenge of 
protecting our Nation and our maritime transportation network from 
terrorists. We believe that a safe, secure and reliable maritime 
transportation system is vital to this Nation's economic, defense and 
national security. To that end, MTD affiliates have implemented many 
educational and training programs responding to the mandates of the 
Maritime Transportation Security Act of 2002 (MTSA) and the 
International Ship and Port Facility Security (ISPS) Code and, further, 
have offered their assistance and views to the government in its 
efforts to devise and implement appropriate measures to protect this 
Nation and our transportation sector from terrorism.
    The MTD generally endorses the concept contained in the statute for 
a biometric transportation security card. However, there are certain 
items within the implementation of the statute by the Transportation 
Security Administration that warrant our concern and comment. The MTD 
will focus its comments on those issues, as follows.

Merchant Mariner Document (MMD)
    The MTD endorses the idea of a biometric transportation security 
card, as mandated by the Maritime Transportation Security Act of 2002. 
The MTD appreciates the efforts and time expended by the Transportation 
Security Administration in attempting to implement this requirement. 
However, we believe that the complicated and burdensome process 
finalized by the agency is both unnecessary for merchant mariners and 
may prove severely disruptive to maritime commerce.
    As both the MTD and our affiliated unions have repeatedly 
advocated, the current Merchant Mariner Document could and should be 
modified to include an encoded biometric, to be used as a biometric 
transportation security card in lieu of the TWIC, especially since the 
Coast Guard recognizes the MMD as an identity document. We question the 
need for yet another document that the merchant mariner must obtain and 
carry when the current and time-tested Merchant Mariner Document may be 
adapted to encapsulate an encoded biometric. The MTD believes that with 
a security vetting process (threat assessment), preferably initiated by 
the Coast Guard, the biometric MMD would adequately respond to the 
mandate of the MTSA for a biometric transportation security card, given 
the fact that the Coast Guard advises that a security assessment is not 
required for the mariner population who have an MMD issued after 
February 3, 2003, implying that those mariners have undergone a full 
security vetting by the Coast Guard and therefore need not undergo a 
TWIC security assessment. The MTD urges the Committee to consider this 
simplified approach for merchant mariners who are required to hold 
Merchant Mariner Documents instead of agreeing to the TSA 
implementation process as enunciated in its final rule.
    Further, the MTD believes that the Coast Guard itself has the 
authority to implement the biometric transportation security card 
mandate as recommended above. In fact, the MTSA requires the Secretary 
of Homeland Security to issue a biometric transportation security 
credential to merchant mariners. Section 102 of the MTSA defines 
``Secretary'' to mean ``the Secretary in which the Coast Guard is 
operating.'' It is our view that within this definition, the Coast 
Guard has the authority to issue an MMD with an encoded biometric as a 
merchant mariner biometric transportation security credential. 
Moreover, this would certainly negate the need for a change in the Code 
of Federal Regulations as proposed in USCG-2006-24371, the 
Consolidation of Merchant Mariner Qualification Credentials, currently 
being considered as a supplementary proposed rulemaking.
    A further reason for utilizing a biometric merchant mariner 
document in lieu of a TWIC is the fact that the final rule proposes 
standards which will primarily impact merchant mariners and port 
workers. Why reinvent the wheel when a proven, time-tested, and 
internationally accepted document already exists that, with some 
modification, responds to the mandate of the MTSA? In addition, to 
date, there are no TWIC requirements for other workers in all modes of 
transportation. It is our view that if the TWIC is not applicable to 
all modes of transportation, then the system is essentially flawed due 
to port intermodalism and the security objective is undermined.

User Fees
    In its final rule, the TSA proposes to establish new user fees for 
the TWIC process. Although the MTD opposes a TWIC requirement for 
merchant mariners, we nonetheless state that it is patently unfair to 
impose yet another user fee on the merchant mariner for a credential 
that can be encompassed in the MMD. In fact, the merchant mariner is 
already charged a user fee for the process associated with the MMD. The 
MTD is aware that Section 520 of the 2004 DHS Appropriations Act 
requires TSA to charge a reasonable fee for providing credentialing and 
background investigations in the field of transportation. The principle 
behind user fees is based on the philosophy that beneficiaries of 
Federal expenditures should repay the government in the form of a user 
charge on all or a portion of the Federal expenditures incurred for a 
service. User fees are based on the premise that some agency services 
are of benefit only to particular segments of the population and that 
fairness dictates that these services be subject to user fees. However, 
the MTD contends that the TWIC program is not of benefit to a 
particular segment of the population--the merchant mariner in this 
case--but primarily in the interest of public security. It is our 
belief that one of the key criteria regarding the application of a user 
fee for TSA services rendered is whether the service provides a special 
benefit to an identifiable recipient above and beyond those that accrue 
to the public at large. In this case, it does not. Therefore, given the 
fact that obtaining a TWIC is in the interest of public security, 
merchant mariners should not be assessed a user fee. It. is neither 
fair nor reasonable to assess a user fee on a merchant mariner for a 
security mandate that has broader benefits. The background checks and 
security threat assessments contained in the implementing final rule 
are considered necessary to enhance the security of our Nation's ports 
and are part of an overall effort to fight terrorism elements.

Federal Preemption
    The MTD recognizes and acknowledges the fact that states have the 
right to regulate access to their port facilities. However, once a 
national identity standard is promulgated, it is critically important 
that these standards supersede state regulations. Thus, the MTD 
recommends that the Federal TWIC or MMD program preempt any state or 
local regulations covering identity cards for mariners. The entire 
purpose of an identification credential is to provide a universally 
recognized identity card and to assure a mariner access to vessels and 
port facilities. In addition, the mandatory provisions of the 
International Maritime Organization's ISPS Code require facilitation of 
access by mariners. Additional state or local requirements will create 
confusion and intolerable conditions for mariners, undermine the 
purpose of the TWIC, and disrupt interstate and foreign waterborne 
commerce. Allowing states to arbitrarily impose different or added 
security requirements is inconsistent with the intent of the TSA to 
achieve a level of consistency governing threat assessments and 
transportation credentials.

Additional Comments on the TWIC Program
    The MTD believes that the TWIC program, as explained in its final 
rule, will cause many unnecessary problems within the maritime 
industry, including potentially severe disruption to the livelihoods of 
mariners and other transportation workers who pose no threat to 
security and who have done nothing wrong. It will not enhance security 
but will certainly disrupt commerce and place an intolerable burden on 
American merchant mariners. The program is also flawed since it exempts 
foreign seamen from the process while focusing completely on U.S. 
merchant mariners who are screened, regulated and fully vetted by the 
Coast Guard. It has been estimated that 97 percent of our imports and 
exports are carried on foreign-flag vessels with foreign crews who in 
our view pose the gravest security risk. Yet, these crews are exempt 
from the TWIC requirements. In addition to our recommendations 
mentioned above, the MTD also advocates:

  <bullet> That any national TWIC issued to American merchant mariners 
        must be compatible with the International Labor Organization's 
        Convention 185 (Seafarers Identity Document) so that there will 
        be a consistency between national and international identity 
        credentials.

  <bullet> By the nature of their employment, mariners require access 
        to secure areas throughout a port, a state, or even 
        internationally. If mariners are required to obtain a TWIC, 
        they should be guaranteed unfettered access to ports.

  <bullet> There must be a clear nexus between terrorism security and 
        the crimes that will disqualify an individual from holding a 
        maritime TWIC, as the list of felony offenses that will 
        disqualify a mariner from obtaining a maritime TWIC is too 
        expansive, nebulous and unfocused on eliminating true security 
        risks. Although some modifications were made in the final rule 
        to the original list of disqualifying offenses, the MTD urges 
        the TSA to exercise appropriate discretion to not deny 
        employment opportunities to those mariners who may have simply 
        made a mistake years ago.

    U.S. mariners are and will always be an effective asset in the 
global war on terrorism. They are the best trained, most qualified and 
most thoroughly vetted workers in the transportation industry. The U.S. 
Merchant Marine's history of answering the call to perform our 
patriotic duty in every conflict and disaster is a matter of public 
record. In summary and to be clear, we urge the TSA to recognize the 
contributions of American mariners to the economic and defense security 
of our Nation by exempting them from the unnecessary burden of 
obtaining a TWIC.
    The MTD remains ready to work cooperatively with the Committee, the 
Transportation Security Administration and the Coast Guard to identify 
and implement the most fair and effective systems that promote security 
in the domestic maritime transportation network.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                     Hon. Edmund S. ``Kip'' Hawley

    Question 1. When will the Department provide Congress with the 
comprehensive management plan for TWIC that was required in the 
Intelligence Reform Act of 2004 and is over 2 years past due?
    Answer. The Transportation Worker Identification Credential Program 
Management Plan, as required by the Intelligence Reform and Terrorism 
Prevention Act of 2004, is currently undergoing executive level review 
and clearance within the Department. The Transportation Security 
Administration anticipates delivery to Congress in the third quarter of 
the current fiscal year.

    Question 2. Of the 4,000 TWIC cards you reported issued in the 
prototype testing, how many were activated? Of those activated how many 
were actually tested with a biometric card reader? Were any tested on 
vessels?
    Answer. The Transportation Security Administration issued 4,362 
cards during the prototype, all of which were activated. While we do 
not have data on how many of the activated cards were used in biometric 
readers, 3,209 biometric access attempts were made during the prototype 
phase. No readers were tested on vessels during the prototype phase.

    Question 3. What vessel operators have you and the Coast Guard 
identified for participation in the card reader pilot mandated in the 
SAFE Port Act? How many vessels and over what duration of time do you 
plan on testing the technology?
    Answer. The Transportation Security Administration (TSA) plans to 
test contactless biometric authentication technology that meets the 
requirements of the Transportation Worker Identification Credential 
(TWIC) reader specification in a variety of maritime operational 
scenarios (container, bulk, petroleum, and passenger terminals; and 
vessels), as well as in different geographic regions and climates. The 
final reader specification is pending a review of comments received 
from the public notice of the specifications recommended by the 
National Maritime Security Advisory Committee. The TWIC program, with 
assistance from other Department of Homeland Security components, is 
developing a comprehensive Test and Evaluation Master Plan which we 
anticipate completing this summer. Planning for this project has been 
underway since December 2006.
    TSA is reviewing potential participants for the upcoming card 
reader pilot tests but they have not yet been finalized. Discussions 
are ongoing with the Ports of Los Angeles and Long Beach as well as the 
Ports of New York and New Jersey to identify vessel participants to 
include small passenger vessels and ferries. We are also working with 
the American Waterways Operators Association to identify an appropriate 
participant for the towboat and tug boat industry. The duration of the 
pilot tests will be such that the card readers will be tested under 
various environmental and operational conditions, although the duration 
has not yet been finalized.

    Question 4. You mention in your testimony that the TSA has 
``created a new process where the TSA can make a determination that a 
security threat assessment conducted by another government agency is 
comparable, eliminating redundancy and reducing costs for workers.'' 
Can you describe this?
    Answer. The Transportation Security Administration (TSA) may 
determine that security threat assessments conducted by other 
governmental agencies are comparable to the Transportation Worker 
Identification Credential/Hazardous Materials Endorsement threat 
assessment. In making a comparability determination, TSA will consider 
(1) the minimum standards used for the security threat assessment; (2) 
the frequency of the threat assessment; (3) the date of the most recent 
threat assessment; and 4) whether the threat assessment includes 
biometric identification and a biometric credential. The procedures to 
apply for a comparability determination are outlined in 49 CFR  
1572.5(e) Comparability of Other Security Threat Assessment Standards. 
TSA will notify the public by publishing a Notice in the Federal 
Register when a comparability determination is made.

    Question 5. Have you reached out to other agencies such as the 
Department of Defense and the Department of Energy to determine what 
background check and credentialing process they have in place and how 
are they comparable to TSA's background checks for TWIC? What 
credentialing programs have you found to be comparable to other Federal 
agencies' programs?
    Answer. The Transportation Security Administration discussed 
comparability with both the Department of Defense (DOD) and the 
Department of Energy. DOD is gathering the information needed in order 
to make a comparability determination. Thus far, the background checks 
performed by U.S. Customs and Border Protection for the Free and Secure 
Trade program, and the U.S. Coast Guard for the Merchant Mariner 
Document program, have been determined to be comparable to that of the 
Transportation Worker Identification Credential.

    Question 6. I understand you have developed procedures to reduce 
the TWIC fee for transportation worker that have had comparable 
background checks, such as the Hazardous Materials Endorsement (HME) 
and the Merchant Mariner Document (MMD). However, what procedures have 
you put in place to ensure that individuals who have received a TWIC do 
not have to undergo and pay for redundant background checks when 
applying for a HME or MMD?
    Answer. The Hazardous Materials Endorsement (HME) process, fee 
structure, and contract vehicles were implemented in January 2005 to 
meet the requirements of the USA PATRIOT Act of 2001 (Public Law 107-
56). Presently there is no mechanism or ability to reduce this 
redundancy for HME drivers within the confines of the present fee rule 
and contractual vehicles. The Transportation Security Administration is 
in the process of developing a new fee rule, as well as a new 
acquisition, that will take this issue into account and will more fully 
align the HME check, as well as future threat assessment programs, with 
that of the Transportation Worker Identification Credential. The 
intention is to reduce the burden on multiple credential holders to the 
greatest extent possible.
    With respect to the MMD, TSA and Coast Guard are in discussions 
regarding the details of this issue. As you know Coast Guard is moving 
to a consolidated Merchant Mariner Card (MMC) and expects to recognize 
the TWIC as the identity document for merchant mariners. Coast Guard 
will not charge mariners a duplicative fee for the same requirement 
already fulfilled under TWIC.

    Question 7. TSA originally expected TWIC enrollments to begin at 
the Port of Wilmington by March 28, 2007--the effective date of the 
TWIC rule. However, enrollments did not begin on this date as planned. 
What is the reason for the delay and when does TSA plan to begin 
enrolling workers at the port?
    Answer. It is imperative that enrollments begin as soon as 
possible, and TSA is working diligently to that end. At the same time 
our highest priority is to ensure that the Transportation Worker 
Identification Credential (TWIC) enrollment and credential issuance 
process is as efficient and trouble-free for the first worker as for 
those who will follow. TSA expects to begin enrollment in the Fall of 
2007, but that is subject to our ongoing, rigorous assessment of the 
TWIC system.
    TWIC is a sophisticated system powered by state-of-the-art 
technologies and we are focused on a rigorous program to ``flight 
test'' TWIC before it is rolled out to the ports.
    The TWIC network includes technology components covering five 
important areas:

  <bullet> The Pre-Enrollment website component allows workers to 
        schedule appointments and provide biographic information ahead 
        of time to make enrollment easier.

  <bullet> The Enrollment workstation component captures a worker's 
        biometric and biographic information and submits the 
        information for completing the Security Threat Assessment 
        (STA).

  <bullet> The TWIC system includes components that route applicant 
        information for the STA, store data, conduct data integrity 
        checks, and manage status on TWIC cards.

  <bullet> The Screening Gateway component is a TSA enterprise asset 
        that facilitates STA's, working with the Federal Bureau of 
        Investigation, Citizenship and Immigration Services, and TSA's 
        Colorado Springs Operations Center.

  <bullet> Finally, the Card Production component electronically loads 
        an applicant's information onto a TWIC smart card and then 
        physically produces the card.

    All the internal moving parts must work together, to conduct 
accurate and timely security threat assessments. We recognize that TWIC 
will affect both businesses and port workers and a top priority is 
making sure the program does not negatively impact commerce or people's 
livelihoods.

    Question 8. How does TSA plan to meet the requirement of the SAFE 
Port Act that TWIC be implemented at the 10 highest risk ports by July 
1, 2007? How does TSA interpret the term ``implemented'' in this 
requirement? What challenges do TSA and Lockheed Martin face in meeting 
this and other time frames in the Act? When does TSA plan to set 
specific dates requiring TWIC to be used at specific ports?
    Answer. It is imperative that enrollments begin as soon as 
possible, and TSA is working diligently to that end. At the same time 
our highest priority is to ensure that the Transportation Worker 
Identification Credential (TWIC) enrollment and credential issuance 
process is as efficient and trouble-free for the first worker as for 
those who will follow. TSA expects to begin enrollment in the Fall of 
2007, but that is subject to our ongoing, rigorous assessment of the 
TWIC system. Our highest priority is to ensure that the Transportation 
Worker Identification Credential (TWIC) enrollment and credential 
issuance process is as efficient and trouble-free for the first worker 
as for those that follow. It is our intention to meet the remaining 
deadlines set forth in the SAFE Port Act. The Coast Guard will 
establish compliance dates by Captain of the Port zones after the base 
population has been enrolled and received their TWICs. This date will 
be published in the Federal Register at least ninety days before 
compliance is required in each Captain of the Port zone.

    Question 9. What oversight mechanisms is TSA using to ensure that 
all requirements of the TWIC enrollment contract are met? What specific 
steps does TSA plan to take to verify contract performance data 
provided by Lockheed Martin?
    Answer. The current contract is performance based with a defined 
Quality Assurance Surveillance Plan with defined Acceptable Quality 
Levels (AQLs). An award fee structure is also in place to provide 
incentives for improved performance as well as disincentives should the 
contractor not meet the AQLs. Performance Management Reviews are being 
conducted monthly. In addition, there will be periodic site visits to 
enrollment centers to validate and verify reported performance data. As 
a further oversight measure, TSA has engaged an IV&V contractor to 
review technical deliverables. TSA plans to continue the IV&V contract 
as the program moves forward.

    Question 10. Mr. Hawley's statement indicates that the Lockheed 
Martin contract requires adaptive planning, metrics, and changes. Can 
you please explain what you mean by this statement?
    Answer. Lockheed Martin is contractually required to support the 
enrollment of the Transportation Worker Identification Credential 
population nationwide. To satisfy this requirement Lockheed Martin has 
developed a flexible deployment strategy to take into account the need 
to respond to enrollment surges, a mobile population, and enrollment 
facility options. The contract clearly defines Acceptable Quality 
Levels within the Quality Assurance Surveillance Plan with which 
Lockheed Martin must adhere. The contract vehicle provides the 
Transportation Security Administration with the flexibility to add 
enrollment capability as the program is implemented.

    Question 11. When does TSA plan to begin the pilot program to test 
TWIC access control technologies? What specific technologies does TSA 
plan to test during the pilot?
    Answer. The first two pilot locations have been awarded grant 
funding--Ports of LA (POLA) and Long Beach (POLB). Additional locations 
will be selected from the grantees in the latest round of Port Security 
Grants. We have finalized the cooperative agreement with POLB, POLA 
will finalize shortly. We are developing the comprehensive test and 
evaluation plan and expect POLA and POLB to begin working with terminal 
operators to identify the right locations for TWIC readers and start 
taking metrics for currents operations.
    The actual readers will begin testing after finalization of the 
contactless biometric authentication specification that will be used 
has been published, and industry has developed the necessary card 
reader equipment. Planning for this project has been underway since 
December 2006.
    TSA plans to test contactless biometric authentication technology 
that meets the requirements of the TWIC reader specification in a 
variety of maritime operational scenarios (container, bulk, petroleum, 
and passenger terminals; and vessels), as well as in different 
geographic regions and climates. The program has been working with 
other DHS entities (S&T Directorate, USCG, G&T, SCO) and the National 
Institute of Standards and Technology to develop the tests to assure 
baseline performance for this technology. TSA is also collaborating 
with the Space and Naval Warfare Systems Command who will conduct 
environmental and ruggedness testing.

    Question 12. Does TSA plan to measure the impact that the TWIC 
program will have on the flow of maritime commerce during the pilot 
program? If so, how does TSA plan to do this? How will TSA ensure 
effective communication and coordination with maritime industry 
stakeholders during implementation of TWIC?
    Answer. Obtaining current ``as is'' state and comparing that to the 
``to be'' state utilizing Transportation Worker Identification 
Credential (TWIC) card readers is the primary focus of the pilot. The 
pilot Test and Evaluation Master Plan (TEMP) will address areas to be 
tested, required metrics, and test responsibilities. The Transportation 
Security Administration anticipates completing the TEMP this summer. 
Stakeholders will continue to be apprised of the deployment status 
through regular meetings of the TWIC Stakeholder Communications 
Committee (TSCC) and our participation in various conferences, 
meetings, and briefings. The TSCC is comprised of stakeholder 
representatives from labor, ports, vessels, and other industries that 
will be impacted by TWIC.

    Question 13. What steps are TSA and Lockheed Martin taking to 
identify the entire population affected by the TWIC rule and educate 
this population on their responsibilities for enrolling in the TWIC 
program?
    Answer. The Transportation Security Administration (TSA) and 
Lockheed Martin have implemented a robust, multi-faceted outreach and 
communications process to identify and educate the population affected 
by the Transportation Worker Identification Credential (TWIC). This 
strategy includes regular meetings of the TWIC Stakeholder 
Communications Committee comprised of stakeholder representatives from 
labor, ports, vessels, and other industries that will be impacted by 
TWIC and a Lockheed Martin TWIC field organization that is in contact 
with local Coast Guard Captains of the Port, Port Authorities, major 
port officials, industry, and labor representatives.
    The Transportation Security Administration and the Coast Guard are 
also leveraging their extensive relationships with affected 
stakeholders from both industry and labor that have been developed over 
years of cooperation in the transportation sector.

    Question 14. Why did the TSA and the Coast Guard reject adopting 
the International Civil Aviation Organization (ICAO) standard? Will the 
TWIC be designed to be interoperable with the ICAO standard? If no, 
why?
    Answer. In developing the Transportation Worker Identification 
Credential (TWIC), the Transportation Security Administration 
considered a wide variety of document standards. The starting point is 
the program's requirements and fundamentally TWIC was developed as a 
secure identity document for physical access, pursuant to Congressional 
mandates. It is not a travel document that would be recognized 
internationally.
    It is important that credentials issued to U.S. Federal standards 
be interoperable with the TWIC and across the U.S. transportation 
system. Therefore, to achieve maximum interoperability with other 
programs, TWIC follows Federal Government standards for biometric 
credentials which are contained in Federal Information Processing 
Standard 201 (FIPS 201) and the underlying Federal standard for Minutia 
fingerprint templates contained in the American National Standards 
Institute publication 378. The industry expects the FIPS 201 standard 
to be the primary standard across such operations into the future.

    Question 15. What assurance does TSA have that the agency is 
prepared to handle the volume of workers that may appeal the result of 
the threat assessment or those that may request a waiver if they do not 
meet the eligibility requirements?
    Answer. The Transportation Security Administration (TSA) is 
leveraging time-tested processes and procedures that have been 
developed and implemented successfully in programs such as the Hazmat 
Threat Assessment Program. In the Hazmat program, security threat 
assessments are conducted on commercial truck drivers seeking to 
obtain, renew, or transfer a hazardous materials endorsement on their 
state issued commercial driver's license. The Hazmat program has been 
operating successfully since January 2005 and has received over 550,000 
applications via a nationwide system of TSA contracted enrollment 
stations and state licensing agencies. TSA has received waiver and 
appeal requests on approximately 1.5 percent of this population. The 
standard operating procedures and policies for adjudications and 
redress have been proven successful. TSA has an existing contract in 
place to support adjudications including the waiver and appeal process. 
This contract is scalable and can surge to meet the demands of TWIC.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Ted Stevens to 
                     Hon. Edmund S. ``Kip'' Hawley

    Question. Millions of dollars have been spent and multiple delays 
have been experienced with the Transportation Security Administration's 
(TSA) Registered Traveler (RT), Secure Flight, and Transportation 
Worker Identification Credential (TWIC) programs. Should TSA follow the 
path it took with RT and allow the private sector to run these 
programs? What assurances can you give that TSA will be able to execute 
and sustain these types of programs?
    Answer. While there are significant differences in the statutory 
language mandating the Transportation Worker Identification Credential 
(TWIC) and Secure Flight and the language and intent concerning 
Registered Traveler (RT) the Transportation Security Administration 
(TSA) believes that all three programs cannot be implemented without 
significant input from the private sector.
    In the case of RT, TSA was provided broad discretion to design and 
implement the program. The RT Interoperability Pilot was designed to 
test the public-private partnership and to encourage innovation in the 
market place. At the same time, there are certain program activities 
that are inherently governmental. TSA directly administers those 
functions, such as setting program security and compliance standards 
and completing the security threat assessment on RT applicants.
    Unlike RT, the Secure Flight and the TWIC programs are based on 
specific legislative mandates. For Secure Flight, TSA has been directed 
to assume the watch list matching currently performed by aircraft 
operators. Furthermore, the Maritime Transportation Security Act as 
amended by the SAFE Port Act requires the Secretary of Homeland 
Security to issue a biometric credential (TWIC) and conduct security 
threat assessments on individuals who have unescorted access to secure 
areas of maritime facilities and vessels. As a result, Secure Flight 
and TWIC are centrally managed by the Federal Government to assure 
security, privacy, interoperability, and enforcement.
    Nevertheless, TSA has sought significant input from the private 
sector to develop these programs. For TWIC, TSA has requested the 
National Maritime Security Advisory Committee, with representation from 
the stakeholder community and credential reader manufacturers, to 
recommend standards for use for a contactless credential reading 
solution. Secure Flight is being developed with direct input from the 
airline industry and is responding directly to requests for a single 
DHS interface to air carriers.
    TSA recognizes that both programs have faced tremendous challenges 
in moving toward implementation. Both involve significant IT 
investments and strong program management. TSA has taken steps to 
address critical program management requirements, instilling discipline 
into the process for both TWIC and Secure Flight, and is positioning 
itself to execute and sustain these programs.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                     Hon. Edmund S. ``Kip'' Hawley

    Question 1. How many workers nationwide are expected to need TWIC 
cards? Can you tell me what estimates TSA intends to use for the number 
of workers requiring TWIC cards at the Port of New York and New Jersey, 
and whether sufficient resources will be available to provide these 
cards in a timely and efficient way?
    Answer. The Transportation Security Administration estimated 
750,000 transportation workers would require Transportation Worker 
Identification Credentials (TWICs) to meet the mandates of the Maritime 
Transportation Security Act of 2002. Of that total, approximately 
60,000 were estimated to be within the Port Authority of New York and 
New Jersey. The TWIC contractor is responsible for ensuring sufficient 
resources are in place to conduct timely and efficient enrollments and 
card issuance during the initial enrollment period. The contractor has 
flexibility to add or re-adjust assets as required to ensure adequate 
resources are in place to provide these cards in a timely and efficient 
manner.

    Question 1a. Is the number of enrollment stations based upon the 
affected population estimates published in the TWIC final rule? When 
will you and the contractor determine where the estimated 130 
enrollment centers will be located?
    Answer. The number of enrollment workstations in each port is based 
on a number of factors including the population estimate for that port, 
the geographic size of the port, and the duration of the initial 
enrollment period for that port. The Transportation Worker 
Identification Credential contractor, in cooperation with the 
Transportation Security Administration and the Coast Guard, is in the 
process of evaluating each port to determine the number and location of 
enrollment sites.

    Question 1b. What steps do you plan to take if your population 
estimates are found to be too conservative?
    Answer. The Transportation Security Administration, the Coast 
Guard, and the Transportation Worker Identification Credential (TWIC) 
contractor will continue to communicate with local stakeholders and 
monitor the enrollment population to ensure adequate resources are 
deployed to enroll the affected population in an effective manner. The 
TWIC contractor is responsible for ensuring sufficient resources are in 
place to conduct timely and efficient enrollments and card issuance 
during the initial enrollment period. The contractor has the 
flexibility to add or re-adjust assets as required to ensure adequate 
resources are in place to provide these cards in a timely and efficient 
manner.
    Additionally, the TWIC contract contains a Quality Assurance 
Surveillance Plan with Acceptable Quality Levels for enrollment and 
wait times against which the contractor will be measured.

    Question 1c. If population estimates are considered too 
conservative, will TSA be required to modify the contract with Lockheed 
Martin?
    Answer. Modifications to the contract should not be required. The 
Transportation Worker Identification Credential contract is performance 
based and the prime contractor receives a portion of the user fee for 
each transaction. Included in the contract are award incentives for the 
contractor to exceed enrollment projections.

    Question 2. Given that a transportation worker has to appear at an 
enrollment center at least two times (enrollment and card issuance), 
how is the TSA going to ensure the level of staffing and processing 
times (15 minute processing) are sufficient to minimize the impact on 
industry and the flow of commerce?
    Answer. The Transportation Security Administration will monitor the 
contractor's performance through site visits, customer surveys, and 
program management reviews. The Transportation Worker Identification 
Credential contract includes incentive and disincentive provisions for 
contractor performance. The processing time, which is highly dependent 
on the contractor's staffing level, will be a significant factor in the 
contractor performance evaluation. Also, the system incorporates a pre-
enrollment website component that allows workers to schedule 
appointments and provide biographic information ahead of time to make 
the enrollment process more efficient.

    Question 3. If the initial enrollment is expected to take an 
extended period of time in a particular port (i.e., 9-12 months in NY/
NJ), how are the TSA and the USCG going to ensure that transportation 
workers avail themselves to the enrollment process throughout the 
entire period? Inevitably many people will put off their enrollment 
until shortly before the enforcement date. How is the contractor going 
to handle the surge in volume that is expected 30 days prior to 
enforcement in a given port?
    Answer. The Transportation Security Administration, the Coast 
Guard, and the Transportation Worker Identification Credential (TWIC) 
contractor are working to develop effective outreach and communications 
with stakeholders, including employers, unions, and advocacy groups, to 
generate a steady flow of enrollment throughout the enrollment period. 
The TWIC contractor is responsible for ensuring sufficient resources 
are in place to conduct timely and efficient enrollments and card 
issuance during the initial enrollment period. The contractor has the 
flexibility to add or re-adjust assets as required to ensure adequate 
resources are in place to provide these cards in a timely and efficient 
manner. Additionally, the TWIC contract includes award incentives for 
the contractor to exceed enrollment projections. Some responsibility, 
however, must still fall on facilities, employers, and the 
transportation workers themselves to enroll in time to ensure they can 
be eligible for unescorted access to secure areas before the compliance 
date established for each port.

    Question 4. It is my understanding that TSA has suggested taking 
resources from the Port Security Grant program to pay for the TWIC 
pilot project. Why didn't the President's request separate funding for 
the pilot project?
    Answer. Terminal and vessel operators are responsible for access 
control into their facilities. The use of Port Security Grant funds for 
the purchase of card readers and associated infrastructure to conduct 
the pilot test is appropriate since the terminal and vessel operators 
will be able to keep the equipment and access control system 
improvements to comply with the Transportation Worker Identification 
Credential reader rule once it is effective. In addition, much of the 
work conducted through the test would have to be completed by the ports 
and facilities or vessels at their locations, in order to implement the 
TWIC reader requirements. We also believe that this use increases the 
overall level of security measures in place.

    Question 5. I don't expect this TWIC program to be completed 
anytime soon. In the meantime, when will you complete the terror watch-
list checks for port truck drivers, as you were required to do in the 
SAFE Port Act, and as you have done for other workers with access to 
secure areas of ports? Has FMCSA provided a complete list of Commercial 
Drivers License holders to you? If not, how will you proceed?
    Answer. The Transportation Security Administration (TSA) intends to 
meet these requirements through Transportation Worker Identification 
Credential (TWIC) enrollments and security threat assessments which 
will begin at the conclusion of our TWIC system performance testing. 
TWIC implementation will capture this information and make the vetting 
process go smoothly without the need to undertake a second rulemaking.
    Section 125 of the Security and Accountability for Every Port Act 
(Public Law 109-347) addresses a population on which no government 
entity, association, or industry organization maintains information. 
Generally, each port Terminal Operator has contracts with a number of 
transportation companies that provide drivers and trucks to transport 
containers from secure areas to staging areas. Neither the Terminal 
Operator nor the trucking companies know which drivers may enter a port 
on any given day or at all. Most trucking companies do not have all of 
the information necessary to successfully complete the vetting on each 
of their drivers to submit to TSA. There are over 500,000 trucking 
companies, many of which are independently owned and operated and tend 
to move to where the business is with no single company affiliation.

    Question 6. In a joint USCG/TSA Notice of Proposed Rulemaking that 
was published in May 2006, a contact reader with pin technology was 
proposed. Industry vehemently opposed this technology solution because 
of the negative impact it would have on terminal efficiency. Where does 
the TSA now stand on this issue?
    Answer. Based on comments received during the Notice of Proposed 
Rulemaking process the Transportation Security Administration (TSA) 
bifurcated the rule. The first rule that was published in the Federal 
Register on January 25, 2007, does not impose the requirement on 
owners/operators to purchase, install, or maintain card readers. A 
second rulemaking will address the card readers. The public will have 
ample opportunity to comment on this second rulemaking. TSA and the 
Coast Guard will consider all comments when determining what technology 
or processes are required to ensure that security of information and 
privacy is protected, as well as operational efficiency, in developing 
a final technology solution.
    In March 2007, the U.S. Coast Guard invited public comment on a 
draft Transportation Worker Identification Credential (TWIC) biometric 
reader specification and a draft TWIC contactless smart cart 
application recommended by the National Maritime Security Advisory 
Committee that did not require use of a PIN. The final reader 
specification is pending a review of comments received from the public 
notice. TSA then plans to test contactless biometric authentication 
technology that meets the requirements of the TWIC reader specification 
in a variety of maritime operational scenarios (container, bulk, 
petroleum, and passenger terminals; and vessels), as well as in 
different geographic regions and climates. TSA, with assistance from 
other Department of Homeland Security components, is developing a 
comprehensive Test and Evaluation Master Plan which we anticipate 
completing this summer. TSA has also been working with the National 
Institute of Standards and Technology to develop laboratory performance 
tests to assure baseline performance for this technology, as well as 
the Space and Naval Warfare Systems Command who will conduct 
environmental and ruggedness testing.

    Question 7. The SAFE Port Act requires the TSA to establish a pilot 
program to test the card reader technology at 5 geographically distinct 
port locations within 6 months of enactment. When and where will these 
pilot projects commence and how long are they funded?
    Answer. The first two pilot locations have been awarded grant 
funding--Ports of LA (POLA) and Long Beach (POLB). Additional locations 
will be selected from the grantees in the latest round of Port Security 
Grants. We have finalized the cooperative agreement with POLB, POLA 
will finalize shortly. We are developing the comprehensive test and 
evaluation plan and expect POLA and POLB to begin working with terminal 
operators to identify the right locations for TWIC readers and start 
taking metrics for currents operations.
    The actual readers will begin testing after finalization of the 
contactless biometric authentication specification that will be used 
has been published, and industry has developed the necessary card 
reader equipment. Planning for this project has been underway since 
December 2006.
    TSA plans to test contactless biometric authentication technology 
that meets the requirements of the TWIC reader specification in a 
variety of maritime operational scenarios (container, bulk, petroleum, 
and passenger terminals; and vessels), as well as in different 
geographic regions and climates. The duration of the pilot tests will 
be such that the card readers will be tested under various 
environmental and operational conditions, although the duration has not 
yet been finalized.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                     Hon. Edmund S. ``Kip'' Hawley

    Question 1. While I appreciate TSA's willingness to further study 
the requirement directing each towing vessel to carry a card reader, I 
remain concerned about the effect of this requirement on the maritime 
industry, particularly its small businesses. As you know, there is 
significant opposition to requiring card readers on every towing 
vessel. Given that crew sizes on tug boats reportedly run between four 
and ten mariners, and each of those mariners is well known to other 
mariners on the tug, as well as management, therefore making any 
intruder obvious, do you believe a workable compromise could be 
reached, such as only requiring card readers on vessels employing ten 
or more mariners?
    Answer. The Coast Guard will be evaluating and considering multiple 
types of operations and scenarios as the proposed requirements for the 
second Transportation Worker Identification Credential (TWIC) rule are 
developed. When determining reader applicability, crew size and vessel 
type are very likely to be considered in addition to risk.

    Question 2. The TWIC application process remains burdensome on 
workers and the industries depending on them. Easier access to TWIC 
cards once granted may help relieve some of this burden without causing 
undue security concerns. Many are concerned about the cumbersome 
process to apply for a TWIC card, including the long distances some 
workers will be required to travel to obtain a TWIC card. This is 
especially true for those in the long haul trucking industry who may 
end up applying for their card at one enrollment center, but due to the 
nature of their employment may be far from that center by the time the 
card is ready. In your opinion, would allowing applicants to designate 
that cards be returned to a different enrollment center than where they 
originally applied or alternatively including a mechanism to mail cards 
to an applicant's home or office be realistic fixes for this problem? 
If not, what do you propose as an alternative?
    Answer. Shipping a Transportation Worker Identification Credential 
to an enrollment center other than the one at which enrollment took 
place was considered during the planning stages of the program. Mailing 
cards directly to the applicant was also considered. To make system 
changes to accommodate these alternatives at this time would be costly 
and could further delay implementation. Mailing cards directly to the 
individual raised security concerns as the Transportation Security 
Administration (TSA) would not be able to ensure the individual 
receiving the card was in fact the individual that applied for the 
card. Although these methods were excluded as part of our original 
business plan, TSA may reconsider these options as experience is gained 
with the current system and processes in order to reduce the burden on 
the affected population.

    Question 3. The costs associated with TWIC may be a barrier for 
some workers and businesses. While I understand those costs may compare 
favorably with other card fees, they remain a burden for the temporary, 
seasonal labor in the maritime industry. Of particular concern is the 
fact that an applicant must pay for the full price of the application 
up front, leaving those applicants who are denied cards paying for the 
production of cards they do not receive. One potential solution may be 
not to reduce the overall costs, but the schedule on which they are 
paid. In your opinion, would it be possible for TSA to charge only for 
the cost of processing the application and the security assessment up 
front, with the balance to be paid should a card be granted?
    Answer. The Transportation Security Administration (TSA) believes 
the current process of payment and fee collection provides the best 
value to the total population and limits the overall cost of the 
credential. While workers ultimately denied a Transportation Worker 
Identification Credential (TWIC) may pay for the card production and 
issuance portion of program costs, they benefit from having all 
applicants sharing equally in the cost of the process. Workers whose 
criminal history would otherwise result in denial of a TWIC may request 
a waiver through the TSA redress process and review by an 
administrative law judge. Adopting a position that TWIC applicants 
should only pay for the services they directly receive could result in 
considerable costs to those applicants utilizing the redress process.

    Question 4. The goal of the TWIC program is to strengthen the 
security of our transportation system, starting with the implementation 
of a pilot without unintended consequences. Unfortunately, a host of 
issues have plagued the successful implementation of the pilot, 
including an incomplete management plan to date, lack of contract 
accountability, and ever-increasing costs to implement the program. I 
am concerned that if we don't fix these problems soon, we jeopardize 
the health of our workforce, strength of our economy, and overall, 
security of our Nation. Given these are just some of the implementation 
issues since the TWIC pilot was first authorized in 2001, please 
describe how our workforce and economy has been indirectly impacted by 
these delays.
    Answer. The Transportation Worker Identification Credential (TWIC) 
is only going to improve what is currently a less than ideal situation 
in the maritime sector of our Nation's transportation system. The 
maritime workforce does not currently have a common, secure, 
interoperable credential that can be used for nationwide access to 
maritime facilities, as the TWIC is intended to provide. Workers may be 
required to purchase multiple credentials and undergo multiple 
background checks to gain access to facilities sometimes even within 
the same state. The intent of the TWIC is to provide this capability in 
the form of a uniform identity credential based on a minimum Federal 
security standard and centralized processes that can replace the many 
credentials that may be required today.

    Question 5. It is my understanding that the TWIC system will not be 
interoperable with international standards. I am concerned that without 
uniformity of international standards, non-U.S. crewman will be exempt 
from complying with our security provisions when entering U.S. ports. 
Do you think it is necessary to establish an uniform international ID 
standard? What is the agency's plan to sync the TWIC system with the 
current biometric technology used by the United Nations and developed 
by the International Civil Aviation Organization (ICAO)?
    Answer. Obtaining current ``as is'' state and comparing that to the 
``to be'' state utilizing Transportation Worker Identification 
Credential (TWIC) card readers is the primary focus of the pilot. The 
pilot Test and Evaluation Master Plan (TEMP) will address areas to be 
tested, required metrics, and test responsibilities. The Transportation 
Security Administration anticipates completing the TEMP this summer. 
Stakeholders will continue to be apprised of the deployment status 
through regular meetings of the TWIC Stakeholder Communications 
Committee (TSCC) and our participation in various conferences, 
meetings, and briefings. The TSCC is comprised of stakeholder 
representatives from labor, ports, vessels, and other industries that 
will be impacted by TWIC.
    The United Nations through the International Labor Organization 
developed a seafarer credential with the intention of endorsing it as a 
universally recognized visa. The U.S. supports the concept of raising 
the level of seafarer document security but continues to have some 
concerns about the ILO document. TSA will continue to monitor 
international developments and protocols to determine what, if any, 
benefits to the program they provide.

    Question 6. The enrollment of workers at the Port of Seattle was 
scheduled to begin on March 26. When and by what means did TSA notify 
the Port that the March 26 date would slip? What effort will TSA make 
to ensure the Port's management is fully informed of the new schedule 
for TWIC enrollment when it becomes available?
    Has the TWIC contractor physically established a TWIC enrollment 
center for the Port of Seattle? The Port estimates that approximately 
100,000 individuals will require a TWIC. How many enrollment agents 
does the contractor intend to hire to handle the number of individuals 
that will have to be enrolled?
    Answer. The Transportation Security Administration (TSA) has not 
published an official enrollment schedule and has not notified the Port 
of Seattle when enrollments will commence at that location. TSA and 
Lockheed Martin commenced a robust, multi-faceted outreach and 
communications process to identify and educate the population affected 
by the Transportation Worker Identification Credential (TWIC). This 
strategy includes regular meetings of the TWIC Stakeholder 
Communications Committee comprised of stakeholder representatives from 
labor, ports, vessels, and other industries that will be impacted by 
TWIC and a Lockheed Martin TWIC field organization that is in contact 
with local Coast Guard Captains of the Port, Port Authorities, major 
ports officials, industry, and labor representatives. Once TSA 
determines we are prepared to begin issuing notice on enrollment, this 
outreach effort will expand significantly.
    Lockheed Martin has met with Seattle maritime officials; however, 
specific Seattle enrollment sites have not been established. Lockheed 
Martin is contractually required to support the enrollment of the TWIC 
population nationwide. In order for them to satisfy this requirement 
Lockheed Martin has developed a flexible deployment strategy to take 
into account the need to respond to enrollment surges, a mobile 
population, and enrollment facility options. The contract clearly 
defines Acceptable Quality Levels within the Quality Assurance 
Surveillance Plan to which Lockheed Martin must adhere. The contract 
vehicle provides TSA with the flexibility to add enrollment capability 
as the program is implemented.

    Question 7. The SAFE Port Act requires TSA to conduct a pilot 
program to test the business process, technological, and operational 
impacts of TWIC deployment at not fewer than five distinct geographic 
locations and to include vessels and facilities in these tests. What is 
the status of these pilot programs and the required testing?
    Answer. Planning for the pilot programs has been underway since 
December 2006. A pilot test agreement has been reached with the Port of 
Long Beach and approval of an agreement with the Port of Los Angeles is 
expected in the next few months. Discussions are also ongoing with the 
Port Authority of New York and New Jersey to finalize their 
participation. TSA, with assistance from other Department of Homeland 
Security components, is developing a comprehensive Test and Evaluation 
Master Plan which we anticipate completing this summer. TSA has also 
been working with the National Institute of Standards and Technology to 
develop laboratory performance tests to assure baseline performance for 
this technology, as well as the Space and Naval Warfare Systems Command 
who will conduct environmental and ruggedness testing.

    Question 7a. When and where will the first full scale pilot program 
testing of an automated TWIC system be?
    Answer. The first Early Operational Assessment test will be 
conducted in conjunction with the Ports of LA and Long Beach this year.

    Question 7b. My understanding is that some early testing of TWIC 
prototypes was conducted at the ports in Washington. Will TSA be 
conducting any further testing of TWIC at these ports prior to 
requiring full deployment?
    Answer. The Transportation Worker Identification Credential 
prototype tests were conducted in three geographic areas: Los Angeles 
and Long Beach; Delaware River Basin; and Florida.

    Question 7c. Has TSA determined all five locations that will be 
used for testing? If not, when do you expect to do so?
    Answer. The first two pilot locations have been awarded grant 
funding--Ports of LA (POLA) and Long Beach (POLB). Additional locations 
will be selected from the grantees in the latest round of Port Security 
Grants. Discussions are also ongoing with the Port Authority of New 
York and New Jersey to finalize their participation and we are working 
with the American Waterways Operators Association to identify an 
appropriate participant for the towboat and tug boat industry.

    Question 7d. What is the required error rate for the TWIC card? Can 
you please describe the scope and methodology that will be used to test 
the error rate of the TWIC card?
    Answer. The Transportation Worker Identification Credential will be 
aligned with the Federal standards for government credentials contained 
in the National Institute of Standards and Technology's (NIST's) 
Federal Information Process Standard 201-1 and associated standards 
such as those in NIST's Special Publication 800-76. 800-76 specifies a 
false rejection rate (FRR) of less than or equal to 1 percent and a 
false acceptance rate (FAR) of 1 percent. The FRR is the percentage of 
incorrectly rejected valid users. The FAR is the percentage of 
imposters incorrectly matched to a valid user's biometric.
    The Transportation Security Administration (TSA), with assistance 
from other Department of Homeland Security components, is developing a 
comprehensive Test and Evaluation Master Plan which we anticipate 
completing this summer. TSA has also been working with the National 
Institute of Standards and Technology to develop laboratory performance 
tests to assure baseline performance for this technology, as well as 
the Space and Naval Warfare Systems Command who will conduct 
environmental and ruggedness testing.

    Question 7e. Were private sector representatives, such as terminal 
and vessel operators, included in developing the scope and methodology 
for this testing?
    Answer. TSA has used comments provided in response to the TWIC NPRM 
published in May 2006 as well as its work with the National Maritime 
Security Advisory Committee in developing the scope of the pilot tests. 
We are working with the Ports of LA and Long Beach and will work with 
the other pilot locations as well to incorporate their feedback. 
Specifically to testing parameters, the Transportation Security 
Administration (TSA), with assistance from other Department of Homeland 
Security components, is developing a comprehensive Test and Evaluation 
Master Plan which we anticipate completing this summer. TSA has also 
been working with the National Institute of Standards and Technology to 
develop laboratory performance tests to assure baseline performance for 
this technology, as well as the Space and Naval Warfare Systems Command 
who will conduct environmental and ruggedness testing. TSA will, at the 
appropriate time, seek operator input as the test plans are developed 
to ensure full participation from stakeholders and a robust meaningful 
pilot test is conducted.

    Question 8. Your agency, along with the Coast Guard, has requested 
comments on the TWIC technology specification recommendations developed 
by the National Maritime Security Advisory Committee (NMSAC). I 
understand that those comments where due on March 30 of this year. Can 
you give the Committee a general overview of the comments received?
    Answer. Over thirty separate entities submitted comments to the 
questions posed in the Transportation Worker Identification Credential 
(TWIC) Contactless Biometrics Specification Public Notice published in 
the Federal Register. Entities were predominantly from the maritime 
community and its trade associations but some represented technology 
companies and technology trade associations. Generally the commenters 
praised the work of the National Maritime Security Advisory Committee 
(NMSAC) TWIC Contactless Specification Workgroup.
    Commenters also generally agreed that a PIN was not a good idea for 
general use due to operational concerns. Others believe the PIN should 
be considered only if it can be shown not to affect operations. A 
number of commenters believe the impact of lost PINs would be 
burdensome to the TWIC users and to the program.
    Most commenters agreed that privacy was important but most in the 
maritime industry did not have concerns that any measures were required 
to protect the privacy of biometric fingerprint templates. On the other 
hand, most in the technology industry believe that biometric 
fingerprint templates should be protected, but that the TWIC Privacy 
Key (TPK) scheme is sufficient to protect the template.
    A number of maritime commenters carried forward their concerns 
about PINs, encryption of fingerprint biometric templates and use of 
the TPK card magnetic stripe swipe concept as having potential negative 
impact on port and facility operations. Commenters also mentioned that 
the pilot tests would be useful for identifying impacts on facility and 
vessel operations. Specifically, commenters were concerned about error 
rates that might impact gate throughput, operation during extreme 
situations, allowing cleaning and vending personnel into facilities 
without a TWIC, the effect of TWIC at various Marine Security levels.
    Commenters generally agreed that TWIC would have a large impact on 
currently deployed personnel access control systems (PACS) if they were 
to be integrated and duplicative if they are not.
    A number of commenters reiterated their endorsement of the NMSAC 
recommendation as being the one that would have minimal impact on the 
cost of port security operations. Commenters with PACS were concerned 
with integrating TWIC into their operation, especially the impact of 
the recommendation that includes encryption of biometrics and possible 
need of wiring upgrades. Commenters were interested in impacts on both 
acquisition/installation and operational costs. Commenters without 
current PACS were concerned that TWIC would require PACS to be 
procured, installed, and maintained.
    Almost universally commenters agreed that a Qualified Products List 
should be developed.

    Question 8a. When do you expect to complete a review of the 
requested comments and provide a proposed rule on the technology that 
will be required to be deployed at our Nation's port to support the 
TWIC?
    Answer. The Transportation Security Administration's goal is to 
publish the final specification within the coming months. The 
Transportation Worker Identification Credential rule requiring readers 
will follow the notice and comment rulemaking process after initial 
pilot test results have been collected and reviewed.

    Question 8b. How is the development and deployment of the 
technology behind TWIC being coordinated with the testing required by 
the SAFE Port Act?
    Answer. The pilot tests TSA is planning pursuant to the SAFE Port 
Act, will inform the follow-on rulemaking to require deployment of TWIC 
readers. The Transportation Security Administration (TSA), with 
assistance from other Department of Homeland Security components, is 
developing a comprehensive Test and Evaluation Master Plan which we 
anticipate completing this summer. TSA has also been working with the 
National Institute of Standards and Technology to develop laboratory 
performance tests to assure baseline performance for this technology, 
as well as the Space and Naval Warfare Systems Command who will conduct 
environmental and ruggedness testing.

    Question 8c. When do you expect to publish a final rule on the 
technology of TWIC technology and will it be published before your 
agency completes the testing?
    Answer. The Transportation Worker Identification Credential (TWIC) 
rule requiring readers will follow the Notice of Proposed Rulemaking 
(NPRM) process after initial pilot test results have been collected and 
reviewed. The Coast Guard and the Transportation Security 
Administration have begun work on the TWIC II NPRM and expect to 
publish it in early 2008.

    Question 9. Regarding the testing at the Ports of Los Angeles and 
Long Beach: I understand that the Ports where awarded Maritime Security 
Grants to help cover the cost of testing and implementation. These 
grants in general, require the ports to provide matching state and 
local funding in the amount of 25 percent. I am told that your agency 
is requiring the full 25 percent match in the case of both testing and 
implementation. Do you agree that the development and testing of the 
TWIC technology standards is a Federal security responsibility? If not, 
why not?
    Answer. Yes, although the Transportation Security Administration 
has sought, and continues to seek, input from affected industry 
stakeholders to ensure security goals are achieved while minimizing the 
effect on commerce and people. In addition, the pilot test TSA is 
conducting pursuant to the SAFE Port Act will facilitate implementation 
at the participating locations. As such, they are critical partners.

    Question 9a. Can you explain the reasoning behind requiring select 
state and local governments to match Federal funding for testing a 
system that will be deployed nationwide?
    Answer. Federal funding provides for equipment and infrastructure 
improvements that will remain in place during and after the 
Transportation Worker Identification Credential (TWIC) pilot test has 
concluded and will facilitate compliance with the TWIC card reader 
rule. Therefore, it is appropriate for owners and operators to fund a 
portion of the infrastructure.

    Question 9b. Will your agency be requiring the other ports at which 
you will be conducting pilot program testing to provide matching 
funding for the testing phase?
    Answer. Yes, all ports that participate in the pilot program using 
grant funding will be required to provide matching funds pursuant to 
the grant guidance.

    Question 9c. How much total funding are state and local governments 
going to be expected to pay for testing the purposed TWIC technology?
    Answer. The total amount of funds expended by state and local 
governments will depend on the amount awarded and utilized for 
equipment and infrastructure improvements by those ports and facilities 
participating in the test.

    Question 9d. What happens if the testing proves the system that is 
developed does not work? Will you reimburse state and local governments 
for the money they contributed to testing?
    Answer. The fingerprint template biometric technology that will be 
used by Transportation Worker Identification Credential (TWIC) has been 
extensively tested both by the biometrics industry and the Federal 
Government (National Institute of Standards and Technology and General 
Services Administration) and is in use in numerous applications. The 
primary question to be answered by the pilot test is not whether this 
technology works, but what the impact of requiring its use in the 
maritime industry will be where current regulations only require a 
visual inspection of identification. As noted above, facilities will be 
the beneficiaries of equipment purchases and infrastructure 
improvements; therefore, there are no plans to reimburse participants 
for funds expended for this purpose.

    Question 9e. What alternatives, such as public-private partnership 
have you explored to get testing completed in a timely manner?
    Answer. The Transportation Worker Identification Credential pilot 
testing, and the specification development preceding the pilot test, is 
an example of a public-private partnership. The contactless 
specification published for public comment was recommended by the 
National Maritime Security Advisory Committee working group in 
partnership with the Transportation Security Administration and the 
Coast Guard. Pilot test plans will be developed with input from the 
volunteer participants.

    Question 10. I understand that the terminal operators at the Ports 
of Los Angeles and Long Beach already maintain a database of over 9,000 
transportation workers (mostly truckers) that regularly call on the 
terminals and require unescorted access. Have you considered using this 
existing database as a way to move forward with testing technology 
before prior to completing registration of port and transportation 
workers? If so, where does this effort stand? If not, why not?
    Answer. The Transportation Security Administration (TSA) will 
consider all options for pilot testing within the parameters of its 
Testing and Evaluation Master Plan. TSA intends to conduct end-to-end 
testing of the Transportation Worker Identification Credential (TWIC) 
system and it is unlikely an existing database contains the 
fingerprints needed to create the fingerprint template for use in 
biometric matching. Additionally, during prototype testing, TSA 
attempted to use existing databases of maritime workers to expedite 
enrollment with unsatisfactory results. The databases contained data 
element errors (nick-names instead of given names, out of date address 
and phone information, no audit trail of identification verification, 
among others) and technical errors in formatting that were difficult to 
identify and resolve. TSA has no plans to rely on other databases for 
enrollment information for actual TWICs or to issue test credentials.

    Question 11. The ports in my State of Washington, and I am sure 
elsewhere as well, can not afford to have port and transportation 
workers denied access or repeated delays in access due to faulty 
technology. Whatever technology is used to implement TWIC, it must 
support commercially acceptable error rates, processing times, and 
overall reliability. While I understand your agency is in the process 
of reviewing comments on the TWIC technology standards recommend by the 
NAMSAC, I would like to know what steps your agency is taking to ensure 
that any technology that is deployed or required to be deployed is 
error free and economically viable.
    Answer. The Transportation Worker Identification Credential will be 
aligned with the Federal standards for government credentials contained 
in the National Institute of Standards and Technology's (NIST's) 
Federal Information Process Standard 201-1 and associated standards 
such as those in NIST's Special Publication 800-76. 800-76 specifies a 
false rejection rate (FRR) of less than or equal to 1 percent and a 
false acceptance rate (FAR) of 1 percent. The FRR is the percentage of 
incorrectly rejected valid users. The FAR is the percentage of 
imposters incorrectly matched to a valid user's biometric.
    Planning for the pilot programs has been underway since December 
2006. A pilot test agreement has been reached with the Port of Long 
Beach and approval of an agreement with the Port of Los Angeles is 
expected in the next few months. Discussions are also ongoing with the 
Port Authority of New York and New Jersey to finalize their 
participation. TSA, with assistance from other Department of Homeland 
Security components, is developing a comprehensive Test and Evaluation 
Master Plan which we anticipate completing this summer. TSA has also 
been working with the National Institute of Standards and Technology to 
develop laboratory performance tests to assure baseline performance for 
this technology, as well as the Space and Naval Warfare Systems Command 
who will conduct environmental and ruggedness testing.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Bill Nelson to 
                     Hon. Edmund S. ``Kip'' Hawley

    Question. In 2002, the State of Florida enacted a law requiring a 
Florida Uniform Ports Access Credential (FUPAC) in order to ensure the 
safety and security of Florida's twelve public seaports. At 
approximately the same time, Congress passed and the President signed 
into law the Maritime Transportation Security Act of 2002 (MTSA), which 
contained many of the same goals.
    In an effort to harmonize and maximize the effectiveness of both 
programs, the State of Florida signed a Memorandum of Understanding 
(MOU) with the Transportation Security Administration (TSA) in 
September 2003 to design and implement a prototype Transportation 
Worker Identification Credential (TWIC) in the State of Florida. The 
goal of the MOU was to create a prototype credential that could meet 
both the state and Federal port security requirements. Since that time, 
Florida has been the only state to reach a level of readiness to 
actually implement such an access credential, including the ability to 
read the card electronically for each entry and exit from the state's 
public seaports.
    The TWIC final rule published in the Federal Register allows for 
equivalent credentials, but seems to imply that those equivalencies 
will only apply to certain Department of Defense (DOD) cards or 
credentials. As the rule makes clear, there is a need for national, 
uniform standards for the issuance of a TWIC. However, in light of the 
pre-existing MOU and pilot TWIC program, has the TSA considered 
grandfathering the FUPAC as an equivalent credential to the Federal 
TWIC?
    Answer. The Transportation Security Administration (TSA) partnered 
with the Florida Department of Highway Safety and Motor Vehicles, via a 
signed Memorandum of Understanding on October 17, 2003, ``to mutually 
plan for and execute the implementation of the Transportation Worker 
Identification Credential (TWIC) as the common inter-modal credential 
to support both programs and to fulfill the vision of the TWIC and the 
requirement of the Florida Uniform Port Access Credential Program 
(FUPAC) as outlined in Florida statute (311.12 and 311.125).''
    The TWIC Final Rule does not preempt any entity from issuing 
credentials in addition to the TWIC. TSA continues to work closely with 
Florida officials to align FUPAC with the TWIC program. Both parties 
agree that it would be in the best interest of port workers to issue a 
single credential. TSA has informed the State of Florida that it cannot 
grandfather FUPAC as an equivalent credential or substitute FUPAC for 
TWIC, because of key distinctions between their requirements and the 
TWIC. The two parties are discussing options for Florida to integrate 
the TWIC into their process to comply with their state regulations.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. David Vitter to 
                     Hon. Edmund S. ``Kip'' Hawley

    Question 1. Given the delays in the process and so many unanswered 
questions at this late date, what are you doing to ensure that the 
maritime industry will have time to meet requirements without 
unacceptable disruptions?
    Answer. Each port will receive notice prior to the commencement of 
enrollment at the port. The Captain of the Port will assess the 
progress of enrollment levels and will publish, at least 30 days in 
advance of the effective date, notice to comply with Transportation 
Worker Identification Credential (TWIC) requirements. This provision 
was included in the regulations to ensure the vast majority of 
individuals within a COTP zone requiring a TWIC would have at least 3 
months official notice of the compliance date.

    Question 2. I feel that the Department did not follow Congressional 
intent in developing an interim work process. From what I have heard 
from my constituents in the various maritime industries, without a 
significant interim period on the front end, it seems that the maritime 
industries will either have to pay workers to not work while they wait 
for the TWIC process or lose the employees and face a potential labor 
shortage.
    Answer. A new hire provision is included in the TWIC final rule. 
This provision is intended to limit the risk presented by an individual 
who has not undergone a full security threat assessment and is waiting 
to receive a TWIC while balancing the need to enable individuals to 
begin work as soon as possible. This provision enables direct employees 
of the owner or operator, who comply with additional interim 
requirements, to be eligible for access within 3 days of enrolling for 
their TWIC for up to 30 days, with an additional 30 days if necessary 
(upon approval by the Coast Guard), while awaiting TWIC issuance.

    Question 3. Can you explain the difference between the thoroughness 
of an interim security check and a longer term security check?
    Answer. The interim security check conducted on port workers last 
year was a name-based/biographic check of watch lists and databases 
related to terrorism and legal status. Employers submitted employee 
names and limited biographic data for the interim check. The interim 
check did not include the fingerprint-based criminal history records 
check that will be conducted prior to issuing a credential as part of 
the Transportation Worker Identification Credential (TWIC) program. The 
information used to conduct the TWIC security threat assessment will be 
gathered by TWIC enrollment personnel and will be checked against 
specific identity documents presented and verified at the time of 
enrollment. The security threat assessment also includes a fingerprint-
based criminal history records check.
    The interim check was not intended to replace the TWIC program nor 
was it intended to capture the entire maritime port worker population. 
Rather, it was an immediate security measure designed to check those 
populations employed within the port area and with frequent access, 
such as employees of facility and vessel operators and longshore labor. 
A broader maritime port worker population will be covered when the TWIC 
program is fully implemented.

    Question 4. The rule on TWIC allows 1 month for workers to replace 
a lost card. This seems to create a problem in that mariners often work 
for 30 day shifts. If a mariner loses a card and files for a 
replacement, they would almost certainly be onboard a vessel when their 
work authority runs out. Did you give any consideration to the 
operations of vessels when you issued this rule? Are you considering 
any updates to avoid the situation of someone being unable to legally 
work while on a vessel out to sea?
    Answer. Yes, vessel operations were considered during the 
development of the TWIC regulations. Field guidance pertaining to a 
mariner's inability to visit an enrollment center while underway, is 
currently being considered for inclusion into a Navigation and Vessel 
Inspection Circular (NVIC). The NVIC will serve as robust field 
guidance to assist the Coast Guard Captain of the Port and the maritime 
industry with TWIC implementation and compliance and the maritime 
industry in operationalizing the statutory and regulatory requirements 
of TWIC implementation and compliance.

    Question 5. As we have seen with the No-Fly List, sometimes people 
with similar names are denied access to a flight. What resources will 
you have in place to make sure that problems of mistaken identities or 
other issues such as that are dealt with quickly so that TWIC 
applicants are not unreasonably delayed?
    Answer. During Transportation Worker Identification Credential 
(TWIC) enrollment, the applicant provides biometrics and extensive 
biographic information, well beyond what is available in the No-Fly 
process that will significantly reduce the number of individuals 
identified as potential matches.
    The initial adjudication process includes an assessment of each 
applicant's criminal history and citizenship status. Each applicant is 
also vetted against relevant intelligence databases. Any applicant with 
potential disqualifying information is assessed through a process of 
review by multiple trained adjudicators who determine whether the 
applicant meets the requirements to hold a TWIC. The process is 
designed to reduce the risk of improperly adjudicating the applicant 
while minimizing the time of adjudication. Legal counsel is available 
to the adjudicators to help resolve issues before reaching a decision 
concerning an applicant's threat to transportation security within the 
confines of the regulation.
    TWIC applicants who are initially determined to present a security 
risk are advised by letter of this initial finding. The letter explains 
the applicant's right to appeal the finding or request a waiver as 
appropriate. If the applicant wishes to appeal an initial 
determination, the applicant has the opportunity to request the records 
on which the initial determination was based. The applicant may submit 
additional information, such as corrected official records on his or 
her criminal history, citizenship status, or other relevant information 
that may allow the Transportation Security Administration (TSA) to 
rescind the initial determination. When possible, TSA will make a 
reasonable attempt to assist the applicant by identifying or acquiring 
information that enables TSA to grant a favorable final determination. 
The waiver process is similar, although waivers are based on an 
assessment of risk despite the applicant being ineligible for a TWIC 
due to the applicant's criminal history. This information is reviewed 
by a board of TSA personnel. If a waiver or appeal is denied, the 
applicant has the right to request review by an Administrative Law 
Judge who then provides a recommendation on the merits of each 
individual case.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                           RADM Brian Salerno

    Question 1. The SAFE Port Act requires the Coast Guard and the TSA 
to concurrently process applications for individuals applying for a 
TWIC card and a Merchant Mariner Document (MMD). How are the Coast 
Guard and the TSA addressing this issue? What steps are you taking to 
ensure the MMD applications are processed as expeditiously as possible?
    Where is the Coast Guard in the process of completing a companion 
rule to consolidate existing MMDs and to streamline the application 
process for mariners who are also applying for a TWIC?
    What processes and procedures has the Coast Guard established to 
ensure that information is appropriately shared with the TSA and that 
mariners do not endure excessive delays in obtaining their MMD?
    Answer. The Coast Guard and TSA have agreed to share information, 
but all the details have not been finalized at this time. We will 
publish the details before the TWIC requirement come into effect for 
mariners (September 25, 2008, per the TWIC final rule). In the 
meantime, in an effort to ensure MMD applications are processed as 
quickly and consistently as possible and reduce delays in obtaining 
MMDs, the National Maritime Center (NMC) is in the process of 
centralizing the mariner evaluation process in Martinsburg, WV. The NMC 
is also working on a paperless application process.
    Public comments for the Consolidated Merchant Mariner Credential 
(MMC) Notice of Proposed Rulemaking (NPRM) closed on April 25, 2007 and 
are being reviewed. An MMC format decision meeting is scheduled for May 
2007. The MMC final rule will be published and in effect prior to the 
requirement for mariners to obtain a TWIC.
    The USCG and TSA are currently working on resolving a number of 
issues related to:

  <bullet> Printing the TWIC digital photo on the MMC in International 
        Civil Aviation Organization (ICAO) format.

  <bullet> Printing the TWIC digital fingerprints on the MMC in 
        accordance with ILO185-SID convention.

  <bullet> Ensuring the Coast Guard is able to retrieve TWIC mariner 
        applicant FBI information, for the purpose of additional safety 
        vetting, after the security vetting is complete.

  <bullet> Passing, from TSA to the Coast Guard, the names of mariners 
        who apply for a TWIC and are denied by TSA.

    Question 2. How does the Coast Guard plan to handle the potential 
increased Administrative Law Judge (ALJ) case load when the TWIC 
enrollment process begins?
    Answer. The Coast Guard believes that there may be a notable 
increase in ALJ case load once TWIC enrollment begins. However, we do 
not anticipate that this increase in case load will come at the cost of 
other important Coast Guard work. The Coast Guard has performed ALJ 
work for other government agencies, including the Transportation 
Security Administration (TSA), via reimbursable agreement for some 
time. Any new resources necessary to support the increase in case load; 
including Federal employees will be funded via a modification to the 
current reimbursable agreement with TSA.

    Question 3. Did the Coast Guard participate in the negotiations 
regarding the development the International Civil Aviation Organization 
(ICAO) Standard? Why has the United States declined to ratify the 
resolution? Do you think this poses additional burdens for U.S.-flag 
vessels operating in international commerce?
    Answer. No, the Coast Guard did not participate in development of 
the ICAO standard. However, the Coast Guard did participate in the 
development of the ILO Convention 185, which specifies an ICAO standard 
for the printing of information on a Seafarer's Identity Document.
    The Coast Guard defers to the State Department regarding why the 
U.S. decided not to ratify this convention. The Coast Guard has not 
evaluated the effect that the ICAO Standard would have on U.S.-flag 
vessels. However, regardless of ratification, the Coast Guard intends 
on developing the Merchant Mariner's Credential in a manner that is 
compliant with ILO Convention 185 to ensure that U.S. mariners comply 
with this convention should it be mandatory in a foreign port-of-call.
                                 ______
                                 
   Response to Written Question Submitted by Hon. Maria Cantwell to 
                           RADM Brian Salerno

    Question. Rear Admiral Salerno, I have heard back from several 
ports in my state that the Coast Guard has done a good job in keeping 
port managers informed on issues relating to TWIC regulation and 
implementation. As you know, Washington State falls within District 13 
and is served by both Sector Seattle and Sector Portland. Are you aware 
of any inconsistencies between Sectors within District 13 regarding 
TWIC implementation policies? For example, there are a number of non-
traditional port facilities in my state where there may be a need for 
greater flexibility in TWIC implementation. How do you ensure 
consistency between Sectors so there is not confusion on TWIC policy 
between non-traditional ports in the same state?
    Answer. The Coast Guard is not aware of any inconsistencies between 
Sectors within District 13 regarding TWIC implementation policies. 
Flexibility in determining compliance dates does exist however in that 
compliance dates will be established based on input from the Captain of 
the Port (COTP), Transportation Security Administration (TSA) and TSA's 
contractor Lockheed Martin. It is the CG's and TSA's goal to ensure the 
majority of workers within a COTP Zone have ample opportunity to apply 
for and receive a TWIC during the initial enrollment periods before 
setting a compliance date. The USCG is currently developing robust 
field guidance in the form of a Navigation and Vessel Inspection 
Circular (NVIC) to assist COTP and the maritime industry in 
operationalizing the statutory and regulatory requirements of TWIC 
implementation and compliance. National consistency is one of the 
USCG's goals regarding the TWIC program and the NVIC is a useful tool 
to assist in that endeavor.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                           RADM Brian Salerno

    Question 1. Primary law enforcement responsibility in US ports 
rests with a port authority police force or a local law enforcement 
organization and USCG personnel are generally not onsite everyday. How 
does the USCG plan to accommodate this provision and minimize the 
impact to local law enforcement by needing to hold an individual 
``until Coast Guard personnel arrives to confiscate the TWIC card?'' 
Wouldn't it make more sense to allow a bona fide law enforcement 
official to confiscate a TWIC card based on reasonable cause?
    Answer. The Coast Guard is currently exploring the legal and 
operational issues involved in allowing bona fide law enforcement 
officials to confiscate TWICs based on reasonable cause. This is one of 
several options currently being evaluated as the Coast Guard develops 
the policy and field guidance associated with TWIC enforcement. The 
USCG is currently developing robust field guidance in the form of a 
Navigation and Vessel Inspection Circular (NVIC) to assist COTP and the 
maritime industry in operationalizing the statutory and regulatory 
requirements of TWIC implementation and compliance.

    Question 2. In a joint TSA/USCG Notice of Proposed Rulemaking that 
was published in May 2006, a contact reader with PIN technology was 
proposed. Industry vehemently opposed this technology solution because 
of the negative impact it would have on terminal efficiency. Where does 
the USCG now stand on the issue?
    Answer. The proposed requirements for biometric readers and 
Personal Identification Number (PIN) usage by Transportation Worker 
Identification Credential (TWIC) holders prior to accessing secure 
areas of regulated facilities and vessels were excluded from the Final 
Rule which was published on January 25, 2007. Under the existing rule, 
the TWIC is required to be utilized as a visual identity badge, but a 
PIN will not be required for routine unescorted access to facilities or 
vessels. A PIN however will be necessary to ``unlock'' the biometric 
template stored in the TWIC integrated circuit chip, to facilitate the 
holder's authentication during USCG spot checks. Spot checks are not 
anticipated to have a negative impact on terminal efficiency.
    The TSA and the USCG are currently evaluating options, including 
the presence or absence of a PIN requirement, for a contactless 
biometric specification for TWICs and readers with this capability. 
During this process, we are taking serious consideration of comments 
received from regulated industry and labor, including comments from the 
National Maritime Security Advisory Committee, on the requirement for a 
PIN, but no decision has been reached yet. The specification will be 
published and tested in operational environments, pursuant to the SAFE 
Port Act. Implementation will require a follow-on rulemaking effort.

    Question 3. The National Maritime Security Advisory Committee 
(NMSAC) has recommended that the transmission of the biometric 
fingerprint template from the TWIC card to the card reader not be 
encrypted because it would complicate the processing, add unnecessary 
cost and maintenance concerns as well as slow down terminal operations. 
On the other hand, the biometric industry has recommended encryption 
even though they admit that a fingerprint template cannot be re-
engineered into an identifiable fingerprint and offers no privacy 
protection. Where is the USCG on the issue of encryption? What is the 
timeline for making a final decision on the selected TWIC chip/reader 
technology? When will it be published? Finally, what is the expected 
timeline for the publication of the TWIC Phase II NPRM?
    Answer. The fingerprint template is considered Personally 
Identifiable Information (PII) and therefore should be protected. When 
the template is transmitted from the TWIC to a contactless reader it is 
subject to being intercepted. Additionally, it is possible to use radio 
frequency waves to simulate a reader and thus ``skim'' an unprotected 
template from a card. Therefore, in allowing contactless operation, the 
TWIC fingerprint template must be protected in some manner. As NMSAC 
ruled out using a Personal Identification Number (PIN) to protect the 
template during transmission, encryption to establish a secure link 
over which to transmit the template is one way to accomplish this 
protection.
    NMSAC does not believe the protection above which is afforded by 
the Minutiae template is necessary and therefore their recommendation 
was to not encrypt the transmission. They did provide an additional 
specification for encryption with the understanding that encryption 
might be a government requirement.
    Currently if a template were compromised it is unlikely there would 
be any security or privacy implications. However, as technology moves 
forward and biometrics become more commonly used, we cannot be certain 
this will be the case in the future. Therefore, since a person cannot 
change their fingerprint template if it is compromised, the government 
must ensure that a level of protection is provided.
    The final contactless specification will be published in the 
Federal Register in the coming months. The USCG and the Transportation 
Security Administration (TSA) have begun work on the TWIC II NPRM and 
expect to publish it in early 2008.

    Question 4. Is encryption contemplated for the TWIC program 
consistent with the requirements put forth by the DHS in the REAL ID 
Driver's License program NPRM? Or any other DHS identification card 
programs now underway?
    Answer. Yes. When a biometric template or other PII is being 
transmitted in a contactless manner or otherwise embedded in an 
identity document, this information is protected. The best example is 
HSPD-12/FIPS 201 documents, upon which the TWIC standard was based. 
REAL ID does not require the collection of biometrics. However, DHS 
proposed that PII embedded in the mag stripe be encrypted.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                            Norman J. Rabkin

    Question 1. You state in your testimony that TSA has developed a 
schedule for enrolling workers and issuing TWIC cards at ports. Have 
you seen this deployment schedule, and is it based on risk? Did you 
find it to be reasonable and achievable schedule?
    Answer. TSA reported to us that the agency has developed a schedule 
for enrolling workers and issuing TWIC cards at ports, but we have not 
seen a copy of this schedule. As a result, we did not evaluate whether 
the schedule is based on risk or is reasonable.

    Question 2. When you reviewed the prototype contract in your 
September 2006 report, did you find how many card readers were 
deployed, and actually tested? If so, at which locations were they 
tested?
    Answer. According to the TWIC prototype report, 99 TWIC card 
readers were installed at 19 locations during prototype testing. 
According to the prototype report, these locations included: MacArthur 
Airport in New York; Los Angeles International Airport; Broadway 
Terminal in New Jersey; the Maritime Exchange of the Delaware River and 
Bay; Gloucester Terminal in New Jersey; the Amtrak Operations Center in 
Delaware; the Ports of Los Angeles and Long Beach; Wilmington, 
Delaware; Pensacola, Panama City, Fernandina, Canaveral, and Manatee, 
Florida; and 5 private port terminal facilities at the Ports of Los 
Angeles and Long Beach.

    Question 3. As the Coast Guard moves forward with completing a 
companion rule to consolidate existing mariner credentials, I believe 
it is important for the Committee to have a better understanding of the 
impacts these cumulative fees are having on the industry. Can you 
please provide a summary of the procedures and the costs a mariner 
incurs to serve on a U.S.-flag vessel?
    Answer. According to the Coast Guard, to qualify for issuance of an 
entry-level merchant marine license or entry-level rating endorsed on a 
Merchant Mariner Document (MMD), an applicant must acquire required sea 
service experience, complete training specified in regulation, and pass 
a drug screen and physical examination. This information is submitted 
to a Coast Guard Regional Examination Center for evaluation. The 
applicant must also appear once during the evaluation process to be 
identified and be fingerprinted. If the evaluation shows that the 
applicant meets all of the requirements for the credential and a 
background check and review of the National Driver Register are 
satisfactory, the applicant must then demonstrate professional 
competence by passing an examination or completing training that 
substitutes for the examination. No examination is required for entry-
level ratings.
    According to the Coast Guard, the cost that a merchant mariner 
incurs to serve on a U.S. flag vessel can vary based on region of the 
country and other factors. Coast Guard officials provided an estimate 
of these costs as follows:

------------------------------------------------------------------------
                               Entry level officer   Entry level rating
        Cost category        -------------------------------------------
                               Seagoing    Inland    Seagoing    Inland
------------------------------------------------------------------------
Training                        $30,000     $2,000     $1,000         $0
Physical                             75         75         50         50
Drug Screening                       85         85         80         80
User Fees                           300        300        140        140
Travel/Miscellaneous              1,000        800        250        250
                             -------------------------------------------
    Total Cost                  $31,460     $3,260     $1,520       $520
------------------------------------------------------------------------

    According to the Coast Guard, travel and miscellaneous costs 
represent the costs of appearing for examination, identification, and 
fingerprinting. Distance from an examination center will affect travel 
costs. Travel costs to attend training are included in the cost of 
training. For the officer levels, the costs are those applicable to an 
applicant for a license as third mate unlimited (seagoing vessels) or 
for a license as mate 1,600 gross register tons (inland vessels). These 
license levels represent common entry points into a seagoing career. In 
some cases, employers will reimburse applicants for some or all of the 
costs to qualify for a license or MMD.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Ted Stevens to 
                            Norman J. Rabkin

    Question 1. Mr. Rabkin, in your written testimony you mentioned 
both progress made and challenges remaining for the TWIC program. Does 
TSA have sufficient force and assets to handle this type of large scale 
program implementation?
    Answer. Until TWIC program implementation begins later this year, 
it is difficult to evaluate whether TSA and the enrollment contractor 
have dedicated the staff and resources necessary to successfully 
implement the program. Since we issued our September 2006 report, TSA 
has added staff to the TWIC program office to better manage the program 
and established an office to more closely monitor the performance of 
the enrollment contractor. However, we did not evaluate the number of 
staff or resources that the TWIC enrollment contractor has dedicated to 
implementing the program as part of our review. While additional staff 
with expertise in program and contract management should help TSA to 
implement the program, it remains to be seen whether TSA and the 
enrollment contractor will be able to implement the TWIC program on 
such a large scale covering 770,000 workers at about 3,500 maritime 
facilities and 5,300 vessels in the required time frames.

    Question 2. If not, what suggestions does GAO have to ensure an 
effective implementation of TWIC?
    Answer. Addressing the primary challenges facing the TWIC program 
is the most important step to ensure effective implementation. TSA and 
maritime industry stakeholders face several challenges to ensuring that 
the TWIC program can be implemented successfully. Although TSA has 
learned from TWIC testing experiences and has taken steps to help 
address problems that we previously identified, transitioning from 
limited testing to full scale implementation will be a major challenge. 
In addition, TSA and its enrollment contractor will also need to 
educate workers on the new TWIC requirements through an effective 
communication and coordination strategy, ensure that enrollments begin 
in a timely manner, and process numerous background checks, appeals, 
and waivers. Furthermore, TSA and industry stakeholders will also need 
to ensure that TWIC access control technologies will work effectively 
in the maritime environment, be compatible with TWIC cards that will be 
issued, and balance security with the flow of maritime commerce. As TSA 
works to implement the TWIC program later this year, it will be 
important that the agency establish clear and reasonable time frames 
and ensure that all aspects of the TWIC program, including the TWIC 
access control technologies, are fully tested in the maritime 
environment.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                            Norman J. Rabkin

    Question 1. While I appreciate TSA's willingness to further study 
the requirement directing each towing vessel to carry a card reader, I 
remain concerned about the effect of this requirement on the maritime 
industry, particularly its small businesses. As you know, there is 
significant opposition to requiring card readers on every towing 
vessel. Given that crew sizes on tug boats reportedly run between four 
and ten mariners, and each of those mariners is well known to other 
mariners on the tug, as well as management, therefore making any 
intruder obvious, do you believe a workable compromise could be 
reached, such as only requiring card readers on vessels employing ten 
or more mariners?
    Answer. According to TSA, the agency will address all requirements 
regarding TWIC access control technologies, such as biometric card 
readers, in a second proposed rule that the agency plans to issue 
during 2008. Until access control requirements are set forth in this 
proposed rule, it is not clear in what circumstances TWIC card readers 
will be required on vessels. In addition, the Security and 
Accountability for Every Port Act of 2006 states that TSA cannot 
require card readers on vessels unless TSA determines that the vessel 
is at severe risk or that readers are necessary due to the number of 
individuals on board. As such, TSA must consider this requirement as 
well as any public comments regarding the installation on card readers 
on vessels as part of the second rulemaking in the future.

    Question 2. The TWIC application process remains burdensome on 
workers and the industries depending on them. Easier access to TWIC 
cards once granted may help relieve some of this burden without causing 
undue security concerns. Many are concerned about the cumbersome 
process to apply for a TWIC card, including the long distances some 
workers will be required to travel to obtain a TWIC card. This is 
especially true for those in the long haul trucking industry who may 
end up applying for their card at one enrollment center, but due to the 
nature of their employment may be far from that center by the time the 
card is ready. In your opinion, would allowing applicants to designate 
that cards be returned to a different enrollment center than where they 
originally applied or alternatively including a mechanism to mail cards 
to an applicant's home or office be realistic fixes for this problem? 
If not, what do you propose as an alternative?
    Answer. According to TSA, shipping a TWIC card to an enrollment 
center, other than the one at which enrollment took place, was 
considered as well as mailing cards directly to the applicant during 
the planning stages of the program. TSA officials determined that it 
would be preferable to follow the process set forth in Federal 
Information Processing Standard 1, which calls for individuals to 
retrieve identification credentials in person so that their identity 
can be verified. According to TSA, mailing TWIC cards directly to the 
individual raises security concerns because TSA would not be able to 
ensure the individual receiving the card was in fact the individual 
that applied for the card. However, TSA officials stated that they 
understand that the return visit to the enrollment center will be 
inconvenient for some TWIC applicants and may reconsider this process 
in the future to reduce burden on the affected population. Our review 
focused on the results of the TWIC prototype test and did not evaluate 
the feasibility of having TWIC cards mailed to a worker's home or 
office or any other alternative method of picking up a TWIC card.

    Question 3. The costs associated with TWIC may be a barrier for 
some workers and businesses. While I understand those costs may compare 
favorably with other card fees, they remain a burden for the temporary, 
seasonal labor in the maritime industry. Of particular concern is the 
fact that an applicant must pay for the full price of the application 
up front, leaving those applicants who are denied cards paying for the 
production of cards they do not receive. One potential solution may be 
not to reduce the overall costs, but the schedule on which they are 
paid. In your opinion, would it be possible for TSA to charge only for 
the cost of processing the application and the security assessment up 
front, with the balance to be paid should a card be granted?
    Answer. According to TSA officials, the agency considered allowing 
workers to initially pay for the enrollment and threat assessment 
portion of the TWIC fee and pay the remaining balance when the card is 
issued. However, TSA officials stated that the current process of 
payment and fee collection provides the best value to the total 
population and limits the overall cost of the TWIC card. According to 
TSA, while workers ultimately denied a TWIC may pay for the card 
production and issuance portion of program costs, they benefit from 
having all applicants sharing equally in the cost of the process. 
Workers whose criminal history would otherwise result in denial of a 
TWIC may request a waiver through the TSA redress process and review by 
an administrative law judge. Adopting a position that TWIC applicants 
should only pay for the services they directly receive could result in 
considerable costs to those applicants utilizing this redress process. 
As part of our review, we did not evaluate TSA's rationale for 
requiring the fee to be paid in full at the time of enrollment or the 
feasibility of any alternate methods of paying for the TWIC card.

    Question 4. The goal of the TWIC program is to strengthen the 
security of our transportation system, starting with the implementation 
of a pilot without unintended consequences. Unfortunately, a host of 
issues have plagued the successful implementation of the pilot, 
including an incomplete management plan to date, lack of contract 
accountability, and ever-increasing costs to implement the program. I 
am concerned that if we don't fix these problems soon, we jeopardize 
the health of our workforce, strength of our economy, and overall, 
security of our Nation. Given these are just some of the implementation 
issues since the TWIC pilot was first authorized in 2001, please 
describe how our workforce and economy has been indirectly impacted by 
these delays.
    Answer. Our past work on the TWIC program has identified program 
delays, problems regarding testing and contract management, and 
additional challenges that the program faces. However, we did not 
evaluate either the direct or indirect impact that TWIC program delays 
and problems have had on the workforce and economy.

    Question 5. It is my understanding that the TWIC system will not be 
interoperable with international standards. I am concerned that without 
uniformity of international standards, non-U.S. crewman will be exempt 
from complying with our security provisions when entering U.S. ports. 
Do you think it is necessary to establish an uniform international ID 
standard? What is the agency's plan to sync the TWIC system with the 
current biometric technology used by the United Nations and developed 
by the International Civil Aviation Organization (ICAO)?
    Answer. According to TSA, the agency determined that it is 
preferable to have TWIC be interoperable with credentials issued to 
U.S. Federal standards rather than ICAO standards for international 
travel documents. TSA officials stated that TWIC is not intended for 
international travel, but does have potential applications with other 
U.S. Government credentials. Therefore, to achieve maximum 
interoperability with other programs, security and protection of 
personal information, TWIC follows the Federal Government standards for 
biometric credentials which are contained in FIPS 201 and the American 
National Standards Institute (ANSI) publication 378. TSA plans to 
continue monitoring international developments and protocols to 
determine what if any benefits to the program they provide. As part of 
our review, we did not evaluate the interoperability of the TWIC system 
with international standards or TSA's plans to synchronize the TWIC 
system with biometric technologies used by the United Nations or ICAO. 
In addition, we did not examine the need to establish a uniform 
international identification standard.
                                 ______
                                 
  Response to Written Question Submitted by Hon. Daniel K. Inouye to 
                             Lisa B. Himber

    Question. How would you advise the TSA and the Coast Guard to 
address the seasonal labor issue for the maritime industry?
    Answer. After discussion with various facility operators and labor 
organizations, the issue remains one for which there is no clear 
answer. While many members are in favor of a provision that allows for 
a ``temporary credential'' which would be capped after an appropriate 
number of port visits (e.g., after the third time, the worker would be 
required to obtain a TWIC for access), others see this as difficult to 
monitor.
    We respectfully request that this issue be tabled until after the 
Coast Guard finalizes its Navigation and Vessel Inspection Circular 
document, which will provide guidance on the escort provisions. In 
addition, we expect it will be necessary to re-evaluate this issue once 
the TWIC program is underway and the impact can be accurately assessed.
                                 ______
                                 
 Response to Written Question Submitted by Hon. Frank R. Lautenberg to 
                             Lisa B. Himber

    Question. I understand you have been involved in efforts to develop 
biometric standards for the TWIC card readers that are ``contact-
less''--meaning they would not require entering a password, for 
example. Doesn't this type of technology reflect the ``lowest common 
denominator'' as opposed to the highest possible level of security?
    Answer. The term ``contactless'' refers to the fact that a card can 
be read without the need to insert or swipe it into a reader. The 
maritime industry believes it is important to use contactless TWIC 
readers because contact readers are more quickly subject to damage by 
the normal usage, the environment, and vandalism.
    A contactless biometric may or may not require the use of a 
Personal Identification Number (PIN) or other password. The National 
Maritime Security Advisory Committee recommended to DHS that under 
normal operating conditions (i.e., MARSEC I) those who seek access to 
regulated facilities and vessels be required to present their TWICs 
only. During times of heightened security (MARSEC II and III), 
individuals would be required to present a biometric for verification 
in addition to the card.
    However, it is important note that during normal operations, 
persons seeking access to a regulated area must verify that they have a 
legitimate need to enter, and in most cases, the individual's name must 
be on a gate or appointment list.
    In keeping with the overarching philosophy that DHS must seek to 
find an appropriate balance between enhanced security and facilitation 
of commerce, the maritime industry believes that adding a requirement 
for use of a PIN presents an additional and largely unnecessary 
potential point of failure which could lead to lengthy delays in vessel 
and cargo processing.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                     Capt. Paul Kaipo Pomaikai, Sr.

    Question 1. The interim work authority process the TSA provided for 
in the final rule appears to be more restrictive than what your 
industry was hoping for. As I understand it, newly hired workers must 
apply for their TWIC, pay the fee, pass the named-based background 
check from TSA and still be accompanied by an individual with a TWIC 
card at all times while in a port. Is my understanding of this process 
correct? Can you explain how that presents difficulties to your 
operations?
    Answer. Yes, that is the process that is outlined in the final 
rule. The biggest problem with the interim work authority process 
provided by TSA is that the process doesn't begin until a new hire has 
traveled to a TWIC enrollment center and applied for his or her TWIC in 
person, plus paid the $137 fee. This is a problem, first of all, 
because of the burden it imposes on mariners. When you're a young 
person seeking a job who doesn't even know yet if the maritime industry 
is right for you, it's a big hurdle to be told you've got to fly to 
another island or take a bus halfway across the state to a TWIC 
enrollment center. And, $137 is no small change when you haven't even 
started working yet. From an employer perspective, companies in our 
industry are very concerned that folks considering employment in our 
industry will look at these burdens and say, ``No thanks. I think I'll 
go do something else.'' The maritime industry is already facing a 
severe personnel shortage, and the last thing we want to do is set up 
barriers to entry that discourage prospective employees from coming to 
work for us.
    The second problem with the TSA process is the additional time it 
requires before a new hire can be put to work on a vessel. As a 
practical matter, an employer will not want to send a new hire to a 
TWIC enrollment center to start the process until the new hire has 
passed a drug screen, taken a physical, and had his or her references 
checked. What all of that means is that it may be a week before the 
individual goes to the TWIC enrollment center and ``starts the clock'' 
on the interim work authority process.
    We could address both of these issues--reducing burdens on mariners 
that discourage new entrants into the industry, and enabling employers 
to put new employees to work more quickly--if we could begin the 
process with a computerized check against the terrorist watch list 
instead of a trip to the TWIC enrollment center. This approach would 
not diminish security in any way, since it's the same check that TSA is 
proposing to use to grant interim work authority in the final rule. 
But, it would save a mariner the time and expense of a trip to the 
enrollment center, and it could be done immediately, concurrently with 
the drug screen, physical, and reference checks that the company will 
conduct. This would enable mariners to get to work sooner, since the 
terrorist watch list check could be in process while the mariner is 
completing these other essential steps in the new hire process.
    After a reasonable period of time--say, 90 days--a new hire that 
intended to stay in the industry would be required to go the enrollment 
center, apply for a TWIC, and pay the $137 fee. This would be a 
meaningful interim work authority provision that would work for the 
maritime industry without compromising security.

    Question 2. As the Coast Guard moves forward with completing a 
companion rule to consolidate existing mariner credentials, I believe 
it is important for the Committee to have a better understanding of the 
impacts these cumulative fees are having on the industry. Can you 
please provide the Committee a summary of procedures and of the costs a 
mariner incurs to serve on U.S.-flag vessels?
    Answer. A career in the maritime industry is rewarding, but it's 
also expensive. In addition to the cost of the TWIC--$137 for a five-
year credential--mariners who are required to hold Coast Guard licenses 
or Merchant Mariner's Documents also pay user fees for those 
credentials. Those fees range from $140 for an original MMD with no 
endorsement, to $255 for a license as Mate or Master of Towing Vessels, 
to $280 for an MMD with a tankerman endorsement. As with the TWIC, 
though, the cost of the credential itself is only part of the story--
it's the hidden costs like the time and expense of travel to a TWIC 
enrollment center or Coast Guard Regional Exam Center that are even 
more significant for most mariners. An even more serious concern of 
many mariners today is the cost of medical tests that may be necessary 
to prove that a mariner is medically qualified for a license or 
document. A draft Coast Guard policy document (a Navigation and Vessel 
Inspection Circular, or NVIC, on medical and physical standards for 
merchant mariner credentials) would require a mariner who has one of 
more than 200 listed medical conditions to provide extensive 
information to the Coast Guard. In some cases, the required information 
includes consultations with specialists and medical test results that 
may or may not be covered by insurance.
    For mariners in the coastal and oceangoing towing industry, there 
are also enormous expenses associated with the training courses 
required for an STCW certificate. (STCW is the International Convention 
on Standards of Training, Certification, and Watchkeeping for 
Seafarers.).
                                 ______
                                 
   Response to Written Question Submitted by Hon. Maria Cantwell to 
                     Capt. Paul Kaipo Pomaikai, Sr.

    Question. You have stated your concern regarding the proposal to 
require card readers on every towing vessel. In your opinion, would 
requiring card readers only on vessels employing larger numbers of 
mariners (for example, ten or more) be a workable middle ground? Would 
such a compromise help alleviate the burden this requirement could 
cause on those in the maritime industry?
    Answer. This would certainly provide an acceptable compromise. The 
SAFE Port Act gives DHS the authority to limit the card reader 
requirement to vessels with more than a certain number of crew, to be 
determined by the agency. We suggest that, at a minimum, vessels with 
12 or fewer crew members requiring a TWIC should not be required to 
have a card reader installed on board. Card readers are simply 
unnecessary for vessels with small crews, such as towing vessels whose 
crew sizes typically range from four to ten mariners. In an average 
U.S.-flagged towing vessel operation, every employee is known to 
management and fellow crewmembers. A stranger onboard the vessel is 
immediately obvious. Personal knowledge of fellow employees provides a 
higher security standard than reliance upon an electronic reader, no 
matter how sophisticated the technology employed. Access control 
procedures are already included as part of a Coast Guard-approved 
vessel security plan.
                                 ______
                                 
  Response to Written Question Submitted by Hon. Daniel K. Inouye to 
                          Michael J. Rodriguez

    Question. Why is it important that we utilize the International 
Civil Aviation Organization standards for U.S.-flag vessels operating 
in international commerce?
    Answer. There are several important reasons for using the 
International Civil Aviation Organization standards to implement the 
Transportation Worker Identification Credential.
    First, we agree wholeheartedly that the implementation of a uniform 
Transportation Worker Identification Credential (TWIC) system is an 
important tool in the effort to prevent maritime terrorism. Maritime 
workers, whether they are longshoremen, seafarers or harbor pilots are 
on the front lines. We are deeply disappointed by TSA's inability to 
establish a program to identify and bar from security-sensitive 
transportation jobs those individuals who clearly pose a security risk. 
We shared the Committee's frustration when we learned, during the April 
12, 2007 hearing, that the schedule for TWIC implementation is falling 
so far behind. We believe that one of the reasons it is falling behind 
lies with the policy decision to use the unproven and inappropriate 
FIPS-201 standard for the biometric identity cards in the TWIC program, 
rather than the widely used and internationally recognized 
International Civil Aviation Organization (ICAO) standards.
    ICAO is an organization within the United Nations with headquarters 
in Montreal. It was established by international convention in Chicago 
in 1946. Today ICAO has 190 member states including the United States. 
Our country is also a member of ICAO's governing council.
    Civil aviation is a critical service that is vital to the global 
economy. Therefore, ICAO members work toward standards of practice in 
biometric identity systems for machine readable travel documents to 
facilitate the movement by air of persons around the world. Maritime 
shipping is likewise essential to our global society. The movement of 
cargo, passengers and workers through our ports would also benefit from 
the implementation of uniform international standards.
    We believe Congress anticipated the need for compatibility between 
identity documents for transportation workers in the Maritime 
Transportation Security Act of 2002 (MTSA) section 103(a). The MTSA 
encourages the U.S. Coast Guard to:

        ``. . . negotiate an international agreement, or an amendment 
        to an international agreement, that provides for a uniform, 
        comprehensive, international system of identification for 
        seafarers that will enable the United States and another 
        country to establish authoritatively the identity of any 
        seafarer aboard a vessel within the jurisdiction, including the 
        territorial waters, of the United States or such other 
        country.''

    Likewise, Section 303(b)(1) of the Enhanced Border Security and 
Visa Entry Reform Act of 2002 (Border Security Act) very clearly 
establishes Congress's intent that the US system of machine readable, 
tamper-resistant travel documents conform to international standards. 
The section reads, in part:

        ``The Attorney General and the Secretary of State shall jointly 
        establish document authentication standards and biometric 
        identifier standards to be employed on such visas and other 
        travel and entry documents from among those biometric 
        identifiers recognized by domestic and international standards 
        organizations.''

    Furthermore, in section 110(a) of the SAFE Port Act of 2006 (SAFE 
Port Act), Congress expressed its desire for the Secretary of Homeland 
Security to expedite the crewmember identification process when it 
amended the MTSA. The amended section 70111(a) of the MTSA now reads:

        ``Requirement.--Not later than one year after the date of 
        enactment of the SAFE Port Act, the Secretary, in consultation 
        with the Attorney General and the Secretary of State, shall 
        require crewmembers on vessels calling at United States ports 
        to carry and present on demand any identification that the 
        Secretary decides is necessary.''

    If foreign crewmembers will be carrying ICAO-compliant identity 
documents, it is difficult to imagine why the Department of Homeland 
Security has selected a transportation worker identification system 
that is not compatible with ICAO. We feel that if the TWIC program were 
designed to comply with the ICAO standards, then TSA and the U.S. Coast 
Guard would have a much greater chance of meeting the deadlines 
established by Congress.
    Given the unambiguous intent of Congress as expressed in the MTSA 
and the Border Security Act that the TWIC and U.S. travel documents 
conform to international standards, its is clear that Congress 
recognized the value of globally interoperable systems and has directed 
the relevant agencies to pursue interoperability. What is not clear is 
why TSA and the Coast Guard have ignored this aspect of the 
Congressional mandate and have chosen instead an internal Federal 
Government standard for the TWIC that will never be interoperable with 
international standards and was untested and unproven on the massive 
scale required for the TWIC program.
    The International Labor Organization (ILO), the United Nations 
organization responsible for seafarer identity documents, after special 
sessions, adopted the ILO Seafarer Identity Document (SID) Convention 
185 (C-185) in June 2003. The purpose of the SID Convention is to 
establish uniform interoperable biometric identity document standards 
to be used in conjunction with the International Maritime 
Organization's (IMO) International Ship and Port Security Code (ISPS 
Code) that establishes the international maritime security system. The 
ISPS Code is the product of an initiative launched by the United States 
under the auspices of the United Nations organization responsible for 
the regulation of international shipping, to establish a uniform 
international maritime transportation security regime. The U.S. Coast 
Guard's Federal maritime security regulations (33 CFR 104 and 105) are 
based upon the ISPS Code. In addition to setting out the fundamentals 
for a comprehensive Seafarer's Identity Document management system, C-
185 prescribes the use of the ICAO biometric identifier standards as 
the basis for the SID. The ICAO standards are currently in use 
worldwide for passports, visas and other travel documents and cards.
    The ICAO standards are a proven and internationally accepted 
technology for identity documents. The readers and other supporting 
hardware have also been proven at airports around the world. We believe 
TWIC should start with this established system and build upon it as 
technology advances and new capabilities emerge.
    There are several benefits to this approach for the TWIC program.
    First, the Department of Homeland Security and the American 
taxpayer will not have to invent a new technology. In our view, this is 
what Congress envisioned in authorizing the TWIC program.
    Second, because the SID's carried by seafarers from other nations 
will be ICAO compliant, port facility operators and the Coast Guard 
would be able to scan and track the identity documents of foreign 
seafarers as they enter and exit the United States. Additionally, there 
would be less of a tendency for facility operators to lock down 
seafarers aboard their vessels. Lock downs are frequent today, in part, 
because the seafarers do not have acceptable identity documents. The 
identity card carried by a professional mariner should allow the 
mariner the same freedom of movement in the United States that 
passports and visas give other travelers.
    Third, American seafarers would be able to use their TWIC cards 
abroad for access to facilities in foreign ports. This would have the 
effect of ensuring American seafarers will have free access for shore 
leave, crew changes, and travel to and from their ships.
    By starting from a straightforward and uncomplicated foundation--by 
adopting the same proven technology that is widely used for access 
control of foreign visitors to the United States as well as at 
international airports and in foreign ports, we can dramatically reduce 
the problems with the present TWIC program and increase the ease and 
speed of implementation of the TWIC.
    We understand that TSA and the Coast Guard have invested a great 
deal of time and money in trying to develop a new technology for the 
TWIC program. However, TSA has issued not even a single working TWIC 
card 5 years after being directed to do so by Congress. We believe it 
is not too late to get the program right by moving forward with a 
simple, internationally accepted and interoperable identification 
program based on the ICAO standards.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                          Michael J. Rodriguez

    Question 1. How many states are moving forward with their own 
security credentialing programs in the absence of a Federal system?
    Answer. At this point, we are aware of only one state--Florida--in 
which individual ports have each put in place their own unique security 
credentialing and access control programs. However, it is important to 
understand that under the existing statute, there is no Federal 
preemption over such programs--not only each state, but each individual 
port and individual facilities within the same port are free to impose 
their own requirements for access control and security credentialing. 
This means that mariners who have a Federal TWIC card and who work 
aboard vessels that trade from port to port, from state to state, and 
from the United States to overseas ports will nevertheless be subjected 
to numerous costly and time-consuming background checks and application 
processes, delaying and impeding their opportunity to do their jobs and 
earn their livelihood and unnecessarily disrupting the movement of 
American commerce.
    In addition, the lack of a Federal program could mean that 
mariners: (1) who do not possess a credential issued by the local 
facility will be prohibited from taking shore leave or joining a vessel 
while the vessel is docked at the facility, (2) will have to pay each 
facility for an access card, (3) will have to continue to pay 
outrageous fees for escort and security services or face imprisonment 
aboard their vessels, and (4) will be discouraged from remaining in the 
industry by additional, unnecessary administrative and financial 
burdens.
    The preamble to TSA's Final Rule on TWIC (January 25, 2007) on the 
question of Federal preemption states:

        ``Under this rulemaking, States will not be preempted from 
        instituting their own background checks or badging systems in 
        addition to the TWIC.''

    In the recently published USCG circular that contains guidance for 
the implementation of the TWIC program port facilities are advised that 
they may incorporate the TWIC into their own unique existing access 
control systems.
    It is clear that if individual states and port facilities are 
permitted to retain their own unique access control systems, the 
national character of the TWIC card will be destroyed and the TWIC 
program will be worthless from the standpoint of mariners, ship service 
personnel, long haul truck drivers, rail crews and other traveling 
workers who require a single credential that can be used across the 
entire system.
    Transportation workers require a universally accepted card that can 
be used across all ports where their employment may take them. Such 
workers are an integral part of the transportation system that makes 
interstate and foreign commerce possible. Imposing additional local 
requirements that demand numerous applications, background checks and 
fees, perhaps for dozens of individual cards, clearly places an 
unreasonable burden on interstate and foreign commerce. There is an 
urgent need for Federal laws and regulations governing the TWIC to 
preempt any state or local requirements on the same subject matter for 
such workers.
    We believe that unless the Federal Government acts to ensure that 
the Federal TWIC preempts any and all state and local programs, the 
maritime workforce will be negatively affected and the efficient flow 
of commerce will be impeded without the achievement of any additional 
security benefits for our Nation. Requiring maritime workers to obtain 
a separate access control credential for every port, facility and 
terminal at which their vessel calls or at which they work will subject 
American maritime transportation workers to additional financial and 
administrative burdens, discouraging Americans from entering our 
industry and encouraging others to leave the industry for other 
employment--adversely affecting the civilian maritime manpower base 
relied upon by the Department of Defense.
    From a security standpoint, there is nothing to be gained from 
subjecting American mariners to the whims and vagaries of each 
individual state, port and facility that decides to issue its own 
access and security credential. The final rule to implement the Federal 
TWIC program has been published and these national requirements, and 
not local requirements, should prevail.

    Question 2. How long do you think they will wait for the DHS to get 
this right?
    Answer. Although we do not have access to information regarding the 
intentions of individual states, ports and facilities, we believe it is 
fair to conclude that the legitimate concerns about the risks of a 
maritime-related terrorist act and the delays in implementing a Federal 
program will lead to more state and local access control systems. We 
understand these concerns, and we understand why states, ports and 
individual facilities may see the need to act unilaterally to fill a 
vacuum. We also understand that the more this happens, the more 
disruptive it will be for maritime commerce.
    To the degree to which states, ports and facilities act, each 
different system will require a separate application process, a 
separate background check, separate administrative procedures, and 
separate paperwork burdens. This will not enhance security as much as 
cause confusion and disruptions. We reiterate that the best way for the 
Federal Government to act quickly and efficiently, and to fulfill its 
responsibilities to protect national security and to encourage the 
unimpeded flow of commerce, is to adopt the ICAO standards we 
referenced previously and to ensure that the Federal system preempts 
all others. Acting expeditiously and forcefully is, in our opinion, the 
best way for the Federal Government to ``get it right''.
    We thank the Committee for the opportunity to give testimony on the 
TWIC program and we are pleased to answer these questions. We look 
forward to continuing to assist the Committee in whatever manner 
necessary, including bringing in technical experts who can speak with 
greater authority on the technical aspects of our views.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
